<html>
<title> - COMMEMORATION OF THE 30TH ANNIVERSARY OF THE CLEAN WATER ACT</title>
<body><pre>[Senate Hearing 107-1012]
[From the U.S. Government Printing Office]



                                                       S. Hrg. 107-1012
 
      COMMEMORATION OF THE 30TH ANNIVERSARY OF THE CLEAN WATER ACT
=======================================================================



                                HEARING

                               before the

                              COMMITTEE ON
                      ENVIRONMENT AND PUBLIC WORKS
                          UNITED STATES SENATE

                      ONE HUNDRED SEVENTH CONGRESS

                             SECOND SESSION

                               __________

                            OCTOBER 8, 2002

                               __________

  Printed for the use of the Committee on Environment and Public Works










                                    _____

                 U.S. GOVERNMENT PRINTING OFFICE

83-692                 WASHINGTON : 2004
_________________________________________________________________
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866)512-1800; 
DC area (202) 512-1800 Fax: (202) 512-2250 Mail: Stop SSOP, 
Washington, DC 20402-0001












               COMMITTEE ON ENVIRONMENT AND PUBLIC WORKS

                      ONE HUNDRED SEVENTH CONGRESS
                             SECOND SESSION

                  JAMES M. JEFFORDS, Vermont, Chairman
MAX BAUCUS, Montana                  BOB SMITH, New Hampshire
HARRY REID, Nevada                   JOHN W. WARNER, Virginia
BOB GRAHAM, Florida                  JAMES M. INHOFE, Oklahoma
JOSEPH I. LIEBERMAN, Connecticut     CHRISTOPHER S. BOND, Missouri
BARBARA BOXER, California            GEORGE V. VOINOVICH, Ohio
RON WYDEN, Oregon                    MICHAEL D. CRAPO, Idaho
THOMAS R. CARPER, Delaware           LINCOLN CHAFEE, Rhode Island
HILLARY RODHAM CLINTON, New York     ARLEN SPECTER, Pennsylvania
JON S. CORZINE, New Jersey           PETE V. DOMENICI, New Mexico
                 Ken Connolly, Majority Staff Director
                 Dave Conover, Minority Staff Director












                            C O N T E N T S

                              ----------                              
                                                                   Page

                            OCTOBER 8, 2002
                           OPENING STATEMENTS

Bond, Hon. Christopher S., U.S. Senator from the State of 
  Missouri.......................................................     4
Chafee, Hon. Lincoln, U.S. Senator from the State of Rhode Island     6
Clinton, Hon. Hillary Rodham, U.S. Senator from the State of New 
  York...........................................................     5
Jeffords, Hon. James M., U.S. Senator from the State of Vermont..     1
Voinovich, Hon. George V., U.S. Senator from the State of Ohio...     6

                               WITNESSES

Chin, Jordan, student, Portland, OR..............................    43
    Prepared statement...........................................    83
Chris, Grace, student, White River Junction, VT..................    41
    Prepared statement...........................................    81
Hoeft, Kristen, student, Eagan, MN...............................    45
    Prepared statement...........................................    84
Kennedy, Robert F., Jr., senior counsel, Natural Resources 
  Defense Council................................................    26
    Prepared statement...........................................    67
Mehan, G. Tracey, Assistant Administrator for Water, 
  Environmental Protection Agency................................    18
    Prepared statement...........................................    53
    Responses to additional questions submitted by:
        Senator Chaffee..........................................    62
        Senator Jeffords.........................................    57
        Senator Voinovich........................................    63
Mitchell, Hon. George, retired U.S. Senator from the State of 
  Maine..........................................................    11
    Prepared statement...........................................    51
Pinault, Paul, president, Association of Metropolitan Sewerage 
  Agencies and director, Narragansett Bay Commission.............    29
    Prepared statement...........................................    75
    Responses to additional questions submitted by:
        Senator Jeffords.........................................    76
        Senator Voinovich........................................    78
Savage, Roberta H., president, America's Clean Water Foundation..    39
    Prepared statement...........................................    80
Stafford, Hon. Robert, retired U.S. Senator from the State of 
  Vermont........................................................     9
    Prepared statement...........................................    50
Weber, Thomas A., Associate Chief, Natural Resource Conservation 
  Service, U.S. Department of Agriculture........................    22
    Prepared statement...........................................    64

                          ADDITIONAL MATERIAL

Letter, Ken Kirk, executive director, Association of Metropolitan 
  Sewerage Agencies to Senator Jeffords..........................    86
Statements:
    American Society of Civil Engineers..........................    86
    Lee, Robert E., chairman, National Cattlemen's Beef 
      Association................................................    89















       COMMEMORATING THE 30TH ANNIVERSARY OF THE CLEAN WATER ACT

                              ----------                              


                        TUESDAY, OCTOBER 8, 2002

                                       U.S. Senate,
                 Committee on Environment and Public Works,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 9:38 a.m. in room 
406, Senate Dirksen Building, Hon. James Jeffords (chairman of 
the committee) presiding.
    Present: Senators Jeffords, Bond, Carper, Chafee, Clinton, 
Voinovich and Wyden.

OPENING STATEMENT OF HON. JAMES M. JEFFORDS, U.S. SENATOR FROM 
                      THE STATE OF VERMONT

    Senator Jeffords. The committee will come to order.
    I am very pleased to be here today to commemorate the 30th 
anniversary of the Clean Water Act. This statute was one of the 
first environmental laws that our Nation adopted, and it has 
remained a cornerstone of our efforts to protect and preserve 
our Nation's waters.
    I am particularly honored to welcome two members of this 
body and of the committee who are joining us to celebrate the 
event--Senator Stafford of Vermont, who will appear, who is 
already there on the screen. Bob, welcome to our show. It is 
nice to see you and I am glad you could be with us.
    Senator Stafford. Thank you very much.
    Senator Jeffords. Senator Mitchell of Maine. Each of them 
played a key role in the passage of the 1987 amendments to the 
Clean Water Act. Senator Stafford, who is joining us by video 
conference from Vermont, was the chairman of the committee when 
the amendments were crafted. Senator Mitchell of Maine was the 
ranking member of the Subcommittee on Environmental Protection 
during the development of these amendments and was the floor 
manager of one of the two historic votes which passed these 
amendments to override President Reagan's veto.
    We are truly lucky that these distinguished members are 
joining us today to speak about their views on the progress we 
have made with the cleanup of our Nation's waters. Thank you 
both for being here.
    Sadly, the true steward of the 1987 amendments to the Clean 
Water Act, John Chafee, is of course not with us today. Senator 
Chafee was one of my closest friends in the Senate. We ate 
lunch together almost every Wednesday for about 10 years, and 
his contribution to our Nation cannot be overstated. Senator 
Chafee's leadership on the environmental issues as a member and 
as the chairman of the committee was unparalleled through the 
last two decades. His fingerprints can be found on virtually 
every major piece of environmental legislation that became law 
during those two decades. It was his leadership that brought 
the bipartisan 1987 Clean Water Amendments through the Senate, 
through the conference with the House, and passed the 
Presidential veto and into law. Because of his efforts, our 
children and grandchildren cannot imagine a world where excess 
pollution can cause a river to burn.
    We are also honored to have Senator Lincoln Chafee here as 
a member of the committee, continuing his father's important 
work.
    I also want to make two comments about the witness list for 
this hearing. First, due to unfortunate last minute 
circumstances, Mr. Tom Morrisey from Connecticut will not be 
participating in our hearing this morning. He will be available 
to answer questions for the record. Second, I want to give a 
warm welcome to our final panel made up of several students 
participating in the Youth Watershed Conference, which is being 
held this week in celebration of the anniversary of the Clean 
Water Act. I particularly want to welcome a fellow Vermonter, 
Grace Chris from White River Junction, Vermont.
    To understand the significance of the Clean Water Act, one 
has to recall the state of our Nation's waterways in the early 
1970s. The fact is, our Nation was faced with a water pollution 
crisis. The most vivid example was the Cuyahoga River in Ohio, 
which became so polluted with chemicals and industrial waste 
that it burst into flames. Toxic materials were routinely 
dumped into pristine water bodies by industrial polluters. It 
was standard practice in municipalities to have underground 
pipes deliver raw sewage from homes directly into rivers and 
streams without any intervening treatment. Americans began to 
ask, is this the best we can do?
    I can attest to the fact that Vermonters answered with a 
vehement no. They demanded actions to solve our environmental 
problems. In 1970, I was the State Attorney General of Vermont. 
My office worked to create Vermont's Act 252, which enacted the 
toughest water pollution laws in the country at that time. I 
had the honor of testifying before the committee during Senator 
Muskie's chairmanship during the first phases of the debate on 
the Clean Water Act. Some of the concepts in Act 252 are today 
part of the Federal water pollution laws.
    Congress also answered no to the question, is this the best 
we can do. Led by the champions like Senator Muskie and Baker, 
they came together on a bipartisan basis to override President 
Nixon's veto of the Clean Water Act. Originally enacted in 
1948, the 1972 Clean Water Act completely revised the existing 
statute and created a clean water program that we know today. 
The Act consists of two major parts--regulations on industries 
and cities designed to reach a goal of zero discharge of 
pollutants; and the authorization of Federal financial 
assistance to wastewater treatment.
    We have made progress. Virtually every community served by 
the publicly owned treatment works is served by a plant that 
uses secondary treatment. This progress was facilitated by the 
Federal assistance provided for municipal wastewater treatment 
plant construction.
    Despite progress on these and other issues, it was clear 
that without an action on other problems such as toxics and 
non-point source pollution, we would not be able to meet the 
clean water goals. In 1987, Americans again asked, is this the 
best we can do? Again, Congress said ``no''. Champions like 
Senator Chafee, Senator Stafford, Senator Mitchell and Senator 
Bentsen came together in a bipartisan coalition to override 
President Reagan's veto in 1987 amendments, and enacted the 
last major reform to this country's clean water program.
    Many of the key pieces of the 1987 amendments continue to 
resonate in our clean water debate today, in particular non-
point source pollution, storm water, and funding levels. We 
have made some progress on these issues, building on the 
strength of the 1987 amendments. However, much remains to be 
done. Almost half of our Nation's waters are not safe for 
fishing, swimming, boating, sources of pollution are 
responsible for half of our water quality problems. Just last 
week, Administrator Whitman released the Agency's gap analysis, 
which identified an enormous gap between current funding levels 
and infrastructure needs for the publicly owned treatment 
works. In Vermont, there are two dozen streams impaired by 
storm water run-off. These issues represent a real daily threat 
to public health and to the wildlife that depend on clean water 
to sustain life.
    On this, the 30th anniversary of the Clean Water Act, 
America again asks, is this the best we can do? The answer is 
no. Our Nation still faces many important challenges. Today, 
our actions overseas dominate the debate in Congress and 
overshadow equally pressing problems here at home. Water 
pollution continues to be a clear and present problem. It is 
real and it deserves our attention. We must take action to 
respond to America's call for cleaner water. We must squarely 
address non-point source pollution.
    We must also have a strong TMDL program to move States more 
rapidly toward cleaning up our impaired waterways. It is 
imperative that the TMDL rulemaking being undertaken by the 
Administration is a second step in the program, rather than a 
step backward. We must invest in our Nation's water 
infrastructure. In an effort spearheaded by Senator Graham of 
Florida, the committee took action this year to pass the Water 
Investment Act. This bill takes a first step toward closing the 
gap in investment for water infrastructure.
    I have worked with Senators Smith and Crapo and Graham in 
the Appropriations Committee to increase funding to SRF. This 
year, we succeeded with the first increase in years. I want to 
thank Senators Bond and Mikulski for their efforts. I believe 
that we must continue to move forward on controlling storm 
water and combined sewer outflows. A major element in our 
ability to combat these problems is funding. In the Water 
Investment Act, we included a separate authority for EPA to 
provide assistance to communities in controlling combined sewer 
overflows. In September, I joined my colleagues on this 
committee in strongly supporting an amendment to the Clean 
Water Act proposed by Senator Chafee to ensure that smaller 
communities covered by the phase two storm water regulations 
taking effect in March will be able to continue the use of 
Federal funds to solve storm water problems. It is clear that 
if we do not take action to address these issues, progress will 
stall.
    As Americans ask us on the 30th anniversary of the Clean 
Water Act, is this the best we can do, we must answer no, as 
our colleagues did in 1972 and 1987. I believe that we are up 
to the challenge.
    I now will turn to Senator Bond and ask for his comments.

  OPENING STATEMENT OF HON. CHRISTOPHER S. BOND, U.S. SENATOR 
                   FROM THE STATE OF MISSOURI

    Senator Bond. Thank you very much, Mr. Chairman. It is a 
pleasure to join you in welcoming our former colleagues, 
Senator Stafford and Senator Mitchell, and I am particularly 
pleased to have the students with us today. I apologize. I am 
supposed to be on the floor at 9:45 with Senator Bingaman to 
try to get a bill moving, so I am not going to be able to stay 
for the testimony. I do want to make my entire statement a part 
of the record. We are here today because we all know that clean 
water is something we depend upon for a safe and healthy life. 
Babies need water, seniors need water, each of them is 
vulnerable to water problems. Our agricultural crops need 
water. Businesses need water. Wildlife, with whom we share this 
beautiful land, needs water. Our boats need water. As a 
sometime would-be fisherman, we need clean water for the fish.
    We have come a long way in improving the quality of water, 
but unfortunately, as you have indicated, Mr. Chairman, we 
still have a long way to go. We worked hard in the 
Appropriations Committee to try to get the money from very 
tight budgets. Working with Senator Mikulski this year, we 
succeeded in increasing the money for the clean water State 
revolving fund by $100 million over last year's level, to $1.45 
billion. We increased the drinking water state revolving fund 
$25 million over last year, to $875 million. Over the last 4 
years, we have increased funding for section 319 non-point 
source grants by 20 percent and increased State water pollution 
control programs grants by 66 percent.
    I was also proud to introduce a Senate resolution, joined 
by many of my colleagues here, to commemorate the 30th 
anniversary of the Clean Water Act, but we must do more. The 
chairman has already cited a gap analysis which shows about 
$500 billion in unfunded water needs, which is too much of a 
burden for local towns and cities to bear alone. We are going 
to have to do better.
    Let me say that I am sorry that this committee passed up 
the opportunity this year to contribute constructively to our 
Nation's drinking water and clean water funding needs. I was 
particularly disappointed that we reported out a water 
infrastructure reauthorization measure with absolutely no 
chance of passage. In the face of $500 billion in unfunded 
water infrastructure needs, the bill, S. 1961, would actually 
have cut water infrastructure funding in many States. Under 
current spending levels, the bill would cut water 
infrastructure funds for New York, Maryland and Missouri by as 
much as 50 percent. Frankly, that dog won't hunt. We need more 
water dollars, not less.
    The proposed infrastructure bill also stripped 
consideration of non-point source needs from the funding 
formulas. Non-point source problems, such as you have 
indicated, Mr. Chairman, like run-off storm water management 
and pollution from large livestock operations, are probably one 
of the greatest challenges we face now. It is not just in 
agricultural States like mine. We have agriculture. We have 
cities with shopping center run-offs. The non-point source 
pollution can even come from lawns in heavily populated 
residential areas. Any water infrastructure bill, to be a good 
one to pass Congress, is going to need to include both non-
point source needs and funding increases for the States.
    As we continue the commemoration of the Clean Water Act, I 
hope we will soon take action that such an anniversary, as well 
as our waters deserve. I thank you very much for holding the 
hearing.
    Senator Jeffords. Thank you for an excellent statement and 
all the work that you have done to help this committee to bring 
reality to the appropriation process.
    Senator Bond. It's tough.
    Senator Jeffords. I know.
    Senator Clinton.

OPENING STATEMENT OF HON. HILLARY RODHAM CLINTON, U.S. SENATOR 
                   FROM THE STATE OF NEW YORK

    Senator Clinton. Thank you, Mr. Chairman. I will submit my 
complete statement for the record, but I want to thank you for 
holding this hearing to commemorate the 30th anniversary of the 
Clean Water Act. I am delighted to see by satellite Senator 
Stafford, and particularly pleased to see Senator Mitchell 
here. I also want to acknowledge and thank one of the 
staunchest defenders of our Nation's waterways, Robert Kennedy, 
Jr., who serves as the chief prosecuting attorney for the 
Hudson Riverkeepers and is the senior attorney for the Natural 
Resources Defense Council. He has led the fight to protect New 
York City's water supply. As many of you know, his reputation 
as a defender of the environment stems from his work on the 
Hudson River and the Long Island Sound. We are very grateful 
for that. As we hold this hearing, many of us are concerned 
that the Clean Water Act, which has done so much to clean up 
the waters in our country, is under attack. There is too much 
evidence of the Administration attempting to roll back 
regulations, undermine their enforcement, and generally undo 
the work that was started 30 years ago by people such as 
Senators Mitchell, Stafford and wonderful Senator Chafee as 
well.
    I hope, Mr. Chairman, that we celebrate this with the 
appropriate recognition of all that we have accomplished, but 
frankly with a bit of a concern and challenge that we do 
everything we can to prevent the importance of the Clean Water 
Act on its 30th anniversary from being undermined by this 
Administration and its policies.
    I look forward to working with you. I, too, unfortunately 
am going to have to excuse myself before all of the witnesses 
appear, but I have read their testimony and I look forward to 
working with you, Mr. Chairman.
    Senator Jeffords. Thank you very much, Senator.
    Senator Chafee.

OPENING STATEMENT OF HON. LINCOLN CHAFEE, U.S. SENATOR FROM THE 
                     STATE OF RHODE ISLAND

    Senator Chafee. Thank you, Mr. Chairman.
    I would like to recognize Rhode Islander Paul Pinault here, 
who is executive director of the Narragansett Bay Commission 
and is a member of the third panel. Also it is a pleasure to 
welcome the authors of the 1987 amendments, Senator Mitchell 
and Senator Stafford, who worked with my dad to successfully 
override two vetoes--no easy task. I look forward to the 
testimony.
    Thank you, Mr. Chairman.
    Senator Jeffords. Senator Voinovich.

  OPENING STATEMENT OF HON. GEORGE V. VOINOVICH, U.S. SENATOR 
                     FROM THE STATE OF OHIO

    Senator Voinovich. Thank you, Mr. Chairman. I really 
appreciate your conducting this hearing to commemorate the 30th 
anniversary of the Clean Water Act. I am pleased to join the 
board of Governors for the era of clean water, and to cosponsor 
Senator Bond's resolution.
    The law and the amendments to it--I am pleased that Senator 
Stafford and Senator Mitchell are here--and the early 75/25 
money that was made available has been very important to Ohio 
and has helped us make a real impact on improving water quality 
and restoration of Ohio's waters, particularly Lake Erie, our 
Great Lake. Over 30 years ago, I think you mentioned in your 
testimony in your opening statement, Mr. Chairman, Lake Erie 
was dying and the Cuyahoga River, which was the major river 
flowing into Lake Erie, caught on fire as a result of an oil 
slick. That decline of the lake became an international symbol 
of pollution and environmental degradation. I remember BBC 
coming to Cleveland to do a program on the dying lake. I 
remember Bill Ruckelshaus asking me to go out as a member of 
the State legislature to Cheyenne, Wyoming to talk to Rocky 
Mountain legislators about the importance of clean air and 
clean water, and not to sacrifice their economy on the altar of 
degrading their air and water.
    In the late 1960s, my district, my northern boundary was 
Lake Erie. I made up my mind that I would go to the State 
legislature and was committed to what I refer to as fighting 
the second battle of Lake Erie, and that was to bring the lake 
back and reclaim it. I worked to amend our air and water 
pollution legislation. Senator Clinton, we helped stop the 
drilling for oil in the bed of Lake Erie. Michigan, Ohio, New 
York were all hell-bent to go forward and do it. We got the 
Governors to stop it and worked with legislators from four 
States to develop the contours of a Environmental Protection 
Agency legislation, and was the prime mover in getting that 
done in Ohio. At that time, it was interesting, it was moving 
across the country and the executive branches of government, 
frankly, were not helping us. It is very interesting.
    Today, Lake Erie has improved substantially. Because I was 
concerned that we had not established baseline information, 
before I left the Governor's office, we released the Lake Erie 
quality index to kind of quantify what we had done during a 25-
year period to then when the next one would come out, measure 
whether or not we had improved it or not. There were 10 
indicators--water quality, pollution sources, habitat, 
biological, coastal recreation, boating, fishing, beaches, 
tourism and shipping. We measured that. That measure showed 
that significant progress had been made in most areas. I am 
hoping that when the next index is published that we will show 
that we have continued to make progress in those areas that 
need improvement.
    Whether that happens--I think we should recognize--is in 
our hands. The Federal Clean Water Act and State water 
pollution control laws have contributed to the progress that we 
have made. It has been the cooperation between the State and 
Federal Governments that have made the difference. I think if 
you think about, what was the purpose of the Act, the 
objectives were the restoration and maintenance of the 
chemical, physical and biological integrity of our waterways. 
We have made progress.
    Unfortunately, members of this committee know that we have 
not provided enough money to get the job done. It is 
interesting that President Nixon vetoed this legislation 
initially over money, and I am sure that Senator Mitchell may 
testify that I think President Reagan vetoed it over money 
again. There used to be a song, ``love and marriage, love and 
marriage, you can't have one without the other, it's like a 
horse and carriage.'' The trouble lately is we have had a lot 
of love, but not enough marriage and not enough money----
    [Laughter.]
    Senator Voinovich [continuing]. Being spent here today. Mr. 
Chairman, as you know, we tried to deal with that problem this 
year, and a lot of folks were optimistic that we would increase 
the money for the State Revolving Loan Fund. It fell apart 
because, frankly, many people, including the folks that 
implement the laws, felt that we were trying to be too 
prescriptive, too much mandating on them. They knew that a lot 
more money would not be forthcoming, so they ended up with a 
lot more mandates and prescription, and no money. Then we also 
had difficulties because of Davis-Bacon and some other issues.
    Senator Mitchell, I am going to be interested in hearing 
how you and Senator Stafford got together and worked things 
out. We have really--if you study what we have been doing the 
last year and a half--have spent a time on a lot of legislation 
that would cleanup the environment, but we have gotten very 
little done. It seems that the reason why we have not is we 
have not been able to sit down and figure out how we can 
compromise and work together to make progress.
    Mr. Chairman, I appreciate all of the time you have spent 
this year in trying to improve the environment. I am hopeful 
that regardless of who is in leadership in the Senate that 
somehow next year all of us on this committee and the people 
who are represented and the organizations can sit down at the 
table and try and figure out how we can compromise and move 
forward on some of these areas that are so important to the 
future of our country.
    Thank you, Mr. Chairman.
    [The prepared statement of Senator Voinovich follows:]
          Statement of Hon. George V. Voinovich, U.S. Senator 
                         from the State of Ohio
    Thank you, Mr. Chairman, for conducting this hearing to commemorate 
the 30th anniversary of the Clean Water Act. In celebration of this 
anniversary, I am proud to join the Board of Governors for the ``Year 
of Clean Water'' and to cosponsor Senator Bond's resolution marking the 
30th anniversary of the Act. I am also pleased that Senator Stafford 
and Senator Mitchell are able to join us today, and I look forward to 
their comments.
    The law, its amendments, and the early 75/25 money that was made 
available has been very important to Ohio and has helped us make a real 
impact on improving water quality and restoration of Ohio's waters, 
particularly Lake Erie, our Great Lake.
    Over 30 years ago, Lake Erie was dying and the Cuyahoga River, 
which is a major river flowing into Lake Erie, caught on fire as a 
result of an oil slick. Lake Erie's decline was heavily covered by the 
media and became an international symbol of pollution and environmental 
degradation. I remember the British Broadcasting Company--the BBC--even 
sending a film crew to make a documentary about it.
    In the late 1960's, the northern boundary of my district was Lake 
Erie. I made up my mind that I would go to the State legislature and 
fight what I refer to as the second battle of Lake Erie--to bring the 
lake back and reclaim it. I worked to amend our air and water pollution 
legislation. I remember Bill Ruckelshaus asking me to go out as a 
member of the State legislature to Cheyenne, Wyoming to talk to Rocky 
Mountain legislators about the importance of clean air and clean water, 
and not to sacrifice their economy on the altar of degrading air and 
water.
    I also worked with legislators from four States to develop 
Environmental Protection Agency legislation, and I was the prime mover 
in getting that done in Ohio. Michigan, Ohio, New York all wanted to 
drill for oil in the bed of Lake Erie, but I worked to get the 
Governors to stop it.
    Throughout my career, I have continued to fight for Lake Erie--as 
County Commissioner, Mayor of Cleveland, Governor of Ohio, and United 
States Senator.
    Today, Lake Erie has improved substantially. Because I was 
concerned that we had not established baseline information to document 
where we started or to track the progress we had made, one of my last 
actions as Governor in 1998 was to release the Lake Erie Quality Index 
to quantify the results of our efforts over the previous 25 years to 
clean up the Lake.
    Ten indicators were developed: water quality, pollution sources, 
habitat, biological, coastal recreation, boating, fishing, beaches, 
tourism, and shipping. These indicators measured environmental, 
economic, and recreational conditions related to the quality of life 
enjoyed by those living near or using the waters of Lake Erie. The Lake 
Erie Quality Index demonstrates that we have made significant progress 
in all these areas. At the same time, it identifies the challenges for 
the future.
    When the next Lake Erie Quality Index is published in 2004, I am 
hopeful that we will have made progress in all areas that need 
improvement. Whether and when that happens is in our hands. The Federal 
Clean Water Act and State water pollution control laws have contributed 
greatly to the progress that has been made to improve Lake Erie and 
other waterways throughout the United States. Due to the cooperative 
efforts between the Federal Government and the States during the last 
three decades, our waterways are once again safe for fishing and 
swimming. Unfortunately, members of this committee know that we have 
not provided enough money to get the job done. It is interesting that 
President Nixon and President Reagan both vetoed clean water 
legislation over money.
    Mr. Chairman, as you know, we tried to deal with that problem this 
year, and a lot of folks were optimistic that we would increase the 
money for the State Revolving Loan Fund programs. It fell apart because 
many people, including the folks that implement the laws, felt that we 
were too prescriptive. They also knew that a lot more money would not 
be forthcoming, and they would be left with more mandates and no money. 
Also, there are a number of outstanding issues we ought to be 
compromising on, such as Davis-Bacon.
    I am very interested in hearing from Senator Mitchell and Senator 
Stafford on how they got together and worked things out. We have spent 
a lot of time in the last year and a half on legislation that would 
cleanup our water and the environment, but we have gotten very little 
done. It seems that the reason for this inaction is because we have not 
been able to sit down, compromise, and work together to make progress.
    Mr. Chairman, I appreciate all of the time you have spent this year 
in trying to improve the environment. I am hopeful that regardless of 
who is in leadership in the Senate next year, all of us on this 
committee will sit down at the table with all interested parties to 
figure out how we can compromise and move forward on some of these 
areas that are so important to the future of our country.
    Thank you, Mr. Chairman.

    Senator Jeffords. Thank you. You have been invaluable in 
your help on this committee and I appreciate your leadership in 
a number of areas, and look forward to continuing to work with 
you.
    Now to give us all the answers, we will move back in 
history a little bit to our two honored guests here that have 
come to be with us today. I will first go to my good friend 
from Vermont, Senator Stafford, who is with us by virtue of the 
modern methods and technology to bring us together. Bob, it is 
a pleasure to have you with us. Just coincidentally, he and I 
grew up about 150 yards apart--not the same years--so we have 
many stories to tell about growing up there on Kingsley Avenue 
and Main Street. I had also the challenge of my life, which was 
following in your footsteps. I have wandered off a few times 
and stumbled a few times, but I have always looked to you to 
bring me back in the right direction and you have been 
successful in many cases in doing that. Bob, why don't you tell 
us how you got it done?

         STATEMENT OF HON. ROBERT STAFFORD, A RETIRED 
             U.S. SENATOR FROM THE STATE OF VERMONT

    Senator Stafford [testifying by means of video-conferencing 
technology from Rutland, VT]. Jim, it is a real pleasure to be 
here in front of this committee which you now chair, as I 
appreciate this chance to speak with you and your members and 
whatever the public may hear as to what I have to say.
    We have come a long way, I think, since 1972. It is almost 
impossible to imagine there was a time in Vermont when rivers 
were turned the color of the dye used in the woolen mills and 
when untreated human sewage flowed directly into the waters of 
our State. That is part of history. Certainly, the students 
with you today do not know the time, Mr. Chairman, and I hope 
they never will know that experience we had back then.
    The Clean Water Act changed the national attitude toward 
our rivers and instructed us on how to manage our waste. 
Passage of the Clean Water Act in 1987 was the culmination of 
the greatest bipartisan--let me underscore bipartisan, because 
I think that is the key to making progress in the future, 
putting aside partisanship and working purely for the good of 
the country is the key. It was in my day. I think it still is.
    Passage of the Clean Water Act in 1987 was the culmination 
of the greatest bipartisan environmental issue and effort of my 
tenure as chairman of this committee. It took 4 years of 
grueling work, hearings, negotiations and compromise--and 
compromise, negotiations and hearings and so on and so on. It 
survived, as has been pointed out, two Presidential vetoes. The 
result is a law at the heart of our national environmental 
framework.
    There is one man who has been mentioned already--a dear 
friend of mine, as well as the chairman's and others--and that 
is Senator John Chafee of Rhode Island, whose son is sitting on 
the committee today. It was Senator Chafee who presided over 
the hearings on this issue. It was Senator Chafee who led the 
conference committee to produce a package that passed, believe 
it or not, unanimously in both the House and the Senate. It was 
Senator Chafee who championed the cause and the Nation is 
better for his service. I was proud to serve with him on this 
committee and proud to count him as a friend. His work and 
dedication must not be and will not be forgotten.
    It is a very special honor for me to testify today before 
John's son, Senator Lincoln Chafee, who as I pointed out is now 
a member of this committee, and whom I am pleased to see 
continuing his father's legacy of environmental protection.
    The 1987 amendments took several main steps to reduce water 
pollution. Funding was the main point of debate in 1987. We 
reached a compromise that year to phaseout Federal funding for 
the construction grants program and to create a financing 
mechanism called the State Revolving Fund, or SRF. At the time, 
we thought it was a modest down payment on the investment we 
were making in the States, cities and municipalities across 
this Nation over the next decade. It turns out that the Federal 
investment in the SRF has not ended, and the funding needs for 
wastewater treatment facilities have grown. I am aware that the 
Environmental Protection Agency recently released a report 
citing, ``a gap of $270 billion in funds available for clean 
water needs.'' This is a huge gap. It deserves the attention of 
this committee and this Congress.
    I understand, Mr. Chairman, you and Senator Graham of 
Florida led the committee's efforts to pass S. 1961, the Water 
Investment Act. I commend your efforts and I urge the full 
Senate to take action to provide additional financial support 
for clean water needs.
    In my comments upon the final passage of H.R. 1, the Water 
Quality Act, I highlighted the portion of the bill dealing with 
non-point source pollution. This was one of the key gaps in the 
1972 Act that we sought to fill in 1987. We authorized a new 
program to develop best management practices to control 
nonpoint sources of pollution that often prevent the 
attainable--that is, fishable, swimmable, water quality. Since 
that time, Congress has provided close to $1.8 billion to 
combat non-point source pollution. Yet, this remains a major 
challenge for this Nation for the future of the Clean Water 
Act. I understand EPA estimates the nonpoint pollution is 
responsible for close to 50 percent of our current water 
quality growth problems. It must be addressed if we are to take 
the next step in cleaning up our waters.
    At this time, as the committee looks to the future, I ask 
you not to forget the days of color dyes in our waters and the 
seemingly insurmountable challenge that the 92d Congress faced 
when enacting the Clean Water Act. They took the challenge, and 
the results speak for themselves. In 1987, we confronted 
another challenge and the results are likewise quantifiable. 
Today, this committee and this Congress have a similar 
opportunity. I urge you to reauthorize this important Federal 
program to bring us closer to the day when all our rivers and 
streams are swimmable and fishable.
    I urge you, if I may, to follow the same bipartisan 
approach to these problems that we did in 1972 and again in 
1987. I think tasks and the results that we need are more 
important than any partisanship in this Congress, and I hope 
that is the way it will be played.
    Thank you very much, Mr. Chairman, for allowing me to come 
back and be with you for a moment on this committee.
    Senator Jeffords. Thank you very much.
    [Applause.]
    Senator Jeffords. I must say, you are some act to follow, 
Bob. I have tried to fit into your footsteps, but they always 
seemed a little bit big for me. I also just want to remind the 
members that not only was it clean water and other areas that 
Senator Stafford enacted, but I found out that in this year of 
this horrible event that we had on September 11 as I became 
chairman 2 weeks before that, I opened the book to find out 
what we should do, and it was the Stafford Act, relative to 
taking care of the emergency situations and the creation of 
FEMA. You have left many, many footprints. It is a challenge 
for me, but anytime I am in trouble I just take a look to see 
what you did.
    Thank you very much.
    Now, we turn to another great, one of our past Senators who 
has done so much for this Nation, and still even takes care of 
the baseball and all the other problems of the world. It is a 
pleasure to have you with us, Senator Mitchell. Please proceed.

         STATEMENT OF HON. GEORGE MITCHELL, A RETIRED 
              U.S. SENATOR FROM THE STATE OF MAINE

    Senator Mitchell. Thank you very much, Mr. Chairman, and 
members of the committee. I appreciate the opportunity to join 
you today on the 30th anniversary of the passage of the Clean 
Water Act, especially in the company of my friend and 
colleague, Senator Stafford.
    We have made progress since 1972 in meeting the goal of the 
Act, which is, as Senator Voinovich noted, to restore and 
maintain the chemical, physical and biological integrity of the 
Nation's waters. Our Nation has invested nearly $75 billion to 
construct municipal sewage treatment facilities, nearly 
doubling the number of people served with secondary treatment 
to almost 150 million. However, there is much more to be done. 
The EPA's Assistant Administrator for Water said recently that 
about 40 percent of our Nation's waters do not meet fishable, 
swimmable standards. That bears repeating. After 30 years of 
implementing the Clean Water Act, 40 percent of our Nation's 
waters remain impaired. Clearly, we must intensify our efforts.
    I would like first, Mr. Chairman, to recognize the 
contribution of one of our Nation's great pioneers in 
environmental legislation, my friend and mentor, Senator Edmund 
Muskie. Senator Muskie was the greatest public figure in 
Maine's history and one of the great legislators in our 
Nation's history. He was the principal author of the 1972 Clean 
Water Act, which is a cornerstone of our Nation's environmental 
law. He appeared before this committee in 1992 in celebration 
of the Clean Water Act on its 20th anniversary, and I am 
honored again to follow in his footsteps.
    I will focus my remarks today on our progress on the issues 
that were addressed in the 1987 amendments to the Clean Water 
Act. As chairman of the Subcommittee on Environmental 
Protection in that year, I was privileged to manage the bill on 
the floor of the Senate. As Senator Stafford has noted, that 
legislation was a heartening example of bipartisan cooperation. 
This committee put it together over a 4-year period. Senator 
Stafford and Senator Quentin Burdick of North Dakota led the 
committee during that time. I had the pleasure of working on 
the bill throughout those 4 years with Senator Dave Durenberger 
of Minnesota and with Senator John Chafee of Rhode Island. 
Senator Chafee in 1986 was chairman of the subcommittee and I 
served as ranking member.
    It is clear beyond doubt that without bipartisan 
cooperation, the bill would never have become law. I want to 
join others in especially recognizing Senator Chafee's role as 
a principal author of what became the Water Quality Act of 
1987. I congratulated him on that day 15 years ago and I would 
like to repeat those words today. Senator Chafee is the 
architect of this legislation. He chaired the hearings, he 
managed the bill on the Senate floor, he spoke for the Senate 
conferees during the long and intense conference with the 
House. The high quality of this legislation is largely due to 
his efforts. It is, of course, gratifying that Senator Lincoln 
Chafee is here today as a member of this committee to continue 
his father's legacy.
    As I prepared my testimony for this hearing, I was struck 
by the similarity in the debate over clean water in 1972, 1987 
and today. In those early years, we debated the appropriate 
roles of the Federal Government and the State Governments. We 
faced opposition to pollution control requirements and 
implementation schedules. We struggled to find the appropriate 
level of Federal financial commitment, and we worked to ensure 
that the Clean Water Act remained relevant to current pollution 
issues. Each of those concerns remains a vibrant part of 
today's debate.
    The 1987 amendments can fairly be described as gap-filling 
measures. We looked at the 1972 law, identified areas where 
additional action was needed, and sought to create the legal 
infrastructure needed to further the clean-up of our Nation's 
waterways. Two key issues in 1987 included funding level and 
addressing non-point source pollution. There were, of course, 
many other actions taken in that legislation, such as the 
creation of the National Estuary Program, the Chesapeake Bay 
Program, the Great Lakes Program. We reinvigorated the Toxics 
Program by among other things requiring numerical standards for 
priority pollutants. We increased the penalties for violations 
under the Clean Water Act, and we established the first permit 
program for control of storm water discharges.
    Because time does not permit a discussion of all of these 
subjects, I will focus today on the key issue of funding. Mr. 
Chairman, I would ask that the full text of my statement be 
placed in the record.
    Senator Jeffords. Without objection.
    Senator Mitchell. In 1972, Congress chose to significantly 
increase Federal participation in clean water programs. It 
peaked at $5 billion in 1979 and 1980. In 1981, President 
Reagan proposed the elimination of all funding for clean water 
unless Congress reduced the size and scope of the program. The 
Congress attempted to respond to the President's demand. Clean 
water funding was reduced from $5 billion a year to $2.4 
billion a year. We reduced the types and numbers of projects 
that were eligible for Federal funding, and we reduced the 
Federal share of the cost for construction projects from 75 
percent to 55 percent.
    A further step to reform Federal involvement was the 
adoption of a transition strategy to move the country away from 
construction grants toward what was then seen as an innovative 
mechanism called the State Revolving Fund. The 1987 amendments 
authorized almost $10 billion over 5 years for the phase-out of 
the construction grants program and $8.4 billion over 5 years 
for the SRF. We knew at that time that this level of funding 
was inadequate to fully meet our Nation's clean water needs, 
which then were estimated at between $75 billion and $100 
billion. This was a compromise struck between those who favored 
and those who opposed any Federal investment in clean water. 
Regrettably, despite our efforts, President Reagan vetoed the 
bill in 1986. In 1987, the Congress reenacted the bill. The 
President vetoed it again, but this time Congress overrode the 
veto and the Water Quality Act became law.
    In 1987, we envisioned a situation where after the initial 
5-year period of Federal investment, the SRF would begin to 
revolve on its own and the Federal investment in clean water 
programs would no longer be necessary. That was not the first 
choice of many of us, but it was necessary to get some 
legislation enacted to keep the process moving. Mr. Chairman, 
as you and the members of the committee know, Federal funding 
has continued, now at an annual rate of about $1.3 billion a 
year. I understand that the debate continues over the level of 
and the mechanism and the formula for distribution of the 
Federal investment in clean water. There is much debate on 
that, but there is little or no debate on the need. Just last 
week, Administrator Whitman announced the results of the EPA's 
gap analysis, which indicates a gap of over $270 billion for 
our clean water needs.
    The role of Federal funding in protecting our Nation's 
waters was at the center of the debate in 1987. It remains 
there today. In 1987, we knew that we could not possibly fund 
all that was needed to clean our waters. That is still true. We 
provided all that we could in 1987 under the circumstances 
which then existed. You must do so again, because 
unfortunately, despite all of our efforts, the estimated gap is 
larger today than it was then. The infrastructure is that much 
older. Much of it is nearing the end of its useful life, and 
failure to replace it could threaten public health and our 
economy.
    I believe the conclusion is clear. Although to act on it 
will, as always be difficult, there must be an increase in 
funding for clean water if our Nation is to continue its 
progress in implementing the goals of the Clean Water Act.
    In 1972 and in 1987, the bills survived Presidential 
vetoes. In each case, cost was a significant issue. In each 
case, the Nation's desire for clean water overshadowed all 
other issues. I believe that is still the case. The words that 
Senator Muskie used in 1972 in urging passage of the original 
Clean Water Act apply to today's challenges, and I would like 
to quote them for you briefly. Senator Muskie said,

          ``Can we afford clean water? Can we afford rivers and lakes 
        and streams and oceans which continue to make life possible on 
        this planet? Can we afford life itself? The answers are the 
        same. Those questions were never asked as we destroyed the 
        waters of our Nation, and they deserve no answers as we finally 
        move to restore and renew them. The questions answer 
        themselves. We have reached a point in our struggle against 
        water pollution, as we say in New England, `we must either fish 
        or cut bait.' If we are serious about restoring the quality of 
        our Nation's waters to a level that will support life in the 
        future, then we ought to be prepared to make some sacrifices in 
        that effort now.''

    Mr. Chairman and members of the committee, I conclude by 
saying that in 1972 and in 1987 the Nation and the Congress 
rose to meet the challenge. I hope they will do so again.
    Thank you, Mr. Chairman, and I will be pleased to answer 
any questions you may have.
    Senator Jeffords. Thank you so much, Senator Mitchell. It 
is wonderful to have you here. The message you have given us is 
one of challenge and one which I certainly believe we should 
heed and should match your requests.
    I want to thank you for coming, and I want to state that 
working with you all these years, and having the chance on 
clean air when you were a real hero on that score, when we 
needed an upgrading of our air situation, it was one of the 
most wonderful moments of my life--it wasn't moments; it was 
weeks, I guess.
    Senator Mitchell. The outcome was wonderful. The process 
was not, Senator.
    Senator Jeffords. Yes. That was a tough one. It sure was.
    I am just glad to have you here and to reminisce. I am sure 
Bob Stafford who has been listening--Bob, would you like to say 
a word to Senator Mitchell?
    Senator Stafford. It was a delight to listen to Senator 
Mitchell, and I treasured the years we worked together in 
Washington on environmental issues and other issues of 
interest. I see he is as eloquent as ever and it is a great 
pleasure to be here with you. I do not want to take up your 
time with reminiscence, but I will. I remember once somebody 
offered an amendment to the Clean Water Act that I disapproved 
of, so when the member sat down I spoke against it. The member 
rose in some anger and spoke to me about the amendment and my 
attitude, and at that point Senator Muskie arose, and I had 
told the author of the amendment when he said, would I support 
it, I had said, ``no''. Muskie got up and said, after a brief 
pause, ``When the Senator from Vermont says no, he means no.'' 
That was the end of that particular amendment and I never have 
forgotten that.
    I do want to wish you much luck in the days ahead, and as 
the theme that has been developed already is what I think will 
lead to success now and in the future, and that is when members 
on important matters that affect the welfare of this Nation 
like clean air and clean water come up, it is time to forget 
partisanship and work together for the good of the Nation. That 
is how we got the Clean Water Act as far as we did, and that is 
how we will get it further along.
    Thank you.
    Senator Jeffords. Thank you, Bob.
    Senator Mitchell, do you want to say anything for Bob?
    [Laughter.]
    Senator Mitchell. Well, Mr. Chairman, Senator Stafford, it 
was a great pleasure to work with you while you served as 
chairman of the committee. I appreciate very much the great 
contributions you made to this and much other important 
environmental legislation. Of course, we are all pleased that 
your successor is now serving as chairman of the committee, 
carrying on your legacy.
    Senator Jeffords. Let me ask you a question, Senator 
Mitchell.
    Senator Mitchell. Yes.
    Senator Jeffords. In your testimony, you stated very 
clearly that we need to substantially increase funding for the 
clean water program if we are to realize the goal of fishable 
and swimmable waters. You mentioned that back in 1987, 
Americans accepted the financial sacrifice of having clean 
water. Do you think Americans are still willing to make that 
sacrifice and increase the funding?
    Senator Mitchell. I believe even more so, Mr. Chairman. 
There has been since 1972 a dramatic change in the attitude of 
the American people toward protection of the environment, 
fueled by a growing awareness of the threat to the environment 
that had accumulated over many years prior to that time. I find 
that when the issues are explained clearly to the American 
people, the choice of the vast majority is to strongly support 
protection of our environment and the clean-up of our air and 
our water. I emphasize again, I do not think this is a partisan 
issue. I think the majorities hold largely true across all 
political, geographic, social and other categories. I believe 
the American people by overwhelming majorities strongly support 
the need for the protection of our environment. I can tell you 
in my own experience in my own State, as Senator Stafford 
mentioned in Vermont, that the changes that have occurred in 
the past 30 years have been dramatic, positive, and the people 
do not want to go back to the days before the Federal Clean 
Water Act.
    Senator Jeffords. Senator Chafee. Again, it is always great 
to have you on this committee. I have such fond memories of 
your dad, and you are a chip off the old block, I tell you.
    Senator Chafee. Mr. Chairman, I thank the two Senators for 
their kind words. I know my father greatly enjoyed working with 
you both over the years. It seems like the recurring themes of 
your testimony are the need for bipartisanship, and that is how 
we are going to get success on these important issues, and 
then, of course, also working on the difficult issues of 
funding. Those are the challenges in front of us. Thank you 
very much.
    Senator Jeffords. Senator Voinovich.
    Senator Voinovich. Senator Mitchell, the issue of how 
people feel about the Clean Water Act I think has a lot to do 
with their perception of some of the regulations and rules that 
are being required by the Federal Government. Several years 
ago, we revisited the Safe Drinking Water Act and made some 
changes in it. At that time, many communities were being 
required every 3 years to add 25 new pollutants to their work, 
and a lot of smaller communities just did not have the money to 
do the job that was needed, and there was some revisiting about 
the technology that they needed to install because in some 
instances they required the highest and best technology, when a 
cheaper technology got the job done.
    The problem that seems to be today is that you talk to 
farmers and other people today that, you know, in the old days 
were really behind it, now it is starting to impact on them. 
Based on your experience over the years, how would you go about 
putting something in place that could garner the support of the 
American people, and at the same time perhaps set up some type 
of grant program based on local participation? In other words, 
how do you get everybody to the table?
    Senator Mitchell. The process that was established 
initially by Senator Muskie and followed in the 1987 amendments 
contemplated always a Federal investment and a substantial 
State role in implementation, with a fairly high level of 
flexibility at the State level to deal with whatever problems 
of implementation occurred. I think that one of the factors 
that has created difficulty is, as you have suggested, the 
establishment of national standards that go beyond the basic 
necessities and attempt to resolve every issue in advance, 
which I think cannot be done in a country of the size, 
diversity and competing interests as large as this one.
    Now, that is an easy formulation to state and very 
difficult to implement because in the minds of each of us here, 
what is or is not essential as a Federal standard may differ, 
and how much flexibility for the State and local governments 
will also differ in the minds of each person. It is in that 
area that I believe the greatest contribution can come from 
members of this committee. When we did this in 1987, as both 
Senator Stafford and I have noted, it took 4 years. John 
Chafee, Dave Durenberger, Bob Stafford, myself, Quentin Burdick 
and a few other members of the committee worked at it over a 
very long period of time through debate, discussion, trial, 
error--trying to find the right process of formulation.
    We encountered a difficulty that I hope you do not 
encounter, and that was, of course, the President's demand for 
a complete end of the program. We struggled to keep the program 
alive in a way that we hoped would meet the President's 
approval, even though we believed it ought to be much more than 
it was at the time. I do not think anyone can--I know I cannot, 
and I am not sure anyone can be more precise than that in 
response to the question--but on the Safe Drinking Water Act, 
Senator, I come from Maine where many small towns had precisely 
that problem. What we found was--in dealing with it in Maine--
is that there had to be a substantial degree of flexibility in 
dealing with particular problems because so much of this 
depends upon local circumstance.
    It is, as I repeat now, the greatest contribution this 
committee can make is in finding the appropriate balance 
between a broad Federal mandate supported by substantial 
Federal investment, and a sufficiently high degree of 
flexibility at the State and local level so you do not get 
decisions that appear to ordinary American citizens as contrary 
to common sense, which is what happened in the case of some of 
the application of the Safe Drinking Water Act and in other 
areas of environmental regulation. I think it all has to pass 
in the minds of the average American a common sense test. I 
think you will agree, and I think it is clear beyond dispute, 
that there is a broad reservoir of support in this country for 
meaningful, sensible environmental legislation to protect and 
to enhance our Nation's waters and air.
    Senator Voinovich. Our problem this year is that we had 
this bill that increased the SRF, and all of the local people 
that were administering the program rose up and just said, this 
is just more command and control and prescriptiveness. I 
suspect that they might have been more willing to accept it, 
but they knew that the amount of money coming from Congress 
probably would not be very much more, if anything. In terms of 
that, do you think it would be wise for us to try and set up 
some kind of a--we have the 75/25 program, if we are looking at 
a grant program of setting down some specifics as to 
identifying what the role, percentage of the Federal Government 
ought to be? Then maybe use the carrot approach to saying, ``if 
you want this money, you are going to have to come up with it 
locally?'' Because local officials--I think when I was mayor, 
we increased water rates 300 percent I think--that is a lot of 
money. Of course, the rates were lower, very low. What do you 
think about that?
    Senator Mitchell. The only reason we reduced the Federal 
share initially and narrowed the criteria for eligibility was 
to try to meet the demands of the President. Most of the 
members of the committee at the time would not, on their own 
initiative, have proposed such a reduction in funding and a 
narrowing of the scope. We talked quite a bit at the time. 
Senator Chafee and I had many long personal discussions about 
trying to figure out a way to have a varying level of Federal 
investment, depending upon the nature of the criteria, but we 
finally concluded that it would create complexity of 
implementation that would probably do more harm than good. That 
is, it could not be successfully implemented.
    You, of course, continue the same problem, which will 
always exist in these Federal programs, of the formula by which 
funds are distributed. The same committee, of course, handled 
the transportation legislation and it is more acute there, at 
least it was more acute every time we had a transportation bill 
and we got into the formula distribution process because there 
is so much more money involved and it is so important to 
States. I think that you might want to revisit that subject. We 
thought about it at the time, having 50 percent for some, 60 or 
75 percent, depending upon whether or not you could provide 
flexible criteria. As I said, we finally abandoned the effort. 
It may be that over the passage of time, enough information has 
become available and it might be a way of helping you solve 
some of your formula problems, but it does go against the grain 
of simplicity that I think also is a desirable objective.
    Senator Voinovich. One last question, and that is, I think 
that it would be worth our while--I know a couple of years ago, 
I asked GAO to do a report on the infrastructure needs of the 
country. It wasn't that in-detail, but it seems to me that if 
the country realized the infrastructure challenges that we have 
and it were put on a chart and we started looking at it and, 
one, you are talking about highways funds. We need more money 
for highways, and right now we are using all the trust fund and 
we are borrowing money for it. To just go to the people and 
say, ``here is the situation and how do we go about doing it?'' 
To try and do it on a bigger level, rather than just looking at 
this area and then looking at this area, but to get the 
comprehensive picture. What would you think of an approach like 
that that was done really good and then sold on the basis of 
the facts, and then say, ``what are we going to do about this, 
or how do we come to grips with it?''
    Senator Mitchell. I think it would be invaluable, Senator, 
for the reason you suggested and for other reasons as well. For 
example, when the Nation goes into recession, there is always 
some pressure to increase public investment or Federal spending 
as a counterweight in terms of economic policy. Whenever that 
occurs, there is a hastily drawn list of things that could be 
done, almost invariably including many proposals not as 
significant, not as readily supported by the public as this 
type of infrastructure program. I think that the American 
people are prepared to make the necessary investment if they 
can be presented with the facts in a clear and understandable 
way. I think the suggestion you have made would be invaluable 
for the reasons both of us have suggested, and probably for 
others that do not come into my mind now or that have not been 
spoken. I think it is a very important thing to do.
    Senator Voinovich. Thank you.
    Senator Jeffords. Thank you, Senator.
    Senator Mitchell, thank you so much. You have been 
extremely helpful and gave us a lot to think about.
    Senator Mitchell. Thank you, Mr. Chairman.
    Senator Jeffords. Thank you very much for coming.
    Senator Mitchell. Thank you, Mr. Chairman, and I thank all 
the members of the committee for your courtesy.
    [Applause.]
    Senator Jeffords. We have another panel who will be 
speaking. Bob, I see you are still listening. We are happy to 
have you join us. We are going to go and have some more 
witnesses. I want to thank you again for being with us today. 
It has been extremely helpful.
    The next panel is Mr. Tracey Mehan, Assistant Administrator 
for Water, Environmental Protection Agency of Washington, DC.; 
also, Thomas A. Weber, Associate Chief, Natural Resources 
Conversation Service, U.S. Department of Agriculture, 
Washington, DC.
    Mr. Mehan, ready to go?
    Mr. Mehan. I am, Senator, Thank you.

  STATEMENT OF G.  TRACEY MEHAN,  ASSISTANT ADMINISTRATOR FOR 
            WATER,  ENVIRONMENTAL PROTECTION AGENCY

    Mr. Mehan. Good morning, Mr. Chairman, members of the 
committee. I am Tracey Mehan, Assistant Administrator for Water 
at USEPA. I want to first of all congratulate the chairman and 
the members of the committee for this tremendous opportunity to 
celebrate the last 30 years of successes under the Clean Water 
Act, as well as reflecting on the challenges ahead. As somebody 
who is in the water business, this is an invaluable 
contribution to elevating and showcasing these issues, not just 
for the Washington arena, but for the Nation as a whole.
    I certainly appreciate this opportunity to join in this 
celebration. October 18, 2002 will mark the 30th anniversary of 
the Clean Water Act, and thanks in no small part to this 
landmark legislation and the amendments, we have accomplished 
so much over these 30 years. I will not recount the horror 
stories that are always mentioned regarding the state of our 
waters 30 years ago. The fact was, many of our Nation's 
waterways were little more than open sewers. The 1972 Clean 
Water Act sharply increased the number of waterways that are 
once again safe for fishing and swimming. It enabled us to 
improve water quality all across the Nation, while experiencing 
record economic growth and sizable expansion of our population.
    The law included new controls over point-source discharges, 
the traditional pipe in the water, including the setting of 
strong Federal standards to control both municipal and 
industrial pollution sources, as well as a major investment by 
the Federal Government to help communities build sewage 
treatment plants, and of course support for State efforts to 
reduce polluted run-off. It established the National Pollutant 
Discharge Elimination System--the NPDES program--to ensure that 
those standards were put into place by cities and industries. 
Municipal sewage treatment plants were required to upgrade to 
secondary or advanced levels of treatment. To help local 
governments with this effort, the Federal Government, as has 
been noted at great length in this hearing today, provided over 
$80 billion in wastewater assistance to municipalities over 
these three decades. This was through both grants, and then of 
course the evolution into the State revolving loan funds, or 
SRFs.
    The SRFs were designed to provide a national financial 
resource for clean water that would be matched and managed by 
States and provide a funding source at the time, it was 
thought, in perpetuity. Now, because of the revolving nature of 
these funds, dollars invested in the SRFs provide, at least on 
the basis of our calculations, four times the purchasing power 
over 20 years, compared to what would occur if the funds were 
distributed directly to municipalities as grants. We get quite 
a bit of bang for the buck through the SRFs program.
    As a result, pollution from industrial sources and 
municipal sewage treatment plants plummeted. By any measure, 
pounds of pollution abated, stream segments improved, fisheries 
restored, tremendous load reductions from point sources 
occurred, resulting in significant improvements in water 
quality across the Nation. In 1968, only 86 million people were 
served by secondary or advanced treatment facilities. Today, of 
the 207 million served by wastewater facilities, more than 97 
percent, about 201 million people, far more than double the 
pre-Clean Water Act number, are now served by secondary or 
better treatment.
    The news, however, is not universally good. As indicated by 
many of our improved monitoring techniques which enable us to 
monitor more water bodies, it naturally gives rise to the 
question on the part of many citizens, what have you done for 
me lately? National water quality monitoring data reported by 
the States in the year 2000 shows that approximately 45 percent 
of waters assessed by States are not clean enough to meet basic 
uses such as fishing or swimming. In other words, they do not 
meet the water quality standards as set up under the Clean 
Water Act regime.
    The remaining problems impacting water quality are not 
easily remedied. They come not just from pipes--the traditional 
discharge pipes, the point sources--but from diffuse sources of 
run-off such as farming and forestry operations, construction 
sites, urban streets, automobiles, atmospheric deposition, and 
even suburban homes and yards. While some of these diffuse 
sources are considered nonpoint sources under the Act, others 
are regulated as point sources as in the current NPDES storm 
water program. It is immensely challenging to manage these 
sources using traditional regulatory tools because they are not 
well-suited to end-of-pipe treatment, and the sources are so 
numerous and widespread, reflecting all the myriad uses that 
human beings make of the land which surrounds the waters.
    Nor are the great variety of pollution sources just 
chemical in nature. There are physical and biological threats 
to our Nation's waters that we must address as well if we are 
to truly achieve the stated goal of the Clean Water Act, ``to 
restore and maintain the chemical, physical and biological 
integrity of the Nation's waters.'' Physical integrity can have 
numerous dimensions, again, just affecting the physical 
boundaries of the stream, the quality of the riparian zone, the 
elimination of vegetation cover and erosion, the overall 
erosion that can result basically in putting a stream in a 
concrete box, which has so often been the way we have dealt 
with some of the storm water issues.
    Invasive species are an example of a real and growing 
threat to the biological well-being of our Nation's aquatic, as 
well as our terrestrial resources, as well as to the health of 
our economy. For example, more than 160 invasive aquatic 
organisms of all types--plants, fish, algae, and mollusks--have 
become established in the Great Lakes since the 1800s. The U.S. 
Fish and Wildlife Service estimates that the potential economic 
impacts of one of these species, the zebra mussel, will be $5 
billion over the next 10 years to the United States and 
Canadian water users within the Great Lakes region.
    The past decade has seen a shift toward an emphasis on what 
is commonly referred to as the watershed approach--certainly 
not a new approach, but hopefully one that is becoming more 
widespread. EPA has been promoting, and many have been 
practicing, a watershed approach in their work, which 
encourages a holistic take or view on identifying problems and 
implementing the integrated solutions that are needed to 
overcome multiple causes of water quality. EPA views the 
watershed as the basic unit to define and gauge the Nation's 
water qualities, and we try to gauge all our actions, however 
imperfectly, toward this end.
    Now, there are several specific tools I would like to 
mention that we can bring to bear to address the more 
complicated nature of these water quality problems relating to 
nonpoint source, broadly defined. One of these is the total 
maximum daily load, or TMDL program. In enacting the Clean 
Water Act, Congress retained a water quality-based strategy for 
waters that remained impaired after the application of 
technology-based standards--the technology-based standards 
being the first wave of regulation under the Clean Water Act. 
The TMDL program contained in section 303(d) essentially tells 
States to establish a water quality clean-up budget for such 
waters. EPA has been encouraging States to develop and 
implement TMDLs on a watershed basis. Our hope is that this 
approach will greatly increase collaboration and support for 
needed pollutant controls.
    TMDLs are water quality based, not technology based. They 
are information based, requiring widespread and systematic 
monitoring to identify and characterize problems and 
priorities, and to track progress in solving them. Public 
involvement can contribute to this information process both 
directly and through increased visibility for problem solving 
in the watershed. It will help make sure that TMDLs get 
translated from allocations into action, because information 
brought before the public is itself a driver of action.
    Now, TMDLs and watershed approaches will provide additional 
opportunities to take advantage of other programs, including 
the non-point source grants under 319 of the Clean Water Act, 
as well as the conservation provisions of the newly 
reauthorized Farm bill, an absolutely huge addition to our 
resources to deal with run-off, as well as the source water 
assessment requirements of the Safe Drinking Water Act and many 
other Federal, State and local programs.
    Non-point source 319 grants are a fundamental tool to 
address impairments because they can be targeted as part of a 
TMDL prioritization and thus can be used as part of a State's 
cumulative strategy to clean up impaired waters. Farm bill 
funds are a broad resource and need to be capitalized and 
targeted consistent with the TMDL, as are 319 funds. Finally, 
we are also looking forward under the Safe Drinking Water Act 
to the source water assessments that will be completed in 2003 
to see how these mesh with the concept of watersheds and TMDLs 
generally.
    Maintaining high environmental standards and sustaining a 
healthy economy require that we optimize costs and conserve our 
natural resources. Economic incentives can be an important tool 
to help meet this challenge. We must take advantage of market 
forces to provide incentives for voluntary reductions, emerging 
technology, and greater regulatory flexibility. We believe 
water quality trading, for example, holds great promise as a 
market-based tool for addressing water pollution. Trading is an 
innovative way for water quality agencies and community 
stakeholders, including State and local governments, point-
source dischargers, contributors to non-point source pollution, 
citizens groups or other agencies, and the public at large to 
develop common sense, cost-effective solutions for water 
quality problems in their watersheds. Trading is a tool 
communities can use to grow and prosper, while retaining their 
commitment to water quality.
    Mr. Chairman, it is time for a shift in focus from an 
exclusively point-source oriented program to a non-point-source 
centered one; from relying largely on technology-based 
standards to complementing past progress by a water quality-
based approach; and finally, from emphasizing inputs to 
focusing on environmental outcomes. These tools I have 
described are some of the means to make this shift. We must 
build on the older programs, but go beyond them.
    I should say a word about the funding gap that has been a 
topic of some discussion today. Because the infrastructure and 
the aging of the infrastructure is such a huge issue, we have 
of course moved forward and issued the recent gap report. 
Again, much has been said on that already. I just want to say 
that the methods and data used in the analysis were subject to 
peer review by a diverse panel of external reviewers drawn from 
academia, industry and think tanks, as well as a robust 
interagency review process. The analysis focused on a no-
revenue growth scenario, which is useful to understand the 
extent to which spending might need to increase relative to the 
status quo. This scenario estimates a total capital payments 
gap of $122 billion, or about $6 billion per year for clean 
water. The clean water O&M, or operation and maintenance gap, 
is estimated at $148 billion, or $7 billion per year. It is 
important to recognize that the funding gaps would occur only 
if capital and O&M spending do not increase from present 
levels.
    In reality, increasing needs likely will prompt increased 
spending and thus hopefully a smaller funding gap. Thus, if one 
assumes that spending on clean water infrastructure increases 
at 3 percent annually over and above the rate of inflation, and 
I realize that is a big if, but anyway if you assume that 
revenue growth scenario, the capital gap then becomes $21 
billion or about $1 billion per year, and the O&M gap is 
estimated at $10 billion, or $500 million per year. This 
revenue growth scenario makes no assumptions about who would 
provide the additional revenues, but it is included in the gap 
report to illustrate further dimensions of the fiscal challenge 
ahead.
    Both scenarios look at the supply side of infrastructure 
financing, that is how to pay for needs, but ignore the demand 
side--how to reduce infrastructure costs and make the most 
efficient use of our capital facilities. Demand-side measures 
adopted by some utilities include asset management and 
administrative restructuring to reduce capital and O&M costs, 
as well as rate structures that better reflect the cost of 
service.
    Senator Jeffords. Are you about to complete?
    Mr. Mehan. I am, Senator.
    Basically, we look forward to convening a forum on this in 
January to look at innovative approaches. I would just 
conclude, Senator, that these are exciting times. These are 
challenges that can be met and they are significant challenges, 
but the ones that I know we at EPA look forward to working with 
you and the committee in meeting.
    Senator Jeffords. Thank you, Mr. Mehan.
    Mr. Weber.

STATEMENT OF THOMAS A. WEBER, ASSOCIATE CHIEF, NATURAL RESOURCE 
      CONSERVATION SERVICE, U.S. DEPARTMENT OF AGRICULTURE

    Mr. Weber. Mr. Chairman and members of the committee, I am 
pleased to be here today before you to present the Department 
of Agriculture's perspective on the Clean Water Act.
    As we celebrate the past 30 years, we also are reflecting 
on USDA's natural resource conservation heritage, and upon that 
significant work ahead of us as we enter into the new century. 
We at the USDA Natural Resources Conservation Service are proud 
of our efforts and those of our State and local partners, 
including conservation districts.
    I would like to begin by placing the Clean Water Act in a 
larger perspective of soil and water conservation on private 
land. USDA has played a key role in the management of non-point 
source pollution for nearly a century, long before the word 
``nonpoint'' was part of our vocabulary. In the 1920s and 
1930s, Congress responded to natural resource degradation and 
formed the Soil Erosion Service, later named the Soil 
Conservation Service, and now called the Natural Resources 
Conservation Service, and enacted a national conservation 
program. Many of the new initiatives were in response to the 
devastation caused by drought and poor land management 
resulting in the dust bowl. For more than 60 years since, USDA, 
in cooperation with State and local partners, have made 
significant gains in soil and water conservation on private 
land.
    When the Clean Water Act was passed in 1972, it triggered a 
new national emphasis on the problems created by poor land and 
water management. Congress appropriately recognized the 
differences between point and nonpoint sources of pollution, 
and established differing approaches to solving these distinct 
problems. New emphasis on water quality concerns also occurred 
at USDA. It has been of critical importance to our work ever 
since. This work, performed in partnership with local soil and 
water conservation districts, State and Federal agencies, and 
owners and operators on our land, have been instrumental in 
protecting our soil and water resources. Indeed, on working 
cropland, soil erosion caused by wind and water has been cut by 
38 percent since 1982. Reduced erosion means cleaner water, 
improved fish and wildlife habitat, and more fertile and 
productive soils.
    On the subject of conservation buffers, since 1997 over 1.2 
million miles of conservation buffers--about 4 million acres--
have been established nationally on farms and ranches to 
protect water resources and establish wildlife habitat. 
Locally, in the Chesapeake Bay watershed for instance, the goal 
of establishing 2,000 miles of conservation buffers by the year 
2010 will be completed this year, 8 years ahead of target. In 
addition, I would add that farmers and ranchers have reduced 
the rate of wetland conversion from agriculture to nearly zero, 
while restoring over 1 million acres of wetlands under the 
Wetland Reserve Program. The 2002 Farm bill will result in 
another 1.25 million acres being restored, an area roughly the 
size of Delaware.
    I would like to shift gears now for a moment and look 
toward the path ahead. Last September, Secretary Veneman 
released the Department's policy document for food and 
agriculture. This document provided guidance on future 
agriculture policy, and identified emerging challenges facing 
farmers and ranchers across the Nation. A key component dealt 
with the environment and natural resources, and highlighted 
policy options for meeting a breadth of conservation 
challenges, including water quality and quantity. A central 
aspect of the conservation portion of that document was that 
solutions should be developed and implemented as a means to 
achieve conservation goals. The document also pointed out that 
farmers and ranchers need voluntary conservation opportunities 
commensurate with the regulatory challenges they face.
    Congress responded this year with the 2002 Farm bill that 
provides for significant program authorities and funding 
levels, and a portfolio approach to conservation, including 
cost-share, incentive, land retirement and easement programs. 
In closing, I believe we have made and continue to make 
impressive gains with respect to soil and water quality. We are 
optimistic about the future and believe that the 2002 Farm bill 
will result in one of the largest conservation efforts on 
private lands in this Nation's history. We must continue 
striving to achieve the high aspiration of our clean water 
goals, and to continue to help the public adopt a sound land 
ethic.
    Thank you again, Mr. Chairman and members of the committee 
for inviting USDA to participate in today's hearing.
    Senator Jeffords. Thank you, Mr. Weber. I think I will 
start with you for questions.
    According to the latest water quality inventory report from 
EPA, non-point source pollution is identified as the largest 
cause of water quality impairment with agriculture, identified 
as the largest cause of non-point source pollution. What is 
USDA doing to help farmers address the non-point source 
pollution?
    Mr. Weber. Thank you, Mr. Chairman.
    USDA is aggressively working with landowners, farmers and 
ranchers, using many of the tools in the former Farm bill, as 
well as the 2002 Farm bill, to improve water quality on the 
landowner's property, including conservation reserve program 
and buffers; including the Environmental Quality Incentives 
Program and all of the water quality provisions in that program 
to address water quality issues, including conservation 
buffers, including diversions, water waste systems for animal 
waste operations, and distribution systems to keep pollutants 
away from the water systems. It is a tremendous investment--two 
of many tools that the Department has and will continue to use 
in its work.
    Senator Jeffords. Thank you.
    Mr. Mehan, in your recently released gap report, EPA 
estimated a capital funding gap of $122 billion for the next 20 
years, or around $6 billion per year if funding levels do not 
go up. The report's conclusion states,

          ``The gap analysis concludes that clean water and drinking 
        water systems will need to use some combination of increased 
        spending and innovative management practices to meet the 
        projected needs.''

    However, when your colleague Ben Grumbles testified before 
this committee on S. 1961, a bill to increase the funding 
levels to $20 billion over the next 5 years, he stated that EPA 
did not support an increase in funding for clean water. Is the 
Administration now ready to support increasing our financial 
commitment to clean water to the levels addressed in the gap 
report?
    Mr. Mehan. Mr. Chairman, the gap report, you are right, is 
somewhat agnostic as to ways to solve the problem. Its main 
function was to inform the public dialog so that we had an 
adequate grasp of what the challenge was ahead, whether it be 
achieved by private capital, governmental spending, State and 
local government, demand-side management, et cetera. At this 
point, the Administration has not revisited its position so 
there is no change, especially in light of the present 
exigencies dealing with the war on terrorism and of course the 
current economic challenges we face.
    At this point, we are standing on our request, which is a 
record request for the 2003 budget in terms of the SRF funds 
generally, but no change since Mr. Grumbles has testified.
    Senator Jeffords. Senator Voinovich.
    Senator Voinovich. This clean water and drinking water 
infrastructure gap analysis--you have got capital, 122; 
operation and maintenance, 148; total 271; and drinking water 
comes out to be 263. Do you think that these--was a lot of work 
put into arriving at these numbers? How accurate do you think 
they are?
    Mr. Mehan. Well, the basic data for it is derived first of 
all from the needs surveys that have been done by the Agency 
before, and then as I say, there was a robust peer review 
process. Generally, there is some variation between the various 
other studies that have been done, but I think they are all 
working off the same formulas and the same equations, if you 
will, sometimes plugging in different assumptions. Generally, 
the reception we are getting--the Administrator announced this 
at the Water Environment Federation meeting in Chicago--and 
from the other stakeholders, we are not getting, at least I am 
not getting yet any push-back that we are off the mark here. 
Admittedly, you can plug in different assumptions and take it a 
different way, but I think all of us are on the same page. I 
personally feel very good about the work that our staff has 
done, especially in light of the positive peer review process 
that we went through.
    Senator Voinovich. Well, I share Senator Jeffords' concern. 
What are you going to come back with in terms of a 
recommendation on how to deal with the problem? There is a 
problem there and I think it is a responsibility to figure out 
a way to deal with it.
    Mr. Mehan. Well, I can tell you that on the occasion of the 
release of the report, Governor Whitman stated her intention to 
convene a stakeholders forum probably in January--we think we 
will be able to get it on, that will focus on the whole raft of 
responses to this report. Hopefully, a number of these will be 
in the realm of innovation, whether it is technology, use of 
private finance, consolidation of systems, asset management. No 
doubt, stakeholders will want to engage on the subject of what 
is the appropriate governmental response, be it local, State or 
Federal. My charge is to move forward with that forum right now 
so that we at EPA and the Governor in particular can have the 
benefit of that input in response to this gap report.
    Senator Voinovich. You also talk about one of the 
innovations--``water quality trading holds great promise as a 
market-based tool for addressing water pollution.'' Could you 
explain to the committee what the thinking is in that regard?
    Mr. Mehan. The references there are primarily in the 
context of watersheds and non-point source pollution. There are 
certainly places, say, on Long Island Sound where point-to-
point source trading has been very successful and continues to 
be a contribution. The key thing is that in the area of non-
point source pollution, there is a huge cost differential 
between, say, controlling phosphorus through best management 
practices on the land, as opposed to building a big black box 
at the end of the pipe. Because of that cost differential, it 
opens up a situation where, say, a point source to meet its 
water quality permit needs or a community that wanted to invest 
in water controls can get tremendous economies by looking at 
the non-point source side, the best management practices, 
whether it is vegetation strips, contour farming, fencing 
animals out of the stream, reforestation--whatever it may be. 
Those can be a fraction of the cost of building a huge 
wastewater treatment plant.
    We feel that this has advantages both in terms of achieving 
water quality standards, which is our performance-based outcome 
under the Clean Water Act, similar to the NAAQ standards under 
the Clean Air Act, as well as preserving water quality where it 
exists now, but allowing for economic growth, which will come 
inevitably, at least in any vibrant community. Essentially it 
is taking advantage of that huge cost differential between 
reducing pollution from nonpoint sources versus the point 
sources.
    Senator Voinovich. Do you have any good role models in 
terms of watershed approach that we could----
    Mr. Mehan. There are maybe a dozen around the country in 
various ways, and sometimes it was put in place and other 
solutions were found--but Dillon Reservoir and Cherry Creek in 
Colorado; Tar-Pamlico in North Carolina; the Lower Boise in 
Idaho. We have seen selenium trading in California that looks 
very good. The Long Island Sound, again, that is point-to-point 
sources, but that is a very good example of sort of generically 
how trading works. We think that next year we will be able to 
announce another 10 or so pilots where we think we are going to 
have more success at this.
    It is a great opportunity, but again it is just going to be 
one tool in the toolbox. It will not fit--it is not going to be 
the tool for every problem, but given the thousands of 
watersheds, given the thousands of TMDLs to be done, we think 
it is a tool that probably bears more use than it has to date.
    Senator Jeffords. Thank you both for very helpful 
testimony.
    Our third panel is Mr. Robert F. Kennedy, Jr., senior 
counsel to the Natural Resources Defense Council, Washington, 
DC.; Mr. Paul Pinault, the president of the Association of 
Metropolitan Sewerage Agencies and director of the Narragansett 
Bay Commission, Providence, RI.
    Mr. Kennedy, nice to have you here. Please proceed.

 STATEMENT OF ROBERT F. KENNEDY, JR., SENIOR COUNSEL, NATURAL 
                   RESOURCES DEFENSE COUNCIL

    Mr. Kennedy. I am very happy to see you, too, Senator. I 
want to thank you for holding this hearing, for your leadership 
on environmental issues. I took part in the battle during the 
Gingrich Congress to stop the assault on our environmental 
laws, and your leadership during that period was absolutely 
critical to the success we ultimately had. Your home State of 
Vermont is regarded by environmentalists as the State with the 
finest environmental commitment, and I am proud of you for 
upholding that commitment. Vermont also is famous for its great 
cheeses, its milks and its outstanding women, one of whom I 
have married, and my brother married another one. My wife is 
from the Northeast Kingdom, so I commend you for all of your 
commitment to that sense of community in Vermont.
    Today, as we approach the 30th anniversary of the Clean 
Water Act, it is not a cause for celebration. It is not a cause 
for self-congratulations. It is a cause for great concern. This 
Administration has declared war on the Clean Water Act. It is 
our most important, most successful environmental statute. This 
week, we received disturbing news that the EPA's annual water 
quality assessment for the first time in the 30-year history of 
the Act shows a dramatic decline in national water quality. 
There are more degraded streams, more degraded miles of lakes 
and waterways that are degraded. The trajectory of that trend 
appears very, very disturbing.
    I represent on behalf of the Natural Resources Defense 
Council and Riverkeepers, I represent and have done so for 20 
years, fishermen, commercial fishermen and recreational 
fishermen. They run the range of the political spectrum from 
right-wing Republican to left-wing Democrat, but without 
exception they see the initiatives that are now coming out of 
the White House, which I have described in my written 
testimony, as the gravest threat not only to their livelihoods, 
but to their sense of values, their sense of community, their 
sense of citizenship and what it means to be a resident and a 
citizen of this country.
    If the current initiatives that are being promoted by this 
Administration, particularly the four that go to the core 
values of the Clean Water Act, are actually enacted--one of 
them already has passed the regulatory process--we will 
effectively have no Clean Water Act left in this country. That 
is not exaggeration. That is not hyperbole. That is a fact. Our 
law, the beautiful language of the law and the aspirations of 
the law will remain on the books, but the law itself will be 
unenforceable, and it will be like Mexico, which has these 
wonderful environmental laws, with beautiful poetic language, 
but nobody knows about them and nobody complies with them 
because they cannot be enforced.
    If you ask the people who are promoting these kind of 
initiatives, why are you doing this, what they invariably say 
is this, ``well, the time has come where we have to now direct 
our economic resources toward fighting terrorism and we have to 
choose now between economic prosperity at home and 
environmental protection.'' That is a false choice. In 100 
percent of the situations, good environmental policy is 
identical to good economic policy. If we want to measure our 
economy, and this is how we ought to be measuring it, based 
upon how it produces jobs and prosperous, dignified communities 
over the generations, prosperity over the long term; if on the 
other hand, we want to do what the White House is now asking us 
to do, which is to treat the planet as if it were a business in 
liquidation, to convert out waterways to cash as quickly as 
possible, to have a few years of pollution-based prosperity, we 
can generate an instantaneous cash-flow and the illusion of a 
prosperous economy because we are going into capital. Our 
children are going to pay for our joyride, and they are going 
to pay for it with denuded landscapes and poor health and huge 
cleanup costs and degraded water bodies. Those costs are going 
to amplify over time and they are never going to be able to pay 
them.
    The environmental injury and water pollution particularly 
is deficit spending. It is a way of loading the cost of our 
generation's prosperity onto the backs of our children. Let me 
give you one example of that from my experience on the Hudson 
River. I represent people on the Hudson River whose 
livelihoods--some of the fishermen I represent come from 
families that have been fishing the river continuously since 
Dutch colonial times. It is a traditional, sustainable fishery. 
They got together back in the 1960s in an American Legion hall. 
Almost all of them were former Marines. They were combat 
veterans from World War II and Korea. They started talking 
about blowing up pipes on the Hudson River because they had 
been to the government agencies that are supposed to protect 
Americans from pollution, and they were given the bum's rush by 
the Corps of Engineers and the Conservation Department and the 
Coast Guard. They thought that the only way they could reclaim 
the river for themselves is if they confronted polluters 
directly. The Clean Water Act, which was passed in 1972, gave 
them the ability to do that. Today, as a result of their work 
and as a result of that Act, the Hudson River, which was a 
national joke in 1966--it was dead water for 20 miles stretches 
north of New York City, south of Albany; it turned colors 
sometimes two or three times a week, depending on what color 
they were painting the trucks at the GM plant in Tarrytown--
today that waterway is an international model for ecosystem 
protection. It is the richest water body in the North Atlantic. 
It produces more pounds of fish per acre, more biomass per 
gallon than any other waterway in the Atlantic Ocean, and it is 
the last major river system left on both sides of the Atlantic 
that still has strong spawning stocks of all of its historical 
species of fish.
    The people who are trying to dismantle the law that allowed 
this to happen will say to you, ``well, we have got to get rid 
of the Federal laws and we will return control to the States.'' 
After all, that is local control, community control and the 
States are in the best position to patrol and protect and 
police their own environment. The real outcome of that 
devolution will not be local control, it will be corporate 
control, because these large corporations can so easily 
dominate the State political landscapes. We remember in the 
Hudson Valley the 1960s version of community control before 
Earth Day and before the Clean Water Act, when the General 
Electric Company--and this tale can be told 10,000 times across 
this Nation--came into these poverty-stricken upstate towns 
like Fort Edward and Hudson Falls, NY, and said to the town 
fathers,

          ``We are going to build you a spanking new factory; we are 
        going to bring in 1,500 new jobs; we are going to raise your 
        tax base. All you have to do is waive your environmental laws 
        and let us dump our toxic PCBs into the Hudson and persuade the 
        State of New York to write us a permit to do it. If you don't 
        do it, we will move to New Jersey, across the river, and we 
        will do it from over there, and they will get the taxes and 
        they will get the jobs, and you will still get the PCBs.''

    Fort Edward and Hudson Falls took the bait, and two decades 
later General Electric closed those factories and they fired 
the workers and they left town with their pockets stuffed with 
cash, the richest corporation on earth. They left behind a $2 
billion cleanup bill that nobody in the Hudson Valley can 
afford.
    I have 1,000 commercial fishermen--my clients--who are now 
permanently out of work because although the Hudson is loaded 
with fish, the fish are still loaded with General Electric's 
PCBs and they are too toxic to legally sell in the marketplace. 
The barge traffic on the upper river has dried up because the 
shipping channels are too toxic to dredge. All of that 
beautiful shoreline property that was occupied by General 
Electric's factory, with tax breaks from the grateful 
localities, is now permanently off the tax rolls, robbed from 
those communities as a source of revenue and recreation, and 
every woman between Oswego, NY and Albany has elevated levels 
of PCB in her breast milk, and everybody in the Hudson Valley 
has General Electric's PCBs in our flesh and in our organs.
    What the Federal Clean Water Act was meant to do was to put 
and end to that kind of corporate blackmail and to stop these 
corporations from coming in and whipsawing one community in New 
York against another in New Jersey, or one in Vermont against 
another in Massachusetts, to get them to race to bottom, to 
lower their environmental standards, to recruit these filthy 
industries in exchange for the promise of a few years of 
pollution-based prosperity, and to ransom our children's 
futures in the process.
    I would just say one other point, which is this. There are 
people out there now who say we have to choose between economic 
prosperity. An investment in our environment does not diminish 
our Nation's wealth. It is an investment in infrastructure, the 
same as investing in telecommunications, in road construction. 
It is an investment we have to make if we want to ensure the 
economic prosperity of our generation and the next generation.
    There is no stronger advocate for free-market capitalism 
than myself. I believe that the free market is the most 
efficient and democratic way to distribute the goods of the 
land. In a true free-market economy, you cannot make yourself 
rich without making your neighbors rich, and without enriching 
your community. What polluters do is they make themselves rich 
by making everybody else poor. They raise standards of living 
for themselves by lower quality of life for everybody else. 
They do it by cheating the free market, by forcing the public 
to pay their production costs, by unloading it on the public 
waterways which we own. The Governor does not own the Hudson 
River. The legislature does not own the Hudson River. The U.S. 
Senate does not own it and General Electric does not own it. We 
own it. That is what the constitution of New York State says. 
The people of the State own that waterway. Everybody has the 
right to use it. Nobody has the right to use it in a way that 
will diminish and injure its use and enjoyment by others.
    When they dump this stuff in the river, it is an act of 
theft. They are stealing something from the public, and it has 
always been wrong and it has always been a theft, and thank God 
that the Senate and the Congress overrode President Nixon's 
veto in 1972 and gave these rights back to the American people. 
Thank God they were here again in 1987 when President Reagan 
tried to overrun it again. Thank God they were here in 1995 
when the Gingrich Congress tried to dismantle with their dirty 
water bill the Federal Clean Water Act from the outside 
congressionally.
    Today, what you have is something much more insidious and 
dangerous--an Administration that is absolutely committed to 
eroding, eviscerating this wonderful, wonderful successful Act 
from the inside.
    Senator Jeffords. Thank you very much.
    Mr. Pinault.

     STATEMENT OF PAUL PINAULT, PRESIDENT, ASSOCIATION OF 
         METROPOLITAN SEWERAGE AGENCIES, AND DIRECTOR, 
                  NARRAGANSETT BAY COMMISSION

    Mr. Pinault. Good morning, Chairman Jeffords and Senator 
Voinovich. It is a pleasure to be here this morning to 
represent AMSA's membership of 280 publicly owned treatment 
works across the country.
    As environmental practitioners, we treat more than 18 
billion gallons of wastewater each day and service the majority 
of the U.S. population. The success of the Clean Water Act is 
due in large part to the hard work, ingenuity and dedication of 
local wastewater treatment officials. In fact, it has been 32 
years since a group of public wastewater officials banded 
together and founded AMSA.
    From the early 1900s, municipal governments have provided 
the majority of financial support for water pollution control. 
In the early days, cities financed and built collection systems 
that conveyed wastewater to primary treatment facilities. 
Eventually, outbreaks of cholera and typhoid and the decline of 
fish populations led to the passage of the 1948 Water Pollution 
Control Act and the first Federal funding program that would 
help cities address the enormous challenge of treating of 
billions of gallons of wastewater each day.
    Then on June 22, 1969, Ohio's Cuyahoga River became 
engulfed in flames, a sign that the country's water quality was 
in crisis. This and other environmental problems resulted in 
enactment of the Clean Water Act of 1972. Mr. Chairman, 
America's greatest water quality improvements were made during 
the 1970s and the 1980s when Congress boldly authorized and 
funded the Construction Grants Program, providing more than $60 
billion for the construction of publicly owned treatment works, 
pumping stations and collection and interceptor sewers. The 
Construction Grants Program was directly responsible for the 
improvement of water quality in thousands of rivers, lakes and 
streams nationwide.
    As our waters once again became fishable and swimmable, 
recreation and tourism brought jobs and revenue to local 
economies. Unfortunately, the Federal commitment to fund 
continued water quality improvements declined drastically with 
the end of the grants program and the implementation of the 
1987 amendments to the Clean Water Act. As Federal funds 
dramatically declined in the 1990s, the complexities of our 
challenges and the cost of implementing regulations continue to 
rise exponentially. Over the past year, the committee has 
received substantial testimony that has documented the coming 
funding crisis in the wastewater industry.
    As the measurable gap between projected clean water 
investment needs and current levels of spending continues to 
grow, local rate-payers will be unable to foot the bill for the 
costs associated with increasingly stringent requirements of 
the Clean Water Act. In the report entitled ``The Clean Water 
and Drinking Water Infrastructure Gap Analysis'' that was 
released last week, EPA estimated the 20-year gap for clean 
water could be as high as $442 billion, depending upon the 
assumptions made.
    At the Narragansett Bay Commission, an estimated $471 
million is needed for projects that are ongoing right now. Our 
average cash expenditures are expected to be $100 million 
annually. We anticipate receiving approximately $60 million 
from the Rhode Island State revolving fund, leaving an annual 
gap for us of $40 million a year for at least the next 5 years.
    Mr. Chairman, Senator Voinovich, I would like to take this 
opportunity to thank you for working with AMSA this year on 
important legislation that would significantly increase the 
authorized levels of funding under the Clean Water Act. 
Unfortunately, the world has changed significantly from when 
this process began with the series of hearings in 2001. At that 
time, AMSA had targeted the Federal budget surplus as the 
logical source of funding to increase the Federal investment in 
wastewater infrastructure. In light of our current budget 
deficit and the continued costs associated with our Nation's 
defense, we believe that the authorized levels of funding 
proposed in S. 1961 and S. 2813 would not be available to 
appropriators out of the general revenue for many years to 
come.
    As a result, AMSA is exploring alternative dedicated 
sources of revenue to fund future water quality improvements. 
Our municipal wastewater treatment systems are critical pieces 
of national infrastructure, and as such should be financed 
through a long-term sustainable and reliable source of Federal 
funds. Although operating efficiencies and rate increases can 
provide some relief, they cannot and will not be able to fund 
the current backlog of capital projects, plus the treatment 
upgrades that will be required in the years to come. Federal 
support for wastewater infrastructure is critical to safeguard 
the environmental progress made during the past 30 years under 
the Clean Water Act. As water pollution control solutions move 
beyond political jurisdictions to a broader watershed approach, 
and as we address a wider array of pollutants and pollution 
sources, the national benefit of improved water quality will 
more than justify the larger Federal contribution.
    As we look to the future, we see that the challenges facing 
the leaders of today's wastewater treatment agencies include 
polluted run-off from every source imaginable. Non-point source 
pollution, along with the challenges posed by combined and 
sanitary sewer overflows and storm water system discharges are 
going to cost this country billions of dollars and take several 
decades to control.
    On behalf of AMSA's members, we look forward to working 
with you to solve these problems together. The bipartisan 
nature of the committee over the 30-year history of the Clean 
Water Act has undoubtedly contributed to the Act's success.
    Thank you for this opportunity to present our views, and we 
look forward to participating in the celebration of the 30th 
anniversary and continuing to work with you in the future.
    Senator Jeffords. Thank you, Mr. Pinault.
    Mr. Kennedy, the environmental community has expressed 
significant concern over the draft rule to change the TMDL 
program. Can you elaborate on those concerns?
    Mr. Kennedy. The TMDL program is--the way that the Clean 
Water Act is structured is that it is based upon--the primary 
frontline mechanism for controlling pollution is point-source 
pollution, through effluent guidelines and industrial standards 
that are set by EPA in order to establish technological 
controls for the various kinds of pollution. Sometimes that 
does not work because if you have 20 pipes going into a small 
tributary or if you have a lot of point-source discharges going 
into that tributary, the point-source control on that one 
factory is not going to solve the problems of degradation in 
that creek.
    There was a backup mechanism put in the Clean Water Act 
that is called the total maximum daily load that says to the 
States when there is a degraded water body, you have to measure 
it; find out what pollutants are in it; figure out under the 
natural process how much pollution that stream can assimilate; 
and then come back and establish caps on all of the pollution 
that is going into that stream. This is absolutely critical. We 
still have half the stream miles in this country that are still 
degraded, even with the point-source controls. You have got to 
have TMDLs. What the Administration is doing now is it has 
established or it has proposed an initiative that will 
essentially or effectively get rid of the TMDL program. This is 
at a time when water quality is now declining in our country 
for the first time in 30 years. We should be strengthening and 
implementing that program, which has never been done.
    The Clean Water Act is such a wonderful statute. If it were 
actually enforced, we would have clean water in this country. 
The Clean Water Act promises in its introduction to eliminate 
all point-source discharges of pollution by 1985. That never 
happened. The Act simply has not been enforced, and the TMDL 
part of the Act has never been enforced whatsoever. The EPA 
now, because of a series of lawsuits, is being forced to 
enforce that section. What the Administration is doing now is 
getting rid of that section of the Act so it will never be 
enforced and we will never have clean water in this country.
    Senator Jeffords. Mr. Pinault, in your testimony you 
recommended that the Federal Government consider a dedicated 
funding source to address the capital funding gap for water 
infrastructure. If such a system were adopted, it would likely 
function as many other Federal trust funds where certain 
products and services related to the area of concern are taxed. 
In such a system, it is probable that the wastewater treatment 
works would be charged in some way to generate the funds. Do 
you believe the municipal wastewater community would be willing 
to accept such a charge in order to generate those funds?
    Mr. Pinault. I think it would depend on the specifics of 
the program. When I became President of AMSA in May, one of the 
first things I did was put together an infrastructure funding 
task force, which is being chaired by Bill Schatz from the city 
of Cleveland, Northeast Ohio Regional Sewer District. We met 
last week in Chicago as part of the WEF conference. We are 
working very hard to put together some money that is being 
raised by our members to come up with solutions to the problem; 
to come up with a dedicated source of revenue. We will look at 
all viable options, including options that you just mentioned. 
Hopefully, after the first of the year, we will be in a 
position to start discussing the specifics of our findings with 
your staff.
    Senator Jeffords. We will follow up with you on that.
    Senator Voinovich.
    Senator Voinovich. First of all, Mr. Kennedy, I would like 
to say to you that thank God things are not as bad in Ohio as 
they are where you described on the Hudson. I never thought I 
would see the day when I could catch a steelhead on a fly in 
Ohio. Today, we have some of the best steelhead fishing 
anywhere in the country. Euclid Creek, that I walked by this 
past weekend, was terribly polluted. Today, we have steelhead 
in that creek. We have seen some significant improvement in the 
water quality of Lake Erie in terms of fishery. We have seen 
tremendous development along the lake because it is now not the 
dirty lake anymore, it is the clean lake. It has just been 
fantastic for our State.
    In terms of business's involvement, one of the things I did 
when I was in the legislature was create the Ohio Water 
Development Authority that issues revenue bonds to help 
businesses cleanup their effluent. We have seen significant 
improvement in that regard.
    The problem that I see is somehow reaching some level of 
compromise in terms of where we are going. Mr. Pinault, your 
Association I think really cares about dealing with waste 
treatment, and yet were strongly opposed to the 
prescriptiveness in S. 1961. Obviously, from the chairman's 
point of view, there must have been some organizations pushing 
him that this prescriptive language be in this reauthorization 
of the State revolving loan fund. It just appears that there is 
not any area where we can get compromise. Your Association 
should be fully behind increasing the amount of money for the 
State revolving loan fund. Your group should be fully behind 
grants to help communities meet the requirements of the law. 
There is a disconnect here, and I would like you to comment on 
that from your perspective.
    Mr. Kennedy is talking about total maximum daily load. 
There seems to be some real concern among people in your 
business in my State that are concerned about fully 
implementing that, because they feel in some instances it 
defies common sense. Where is the compromise that we can reach 
so that we can get on with this?
    Mr. Pinault. Unfortunately, all of these topics are 
extremely complicated and there are many issues involving each 
of them. When it comes to the specific mandates that were 
included in S. 1961, it differed from the House bill which 
basically had similar issues, but they required the applicants 
for the SRF to certify these mandates, versus how they were 
handled in the Senate bill. Asset management alone will not 
solve the problem. I think many people think that has been the 
new buzz word in the last year or so, that asset management 
will control and eliminate the gap. Well, we have been doing 
asset management for years. We did not call it that, but we 
have controlled our assets and managed them and done a good job 
at it. We also have reduced our operating costs.
    In the meantime, infrastructure is aging. There are new 
Federal requirements. Ten years ago, we had to put in at least 
two milligrams per liter of chlorine to disinfect our effluent 
and still meet coliform levels. Now it is no more than .65 
micrograms per liter, which you cannot even measure, which 
means we have to add chlorine and then take it out. This was 
something that we did not think about 5 years ago. It cost us 
$15 million to design and build it. We were given 9 months to 
do it.
    There are a lot of issues, and we have tried to work with 
your staff on both sides to try and come up with a compromise. 
We are willing to do that in the future.
    Senator Voinovich. Well, it seems to me that we ought to 
get back to the table again to see if that cannot be worked 
out. I will be very interested in your recommendations on these 
dedicated sources of revenue. I think part of the problem where 
we have seen in some areas some degradation is the fact that 
local communities have not had the dollars to expend to get the 
job done. Storm flow overflow and some of the other things that 
are being required to do is just a matter of the local capacity 
to deal with it. Some communities refuse to do it, but I think 
most communities--I know from my experience as mayor in 
tackling water and sewage treatment, that if you make the case, 
people are willing to pay for it in terms of increased rates, 
but not to the extent that it is astronomical an increase. 
There has got to be some--and I would be interested in 
recommendations about what percentage of this do you think the 
Federal Government should be willing to pick up.
    Mr. Pinault. I would think, based on what happened in the 
early days, 50 percent would not be unreasonable if you want to 
try and achieve the water quality improvements that we have 
been talking about. In our case, we are raising our rates 25 
percent a year. We raised them 25 percent in January of 2001; 
24.8 percent in June of this year; November 1, we will be 
applying for another rate increase. That is just to pay off the 
SRF loans, which still are inadequate because they cannot meet 
all of our needs, so we have to go to the open market to obtain 
funding.
    One of the problems we have is 60 percent of our customers 
are in the older urban cities, and they have the least ability 
to pay. Over 40 percent of our accounts receivable are in the 
urban cities, and they are struggling now to pay those rates 
and they are going up at 25 percent a year. That does not 
include the additional O&M cost to operate the new facilities 
once they come on-line. It is a problem. The rating agencies 
that rate us, Standard & Poor's and Moody's, have warned us 
that it is going to get to the point where our rating could be 
affected, which means if they downgrade our rating the amount 
of money that we pay in interest will go up, which just 
aggravates the situation further. We are committed, and my 
board is committed to putting in the CSO control measures and 
upgrading our treatment facilities to meet our requirements, 
but it is a problem.
    Senator Voinovich. Mr. Kennedy, would you like to respond? 
My time is up.
    Senator Jeffords. Go right ahead.
    Senator Voinovich. Would you like to comment about how we 
can try to--the organization that you represent has been a very 
responsible organization. I dealt with them when I was Governor 
and we were dealing with them in regard to a couple of projects 
with the Great Lakes Governors Association in terms of some of 
the paper mills that were polluting the lake. Is there some way 
where we can kind of reconcile some of these differences and 
reach a common ground so that we can go forward?
    Mr. Kennedy. I think that those decisions were made when 
the Clean Water Act was passed in 1972. Congress said then--it 
was a visionary Act that said the waters belong to the people. 
You do not have a right to pollute them. What we are going to 
do is we are going to get rid of all pollution of waterways, 
but we are going to do it over a period of time, which is going 
to take 13 years, until 1985, and by then there is not going to 
be pollution anymore. That is what Congress said, and I still 
think that that goal is a legitimate goal and we should not be 
thinking of ways to get out of the goal by rolling back the 
Act. We should be thinking of ways of funding communities who 
need the money to comply with it, which is what Congress 
originally did. We rolled back that funding, and if you look at 
our other national priorities for where funding is going, I do 
not think you can find a national priority that has more to do 
with our national security, our national prosperity than clean 
water, than investing in this kind of infrastructure.
    I do not think that the solution is to roll back the Act 
and just pretend that the problem does not exist, but to say, 
``OK, this is our objective; it is an objective that as a 
Nation we have to be able to afford.'' There is no--look what 
the Israelis pay for their water. They pay thousands of times 
more than we do because it is a precious commodity. We 
undervalue it, and we ought to be recognizing that really it 
has a lot to do with our national security, our national 
health, our quality of life, and our prosperity in this 
country, and not be scared of continuing to persist for those 
objectives that these visionary leaders set out back in 1972.
    Senator Voinovich. Well, I think that part of the problem 
is that just this legislation that I am talking about, trying 
to reconcile the differences. We have problems here, for 
example, that come up like Davis-Bacon becomes a big issue. I 
tried to get a compromise that says on the first loan, that is 
Davis-Bacon, then when it gets into the revolving loan fund, it 
does not require Davis-Bacon. Some people around here bring the 
bill down over Davis-Bacon. It seems to me that groups like 
yours and others that are interested should be standing up and 
saying, ``can't you guys work out a compromise?'' It may not be 
perfect, but there just seems that one group says, ``this is 
the way it is going to be, and if it is not this way, then by 
golly, it is not going to happen.''
    Then we have people in our State like the woman who is the 
mayor of a little town, Mansfield, OH, who is going to have her 
rates increased 100 percent because she is being required to 
take this holding tank that she has where she holds water and 
returns it to the stream at a higher quality than what the 
stream is, she is being told that she has got to increase that 
even more than what she is doing. She is putting in this 
enormous investment to make that possible. She thinks this kind 
of defies common sense, and so does the people in her 
community.
    Then you start to develop a resistance for people to 
improve some of the requirements because they feel that some of 
them do not make sense. It just, as I said, there seems to be 
some disconnect here. Maybe we ought to revisit this, Mr. 
Chairman, as we did the Clean Water Act, or the Safe Drinking 
Water Act, several years ago. We came up with I thought a 
reasonable approach to it.
    I can remember when we got started with it, many in the 
environmental community accused the Senate and House and some 
of us being at the White House when President Clinton signed 
that bill, and talked about it as being a responsible piece of 
legislation. There were some people that were not happy with 
it, but the fact was it was a compromise. Again, I am going to 
reiterate this. I am hoping that as we move forward into this 
next year--we are not going to get anything done this year--but 
I think as we go on. I mean, it was interesting to me, it gave 
me some hope. They worked on this for 4 years, didn't they--the 
1987 amendments. I am hoping that somewhere along the line we 
can get people in the room and start to move on this, and do 
not allow one group who takes a position and maybe has a very 
strong lobbying effort to say, ``by golly, it does not meet our 
standards and therefore we are opposed to this''; that those of 
us in the Senate and some of the reasonable groups that are out 
there can kind of try to move toward the center and try to 
figure out how we can--what are the things that bring us 
together, rather than trying to find those things that divide 
us. That is key.
    Then the other is, we have got to find the money. We have 
got to find the money. If you do not have the money, you are 
not going to be able to get the job done. That is another 
reason we are not doing what we should be doing, is we are not 
spending the money. I think your point, Mr. Kennedy, is well 
taken. I do not think we do value water enough. We ought to be 
spending more money locally and in terms of our Federal 
Government.
    Senator Jeffords. Thank you, Senator.
    Senator Wyden.
    Senator Wyden. Thank you, Mr. Chairman. I had to be late 
because of the Intelligence Committee's meeting this morning, 
but I particularly wanted to come to have a chance to introduce 
Jordan Chin in a moment, who is here from Oregon, but to spend 
just a quick moment with Robert Kennedy, and to tell you now 
much I appreciate all that your leadership and your willingness 
to speak out on these clean water issues. I will tell you that 
at home in Oregon prior to the last year and a half or so, 
where it seems that the machete has come out for the Clean 
Water Act, people in Oregon thought this statute worked very 
well, and thought that it struck a reasonable balance between 
the Federal Government in effect saying we are not going to 
compromise on our waters; we are not going to compromise on our 
precious treasures. Where a State is capable like ours in 
showing that it can carry out these Federal rules and comply 
with the type of strict criteria we want to have to protect 
water bodies, the States would be given a wide berth.
    My sense is, you very much agree with that. I just would 
like to get on the record your thoughts on this kind of 
Federal-State balance. My understanding is you have got no 
problem at all with a State when they are willing, like Oregon, 
to follow the Federal rules, follow the strictures that are set 
out in the statute, having the wide berth to do it. What 
troubles you, and frankly it troubles me very much, is that 
some of what is going on now in terms of States rights is 
really a back-door attempt to hotwire a rollback in the law and 
give these powerful interests a chance to do it far away from 
Washington, DC. where they can have a broader way over it. Is 
that something resembling you view?
    Mr. Kennedy. Yes, if the Clean Water Act were enforced, we 
would have clean water in this country today. It is a wonderful 
statute. The issue is, who is enforcing it? The enforcement was 
divided between the States and the Federal Government, and both 
of them have dual responsibility for enforcing the Act, but the 
States have primary responsibility. What we saw beginning in 
1995 was that many of the State governments simply stopped 
funding Clean Water Act enforcement. In my own State, Governor 
Pataki came in, who has very strong environmental bona fides, 
but he cut down immediately by 50 percent the enforcement 
moneys available to the Department of Environmental 
Conservation in the State.
    In States like Virginia, that year there was a single 
ticket issued to a polluter in the entire State of Virginia in 
1996, and it is the third most water-polluted State in the 
country. I could take you on a walk anywhere in Virginia within 
20 minutes from here and show you people who are violating the 
Clean Water Act. These are criminals. These people should be 
prosecuted, but the State simply stopped prosecuting them in 
order to recruit polluters to the State. In Senator Voinovich's 
State, there is a polluter, Buckeye Farms, that has been 
violating the law openly for 20 years and has destroyed a river 
system there which is dead for 20 miles, and his State has 
almost completely stopped enforcing the environmental laws.
    I had a cop in my office the other day, an environmental 
police officer, and he had just issued a ticket to a used car 
dealer who was cleaning toxics off imported Japanese cars and 
dumping them into a trout stream, causing fish kills. That 
trout stream feeds into the New York City reservoir system that 
is drank by 10.5 million people. He came to me and he said that 
the district attorney of Westchester County refused to take the 
case; that the State attorney general--this is when Vaca was 
attorney general--refused to take the case. He said, ``anybody 
in this country, any prosecutor--if a kid throws a rock through 
a window or steals a car, any prosecutor in this country will 
prosecute them because it is recognized as a crime. If you dump 
pollution into a waterway, you cannot get anybody to prosecute 
them because they do not look at it as real crime.''
    In fact, when you put toxics in the water supply for 10.5 
million people, that is assault and battery, and when children 
drink that water, that is child abuse. You are stealing 
something that belongs to the public, and that is theft. These 
people ought to be treated as thieves. Yet what we have is, we 
have regulatory agencies at the State level--not in your State, 
because your State is famous for having cleaned up the Tualatin 
and the Willamette and the other rivers, and having that 
commitment out there--but in many States, the priority is 
recruiting polluters to the States for short-term prosperity 
that is going to pose these long-term costs on the people of 
the State.
    Senator Wyden. My time is up. I only want to say, Mr. 
Kennedy, I very much share your view, and the only reason for 
my asking the question is I want us to be able to say, because 
I think you are championing exactly what needs to be said right 
now. I think there really is a significant effort underway by 
the executive branch to roll back this Act, and I just want our 
message to be that when a State like mine is willing to make 
the tough calls and to protect the Clean Water Act, I want it 
understood that the advocates, particularly people like you who 
put so much into this, are willing to give those States an 
opportunity to really carry out these laws. When they are not, 
then we ought to come down with hobnail boots and make sure, 
just as you say, that the laws are enforced and we take 
whatever steps are necessary.
    Mr. Kennedy. You know, it puts Oregon at a disadvantage, a 
competitive disadvantage----
    Senator Wyden. You bet.
    Mr. Kennedy [continuing]. If they are the only ones 
enforcing the law. That is not fair. We ought to have a uniform 
law across the country, have a level playing field, and have 
everybody playing on it, and nobody cheating the free-market 
economy.
    Senator Wyden. Thank you for the work you do.
    Senator Jeffords. Let me intercede here. Vermont does not 
cede to you that you are the best.
    [Laughter.]
    Senator Wyden. Fair enough. We will get the rest of the 
country to follow the Vermont-Oregon axis, and as Mr. Kennedy 
has correctly pointed out, when States are not willing to do 
it, we have to have tough Federal enforcement. I look forward 
to working with my chairman, as always.
    Senator Jeffords. We have had fun with Oregon to race to 
see who is doing the most, the best. We both disagree on the 
answer to that, but thank you very much for very, very helpful 
testimony.
    Mr. Kennedy. Thank you, Senator.
    Senator Jeffords. We now have our final panel. I understand 
that the Senator from Oregon would like to introduce a member 
of the panel.
    Senator Wyden. Thank you very much, Mr. Chairman. Again, I 
am sorry that I had to be late, but this a real privilege for 
me to be able to introduce a special member of the generation 
that is going to inherit the responsibility of protecting our 
Nation's waters. Jordan Chin, who is a student from my hometown 
of Portland--she was selected to appoint this week's National 
Youth Watershed Summit and is truly an exceptional 16-year-old. 
She is a straight-A student, a professional singer, active in 
political and environmental causes, and somehow is still able 
to find time during what must be few waking hours to take 
university-level courses in Mandarin and political philosophy. 
Jordan, we are very glad you are here.
    As you could tell from the discussion that I just had with 
Mr. Kennedy, we are very proud in Oregon of the Clean Water Act 
and the fact that we really see this as an opportunity to work 
with the Federal Government, to address what is most on the 
minds of Oregonians in natural resources, and that is to 
protect our treasures, and particularly our clean water. 
Pollution control efforts began in 1938, which was well before 
I was born, certainly before you were born, and pre-dated the 
Clean Water Act by 10 years. As you could see with the little 
discussion with my good friend the chairman, we take special 
pride in the fact that Vermont and Oregon consistently lead the 
country in terms of cleaning up polluted run-off and meeting 
water quality standards.
    Mr. Chairman, I am grateful to you for holding this hearing 
and for all of the vigilance that you have had all these years 
to protecting the Clean Water Act. I think we are going to see 
in Jordan Chin, and I expect the other young people who will be 
testifying this morning, we can feel good that we are handing 
the reins over to your generation that I know is going to pick 
up on the Oregon-Vermont traditions.
    I thank you, Mr. Chairman, for the chance to make this 
introduction.
    Senator Jeffords. Thank you.
    I want to welcome our final panel. We are so pleased to 
have students from around the country who are attending the 
Clean Water Foundation's Youth Watershed Summit, here to share 
their thoughts on clean water and issues, and describe the 
results of the watershed studies that they have completed. I, 
of course, want to specially recognize Grace Chris from the 
good State of Vermont. I hope you and Ms. Chin will work hard 
to convince the rest of your panel to be as good as your 
States. Thank you.
    Our first witness is Ms. Savage.

  STATEMENT OF ROBERTA H. SAVAGE, PRESIDENT, AMERICA'S CLEAN 
                        WATER FOUNDATION

    Ms. Savage. Thank you, Mr. Chairman.
    My name is Robbi Savage. I am the president of America's 
Clean Water Foundation. I am also, as you know, the executive 
director of the Association of State and Interstate Water 
Pollution Control Administrators.
    Sitting here listening to the debate about States, there is 
a part of me that wishes I was here representing ASWPCA because 
I have a few things to say about those issues. Today, we are 
here to talk about the 30th anniversary of the Clean Water Act.
    Our Foundation was created in 1989. I created it for the 
purpose of celebrating the 20th anniversary, and I was so 
pleased to go to Mr. Howard Baker and Mr. Ed Muskie and Bill 
Harsha and John Blatnik who were the House and Senate floor 
managers of the 1972 bill who were willing to serve as our 
original Board of Governors. Two of those gentlemen have since 
passed, and on our Board of Governors for the 30th anniversary, 
I thank you, Mr. Chairman, for being a member of our Board of 
Governors, as is Mr. Voinovich and Mr. Bond. Mr. Stafford, by 
the way, was very involved in those days as well, as you know, 
and Mr. Chafee, Mr. Carper. Mr. Baker, who is now the 
Ambassador to Japan, is chairing our Board of Governors to 
celebrate the 30th anniversary.
    One of the important components of the Year of Clean 
Water--and the Foundation is serving as the national 
coordinator for the 30th anniversary--is our Youth Watershed 
Summit. We have four major activities taking place this month. 
We start with the Youth Watershed Summit that is being 
coordinated and sponsored by our Foundation and the Smithsonian 
Environmental Research Center out at SERC. We are all kind of 
here today in our camp clothes, Mr. Chairman. We apologize for 
not being in suits and ties, but we are having a lot of fun and 
they would not necessarily go with the rest of our colleagues.
    There are 250 students that were appointed by their 
Governors to come to the Summit. They all brought a teacher, 
and I would like to introduce Ms. Chris, Grace's mother. She is 
also from Vermont and she came as an adviser to our group. We 
have all these students that are out at the Smithsonian 
Environmental Research Center. They are not only learning about 
clean water, taking them out into the Chesapeake Bay, taking 
them up in cranes above the canopy so they can see what the 
water line is all about. We took them to the National Aquarium 
last night for the dolphin show, and to see the seahorses. We 
have an astronaut coming, Roger Crouch, tonight to talk to them 
about NASA's work in looking at water quality from space, and 
what we can do in that regard. Then we will be meeting in the 
morning with you, Mr. Chairman, and Mr. Bond, on the Capitol 
steps for a picture. Then we will go to the Smithsonian to meet 
with the Administrator of EPA, the Deputy Administrator, Deputy 
Secretary of USDA, NOAA, U.S. Geological Survey and the Corps 
of Engineers, so they can get a broad understanding of what is 
involved in trying to keep our waters clean.
    From there, we are going to go to National Water Quality 
Monitoring Day, and I see the Tracey provided you with one of 
our kits. We are delighted. What we are asking is that citizens 
across the country on the 18th of October test for turbidity, 
temperature, dissolved oxygen and pH. As you know, there are 
not enough government monitors in this country to tell us if 
our water is clean enough, and we need the help of students 
like these, as well as citizens all across the Nation to help 
us. This will be our first annual, so we hope we can come back 
in 10 years and have 10 years of documentation.
    Then we go into the Senior Watershed Summit. Ten years ago 
when we did the 20th anniversary, I never would have thought of 
a Senior Summit, but now that I am one, I am delighted to work 
with the Environmental Alliance for Senior Involvement for the 
Senior Watershed Summit. They have 250,000 volunteers across 
this Nation--seniors that are in the water taking samples and 
working for clean water.
    Then we will summarize and culminate our activities the 
last week in October for the World Watershed Summit here in 
Washington, DC. We have invited the President and all the 
leaders of the major agencies to be there and participate, and 
a number of your staff will be here. I suspect you will be out 
of town at that time.
    We have a number of activities that are taking place across 
the country. In addition to what we are doing, Governors, 
communities, local groups, public organizations are sponsoring 
cleanups and festivals, competitions, video programs all across 
this country. It is just amazing. You can go to 
www.yearofcleanwater.org and see the incredible work that 
people are doing to celebrate the 30th anniversary.
    I thank you very much, Mr. Chairman, for inviting us here 
today, for sponsoring this hearing. We talked a little bit in 
the beginning about the wonderful work of the Senators. I would 
like to at least recognize Mr. Bob Roe, who was the floor 
manager on the House side for the 1987 amendments and the 
wonderful staff--Leon Billings, who staffed Mr. Muskie in the 
1972 bill, and Bob Hurley that staffed Senator Chafee. They did 
a wonderful job, and of course, without excellent staff a lot 
of the work does not get done.
    It is a wonderful opportunity and I would like to then turn 
it back to you so that you can introduce the students.
    Thank you very much.
    Senator Jeffords. I cannot thank you enough for what you 
are doing, and especially to help the young people of this 
country become leaders and tell us what to do. We have got a 
lot of improvements to make.
    Ms. Savage. I have been with these girls for the last 
several days, and Mr. Senator, I think they will tell you what 
to do.
    [Laughter.]
    Senator Jeffords. I hope so.
    This is a question for all three of the students. First of 
all, I am going to let you testify, and then I will ask you a 
question.
    Ms. Chris, would you like to start?

  STATEMENT OF GRACE CHRIS, STUDENT, WHITE RIVER JUNCTION, VT

    Ms. Chris. Good morning, and thank you, Senators, for 
allowing me to speak about clean water before this committee 
while I am attending the Youth Watershed Summit.
    My name is Grace Chris and I am 13 years old and I live in 
Vermont. I am both very honored and very, very nervous this 
morning.
    I came here from the State of Vermont, also known as the 
Green Mountain State for the beautiful hills that cross the 
State north to south. Throughout the Green Mountains and its 
adjacent lowlands are miles of streams and rivers and acres of 
ponds and lakes. These waterways nurse the green of the 
mountains and in turn support the wildlife, farm life and human 
life whose habitat is the State of Vermont. The fall foliage 
for which Vermont is famous draws water from Vermont earth and 
creates jobs for Vermonters involved in the tourist industry. 
The sweet maple syrup from the Vermont sugar maple trees starts 
out as clean water in many Vermont watersheds. Cows drink the 
Vermont water and give us world famous Cabot cheese and Ben and 
Jerry's ice cream.
    Agriculture, hunting and fishing, trees and tourists, 
recreation, business and industry, and daily Vermont quality of 
life all depend on maintaining the abundance and cleanness of 
Vermont waters. My classmates and I and all the other kids 
attending the Youth Watershed Summit are doing something back 
home to protect the waters that bring life to our States. This 
week in Maryland, we have all come together to share evidence 
of our efforts to protect our water. We already know that 30 
years ago you did something very important by creating the 
Clean Water Act. For 30 years, Americans have benefited from 
that important legislative accomplishment.
    My teacher was a senior in high school when you passed the 
Clean Water Act in 1972. This week, he is here with me and 
other students and teachers at the Summit to share in the 
celebration of what the Senate helped create 30 years ago. We 
are hoping to demonstrate that the effort to protect the 
world's waters continues through us and the work we do back 
home.
    I am an eighth grade student at Hartford Memorial Middle 
School in White River Junction, VT. My school is located about 
1.5 miles from the point where the White River flows into the 
Connecticut River. Upstream from us, the White River watershed 
collects rain and runoff from the many, many tributaries that 
flow through the forests, farmlands and towns of Bethel, 
Randolph, Rochester, Stockbridge and Sharon, and many, many 
other beautiful small villages of Central Vermont. The 
activities we conduct and allow along these waterways determine 
the present and future health and abundance of these waters. 
The work of our State and Federal employees and many local 
volunteers is very important in protecting the White River 
watershed. My classmates and I are part of that group effort, 
and I am here to tell you a little about what we are doing to 
fulfill the Clean Water Act's goals.
    As water flows through my watershed, it is drawn out for 
various uses and then returned in various states of 
contamination. Also, rainwater and snow melt carry manure, road 
salt and many other chemicals from fields and roads and parking 
lots into the watershed through non-point source pollution. 
Business, industry, breweries and cider mills, sewage treatment 
plants, schools, hospitals, private homes and vacation homes 
often add materials and chemicals to the waterways through 
identifiable pipes or point-source pollution. The disease-
causing bacteria, E. coli, cancer-causing heavy metals, 
poisonous industrial waste and road salts all contribute to 
changes in the water quality in my watershed.
    Fish and other animal populations drink water sources, and 
favorite swimming holes benefit or suffer from what you and I 
and others do or fail to do around our waterways. Most of the 
water uses are necessary and very important and need to 
continue. Volunteers and professionals follow the fate of these 
waters through water quality monitoring programs and stream 
bank restoration programs. Small towns pass budgets to upgrade 
sewage treatment plant facilities or adopt low-salt policies 
for their roads. Student collect tires and trash from streams 
and ponds during Vermont's Green Up Day on the first Saturday 
in May. Together, we use and sometimes abuse our watershed 
through our daily activities. Together, we have a 
responsibility to undo the damage that our waters are subjected 
to every day. The Clean Water Act gives us the authority to 
clean up our waters, but it is we individuals who must put 
forth the effort to repair, restore and maintain our watershed 
water quality.
    I want to thank you for all you do as Federal leaders and 
lawmakers, and I want to tell you about what we are doing. My 
school is a pioneer in the use of Geographic Information 
System, or GIS, and Global Positioning Systems, or GPS, 
technologies in Vermont. We are learning how to collect data 
and display it in spatial or map formats. We can take fish 
collection data, E. coli population data, soil type and land 
use data, or pH and water temperature data collected in our 
watershed and show it as a map. We can ask important questions 
about relationships among these water quality factors, and then 
display those relationships in multi-colored maps.
    The spatial display of these data may reveal patterns that 
better explain what is going on in the watershed. Right now, my 
group's work has been to look for relationships among the land 
use on the shores and streams of the riverbanks, the soil types 
on the shorelines, and the E. coli populations in the 
downstream waters. We found that the E. coli populations are 
higher in water that has less forest vegetation along the 
shoreline. However, we do not see a clear relationship between 
prime agricultural soils on the shoreline and high E. coli 
populations in the nearby water. Our GIS analysis has begun to 
reveal some relationships among our water quality factors in 
our watershed, and it has created some new questions for us to 
investigate in the future. What we expected to find was not 
exactly what we found, and we want to know why, so we will keep 
on working at it and training other kids how to do this work.
    We are just young people, but young people with an interest 
in our watershed. We have been lucky to work with groups like 
the Vermont Institute of Natural Science, the White River 
Partnership, and Vermont Fish and Wildlife. They have taught us 
about GIS and shared their water quality data with us. Together 
we are creating a community mapping program to help local 
community leaders use GIS technologies to plan for their 
community's future and manage its resources wisely. Our teacher 
has received training from groups associated with NASA and the 
Environmental Protection Agency. Now, we would like to count on 
continued support from you, the U.S. Senate, through thoughtful 
legislation, and help my school and other schools protect the 
White River Watershed and every other watershed in every other 
State. I hope my testimony here contributes to that goal.
    Again, I am very honored to have been invited to talk to 
you about clean water. Together, I hope we will continue to be 
responsible citizens and support the 1972 Clean Water Act for 
at least another 30 years.
    Thank you very much.
    Senator Jeffords. Thank you very much. That is a very 
excellent statement and we appreciate your being here today.
    Ms. Chris. I also have a shirt for you.
    Senator Jeffords. Oh, all right. Afterwards, I will come 
down.
    Senator Wyden. Only one T-shirt?
    Ms. Savage. It is the Youth Summit T-shirt.
    Senator Wyden. The story of my life.
    [Laughter.]
    Ms. Savage. We will get you one, Senator.
    Senator Jeffords. Thank you very, very much.
    Ms. Savage. We will get shirts for the whole committee.
    Senator Jeffords. Wow. Clean water everywhere for everyone. 
Very, very good. Thank you.
    Ms. Chin.

        STATEMENT OF JORDAN CHIN, STUDENT, PORTLAND, OR

    Ms. Chin. Mr. Chairman and members of the committee, I 
wanted to express my appreciation for you listening to our 
testimonies today. Thank you, Senator Wyden, for introducing 
me.
    My name is Jordan Chin and I am 16 years old. I attend the 
Metropolitan Learning Center in Portland, OR. I am here today, 
Mr. Chairman, as one of the Oregon representatives for the 
Youth Watershed Summit, which is being hosted by America's 
Clean Water Foundation, the Smithsonian Environmental Research 
Center, and the Environmental Protection Agency.
    When I was invited to attend the Youth Watershed Summit, I 
jumped at the opportunity. I have always believed that youth 
involvement in our society would create new visions for this 
country. This convention of some 250 students selected by their 
Governors from 50 States is an outstanding chance for me and my 
fellow students to learn to share and to carry the clean water 
message home to our respective States.
    I believe that information about our environment is 
something that everyone in this country should be more aware 
of. Awareness and involvement are the keys to bringing about a 
positive change in our society and its attitudes about our 
fragile environment. Water is what we are made of. It is the 
source of life. I think that youth involvement in education is 
an exceptional beginning to that process.
    Because I believe in bringing the need for cleaner water to 
the attention of young people, I am one of the actors who will 
this evening be performing The Murky Water Caper: A Real Fish 
Story, written for the ACWF by Deborah Rodney Pex. I have these 
books to pass out to you later on so that you can see.
    Senator Jeffords. Thank you. We will get it.
    Ms. Chin. My character is Detective Michelle Tuesday, who 
is an inquisitive private investigator with a passion for 
justice and the desire to ensure the well-being of creatures 
and spaces around her. Ms. Tuesday helps the fish who have 
retained her to find the cause of the pollution that is 
contaminating their homes. Cheesy jokes and all, I am very 
excited and very proud to be a member of the cast.
    I understand, Mr. Chairman, that some of your members of 
the committee staff may be joining us at the YMCA Camp Letts to 
see just how the Murky Water Caper can be an inspiring and fun 
way to educate people of all ages who care about their ways of 
life. Because this play is packed with information, I would 
like your permission to present each member of the committee 
with a copy of the Murky Water Caper.
    Senator Jeffords. Thank you. You may do that. Thank you.
    Ms. Chin. It was recently published by America's Clean 
Water Foundation.
    I am here today to say thank you to those who were so wise 
as to give our country the Clean Water Act back in 1972, and to 
say that I know the future of the water's quality rests in our 
hands, as well as yours. As a young person, I want to be very 
informed about the ways I affect the environment and I want to 
share that information with my peers.
    I am currently enrolled in an ecology class at my school 
back home in Portland. One of my personal projects in class is 
to find ways to recycle eco-friendly clothing and used 
clothing. I like knowing that my wardrobe matches my commitment 
to the environment and I like the idea that I am providing such 
ideas to my fellow students. Even small things like buying 
clothes have huge impacts on our environment and a lot of 
people are not aware of those impacts.
    Although all this is public information, I am hard-pressed 
to find more than a handful of people outside of my classroom 
that are aware of the things that are going on in the 
environment, that are aware of the resources we are draining 
and the negative impacts we are having on our planet by the way 
we live our lives each day.
    Mr. Chairman and members of the committee, there is one 
thing in particular that I want to leave with you. I hope to 
share my hope that one day the citizens of this country will be 
more informed of the fact that the environment is deteriorating 
and being largely neglected every day by virtually every person 
that lives on this planet. I want them to know that this 
affects them personally.
    This neglect is not just in the other countries or other 
States that are far away from where we live. It is not just the 
rain forests down in South America that we have never been to, 
or the wetlands in the other States that we hear about. It is 
the groundwater and the surface water that we drink and the 
fruits and vegetables that we eat every day. It is really 
important that people are aware that this is not just something 
that is outside of them. This is, you know, this is them.
    I am but one student in a small State on the other side of 
this Nation, but I know that every citizen in this country 
needs to be more aware of how important it is for us all to 
protect our water. They need to know about how polluted water 
affects the health of their parents and children, of our 
friends, and it affects our relatives and people that we have 
never met. In protecting the earth, we are protecting ourselves 
and people everywhere, all animals, and all the vegetation that 
sustains us. We will be taking care of each other.
    I sincerely hope that my testimony before you this morning 
has shown you, the guardians of this country, that even though 
we sometimes do not speak up and are often not heard, teenagers 
do care. We are drinking in the information provided for us at 
the Youth Watershed Summit and we are thirsty for more. We need 
for you to inform us and we need to see that you care. We want 
a healthy planet to grow up in, to go to college in, and to 
raise our families in.
    Everyone on this committee and everyone in this room has 
the power to protect our water. You are the environmental 
leaders of this country and I would ask you that you use your 
power to help bring about a more informed society and to 
reauthorize the Clean Water Act for our protection and for the 
protection of the generations to come.
    I personally am asking you to take care of the people that 
you were sent here to protect. I want to thank you so much for 
your time.
    Senator Jeffords. Thank you very much.
    Ms. Hoeft.

         STATEMENT OF KRISTEN HOEFT, STUDENT, EAGAN, MN

    Ms. Hoeft. Mr. Chairman and members of the committee, good 
morning and thank you so much for inviting me to talk to you 
about the Clean Water Act. My name is Kristen Hoeft. I come 
before the committee as a representative of the Youth Watershed 
Summit and as a citizen of a land of 11,842 lakes, the great 
State of Minnesota. I am currently a senior at the School of 
Environmental Studies in Apple Valley, MN.
    Mr. Chairman, I am very honored to be appearing before you 
today and I want to share my thoughts about growing up in 
Minnesota, a State that has water virtually everywhere. I have 
been able to experience some of our State's beautiful lakes and 
rivers from canoeing the Boundary Waters in northern Minnesota, 
hiking along the shores of Lake Superior, or boating on the 
Mississippi and St. Croix Rivers. My parents felt it was very 
important for me to know how to swim and learn boating safety, 
because we spend most of our summers along the Mississippi and 
St. Croix Rivers. I look back and realize the important 
foundation that my parents gave me because not only do I enjoy 
the recreational aspect of the water we have in Minnesota, but 
I have also come to appreciate water ecology, the need to 
educate people about shore erosion, and the reduction of 
chemical pollution in our lakes, rivers and streams.
    Over the years, I have seen the Minnesota and Mississippi 
Rivers flood many times, where farmers have lost crops and 
precious topsoil. This erosion has not only hurt the farmers, 
it adds to the pollution of the Minnesota and eventually the 
Mississippi River. I have come to understand that it is not 
only topsoil that is eroding our stream and lake waters, it is 
also the variety of chemicals used in the farming process.
    I have always thought that if our country's pollution 
problems were really important, the adults would take care of 
finding a solution to the pollution problems, but I have come 
to realize that it is not always going to be this way. In my 
junior year of high school, I decided to attend the School of 
Environmental Studies because it is a much smaller setting than 
the traditional high school. From the four main high schools in 
our district, 200 juniors and 200 seniors are selected to 
attend. SES, as it is known, has an innovative way of teaching 
the basic subjects of English, social studies, and science by 
collecting data, analyzing it, and recording the information, 
blending all three subjects together with an environmental 
theme. The mission statement of SES reads, ``a community of 
leaders learning to enhance the relationships between people 
and their environments.''
    The first project of my junior year started with the Pond 
Profiles. This is an activity that the city of Eagan helps us 
with a great deal. We were given a course in identifying water 
plants and organisms, as well as land plants and running 
chemical tests. We were then sent out with a teacher to a 
specific lake or pond in the city of Eagan. While at the pond 
or lake, we were required to identify organisms found in and 
around the water and conduct several water quality tests such 
as the Secchi disk and to determine the clarity of the water, 
and chemical tests such as pH and dissolved oxygen. All of this 
data is collected and then presented to the city of Eagan water 
officials and put on permanent record in Eagan. We provide this 
service because with over 1,000 ponds, lakes and wetlands in 
the watershed, city officials do not have time to collect such 
data. This is the first of many projects that SES does for the 
city of Eagan, Apple Valley and surrounding areas.
    This is a gratifying way to expand the learning process 
beyond the classroom and I enjoy it thoroughly. Learning 
environmental science with a hands-on experience is much more 
interesting than just reading out of a textbook. That is why we 
at SES are excited about participating in America's Clean Water 
Foundation and its many co-sponsors and the National Water 
Monitoring Day. On October 18, 2002, student seniors, 
professionals and those who just want to help protect water 
quality are coming together to sample water quality throughout 
the Nation. I am so excited to think that hundreds of thousands 
of people will join together on the actual 30th anniversary of 
the Clean Water Act to test for pH, DO, temperature and 
turbidity.
    Another experience I have regarding the environment is that 
I frequently walk my dog around the lake of the park across the 
street from my home. It is a small lake that is enjoyed by many 
people in the area. Anytime of the year, you will see many 
people fishing in the lake. In the spring when the snow and ice 
have melted, the lake is beautiful. It appears to be clean and 
clear, but looks can be deceiving because by early summer, the 
growth of algae is so thick that it would appear as if you 
could walk across the lake. The city then comes in with a large 
machine that harvests the weeds and rids the lake of most 
algae.
    I wish that the same people that enjoy the lake year-round 
would take some time to think about the chemicals they dump on 
their lawns to make their lawns lush and green at the expense 
of water quality in the lakes of our watershed district. The 
city of Eagan is attempting to combat the phosphorus chemicals 
found in fertilizer used by many people, and has recently 
started to add a chemical called Alum that removes the 
phosphorus in the water and should eventually lessen the amount 
of algae growth in the lake.
    Mr. Chairman, I would like to see legislation and education 
to maintain water quality so that my neighborhood lake and the 
thousand other lakes and rivers in Minnesota can be clean for 
future generations.
    For the past four summers, I have worked as a nanny for a 
family with three girls. One day last summer, the girls and I 
decided to go for a bike ride on the trail that overlooks the 
confluence of the Minnesota and Mississippi Rivers. It was a 
clear bright day. We stopped where the rivers come together and 
I decided to point out some interesting river ecology facts to 
the girls. The first thing I asked the girls was to tell me 
which river they thought was the Minnesota and which one was 
the Mississippi. Because it was a very bright day, one river 
looked very clean and the other very dirty. The girls were 
amazed to learn that it was actually the Minnesota River that 
appeared very dirty. They found this hard to believe because 
everyone seems to think of the Mississippi as the Muddy 
Mississippi. The fact remains that the farm chemicals, 
livestock runoff and silt that pollutes the Minnesota River are 
adding to the problem. When the two rivers join, you can see 
the line of suspended solids from the Minnesota River blending 
into the Mississippi, so it is actually the Minnesota River 
that gives the Mississippi a bad reputation in our part of the 
Nation.
    In 1819, Fort Snelling was settled because of its location 
between the two rivers. The Native Americans in the area 
believed that the land near the confluence was the origin of 
all life. It is said today that we do not think it is important 
enough to try and improve the quality of these rivers and are 
slow to do anything to fix the problems.
    I have come to realize that although some people are aware 
of the problems regarding water quality, it will be the 
responsibility of my generation, through awareness and 
education, to clean and protect the environment. That is why I 
wanted to come to the Youth Watershed Summit. I wanted to learn 
as much as I can about water quality, pollution, and the 
various ways to remedy pollution problems in other States. I 
know that the problems we face in Minnesota are not Minnesota's 
alone. They are the problems of our Nation. It will be 
necessary to work together to clean up and restore lakes, 
rivers and oceans. I say let's make America even greater by 
setting an example to the rest of the world that clean water is 
an important issue for everyone.
    While I know that there have been significant improvements 
over the past three decades, I also know that I want clean 
water for my generation and the generations to follow. I want 
clean water for my children and the children of my children. 
When I was looking at the Year of Clean Water website, I was 
surprised to notice that the last time the Congress 
reauthorized the Act was in 1987. Through my studies, I know 
that there have been many changes over the past 15 years, and 
also know that water detection and protection has become far 
more complex. Now, advanced technology should be translated 
into the clean water law.
    I must ask you, Mr. Chairman and members of the committee, 
to begin the process of the reauthorization to assure that our 
country can provide clean, fresh water for all of us for many 
generations to come.
    Thank you for allowing me to appear before you today.
    Senator Jeffords. I want to thank all of you for the 
excellent statements. We are proud of you, Ms. Savage, for the 
effort that you have put in to make sure that these young 
people would be here, as well as what you are doing throughout 
this Nation. I certainly want to commend you, too.
    Yes, Senator Wyden.
    Senator Wyden. Thank you, Mr. Chairman.
    I just have one question, because I think all of you are 
great. If you could each ask us to do one thing, just one 
thing, to promote clean water, what would it be? Maybe start 
with you, Ms. Chin.
    Ms. Chin. OK. Well, I think that awareness and involvement, 
like I said in my testimony, are the key pieces to bringing 
about a positive change in our environment and in our society 
in general. When we are speaking about the Clean Water Act that 
was an issue beforehand and it is still an issue in these 
testimonies, I do not think that protecting our homes and 
protecting ourselves should be an issue that is up for debate 
at all. As I understand it, the Clean Water Act that was 
reauthorized last time in 1987, in the bill it was said that it 
needed to be reauthorized every 4 years. The fact that the last 
time we did was about 30 years ago is a huge indicating factor 
that we have a serious lack in our society right now. I think 
that lack would be filled by a positively informed society. I 
do not think that this would have been an issue if people knew 
what was going on.
    As a young person, I am very lucky to have the advantage of 
a more international understanding of the water issues, being 
that my father is the Chief of Protocol currently for the 
Government of Singapore. Right now, they are supplying the 
public with recycled water that has been purified by reverse 
osmosis. I think that this is evidence that there is always 
something to be done. I believe that all students should have 
the opportunity to know what is going on in the world and in 
the environment internationally, as well as at home. I think 
that these opportunities should be provided in public schools, 
and I think that they should be supported.
    We already have a lot of information that the teachers are 
giving us, but I do not think that it is stressed enough the 
importance of our environment. I think that if you believe that 
this country is great, then I think that you should take 
advantage of the potential, as well as the students and the 
citizens of this country, advantage of the potential that we 
have because we can make huge advancements in the well-being of 
our society and of the societies around us.
    Senator Jeffords. Thank you very, very much.
    I am trying to figure out just how to work this out, but 
what was the first State in this country to pass an all-
pervasive water pollution law? It was before 1972. Actually, it 
was 1972.
    Ms. Hoeft. Was it Minnesota?
    Senator Jeffords. No.
    Ms. Savage. There are two of you left.
    Ms. Hoeft. Vermont.
    Senator Jeffords. Yes, very good.
    [Laughter.]
    Senator Jeffords. In fact, it was one of the most wonderful 
times. Vermont had an onslaught at that time of people who 
suddenly discovered us and came piling into the State and there 
were no regulations whatsoever, and we had strong problems with 
water pollution and all. I was Attorney General at the time, as 
you might guess before this is all over, but we came down here 
to testify before the Muskie committee, which we heard 
mentioned earlier, which established the U.S. standards. 
Because we had had so many problems, we must have said there 
will be no pollution. You literally could not throw a stone 
into the brook or spit in the brook or anything else without 
being in violation of the law. That was our start.
    It just gave me the incentive to continue to work on 
environmental issues all those years. Oregon was right behind 
us. Oregon was right there. They also--I do not know when their 
first start was, but it was very early, and I worked with them 
all over. They beat us on some standards like bottles and 
bottle returns and keeping the streets cleaned or whatever. In 
just about everything--air pollution and all those things--it 
was Oregon. Minnesota was, too. Minnesota was right up there. 
It is quite appropriate that you three are here today because 
you represent the cleanest States, in my mind.
    Ms. Savage, I appreciate all you do.
    Ms. Savage. Thank you very much. We did invite a friend of 
yours, Tex LaRosa, who helps you with the implementation of the 
Clean Water Act of Vermont. Tex and his wife are not feeling 
well. As you know, they are up in Montpelier. He sends his 
regrets, but also his great admiration for you.
    Senator Jeffords. Thank you.
    Ms. Savage. I am delighted that these three ladies, and we 
have 246 more out at Camp Letts that are as outstanding as 
these three.
    Senator Jeffords. Thank you all--wonderful help. It gives 
me great hopes for your future and my future and our future. 
Thank you all for your testimony.
    Now, it is all over.
    [Whereupon, at 12:24 p.m., the committee was adjourned to 
reconvene at the call of the chair.]
    [Additional statements submitted for the record follow:]
        Statement of Hon. Robert Stafford, Former U.S. Senator 
                       from the State of Vermont
    Mr. Chairman and members of the committee. I appreciate the 
opportunity to speak with you today to celebrate the 30th anniversary 
of the Clean Water Act. We have come a long way since 1972. It is 
almost impossible for me to believe that there was a time in Vermont 
when stories about ``dead'' rivers and streams were commonplace, when 
rivers turned the color of the dye used by woolen mills, and when 
untreated human sewage flowed directly into our waters. It is the Clean 
Water Act that has made that scenario almost impossible to believe.
    The passage of the Clean Water Act in 1987 was the culmination of 
one of the greatest bi-partisan efforts to enact legislation to protect 
our nation's environment during my tenure as chairman of this 
committee. Over the course of 4 years--1982 to 1986--we held hearings, 
negotiated the finer points of this legislation, and compromised with 
each other to produce the last significant reform to the Clean Water 
program. It survived two Presidential vetoes. The result is a piece of 
legislation that remains a critical element of our nation's framework 
of environmental protection.
    The man who deserves the most credit for the passage of this 
legislation is Senator John Chafee. It was Senator Chafee who presided 
over our subcommittee hearings on this issue. It was Senator Chafee who 
led the conference committee to produce a package that passed both the 
House and Senate unanimously at one point. His tireless work and 
dedication to this issue should not be forgotten. I was proud to serve 
with him on this committee. We are all lucky that he was here to lead 
the way to clean water. It is very special to have Senator Lincoln 
Chafee here as a member of this committee, continuing his father's 
legacy of environmental protection.
    The 1987 amendments took several main steps to address water 
pollution. Funding was the main point of debate in 1987. We reached a 
compromise in that year to phase-out Federal funding for the 
construction grants program and to create a new financing mechanism 
called the State Revolving Fund, or SRF. At the time, we thought that 
it was a modest down payment on the investment we were asking the 
States, cities, and municipalities to make over the next decade.
    It turns out that the Federal investment in the SRF has not ended, 
and the funding needs for wastewater treatment facilities have grown. I 
am aware that the Environmental Protection Agency recently released a 
report citing a ``gap'' of $270 billion in funds available for clean 
water needs. This is a huge gap that deserves the attention of this 
committee and this Congress. I understand, Mr. Chairman, that you and 
Senator Graham of Florida led this committee's efforts to pass S. 1961, 
the Water Investment Act. I commend your efforts, and I urge the full 
Senate to take action to provide additional financial support for clean 
water needs.
    In my comments upon final passage of H.R. 1, the Water Quality Act 
of 1987, I highlighted the portions of the bill dealing with non-point 
source pollution. This was one of the key gaps in the 1972 law that we 
sought to fill in 1987. We authorized a new program to develop best 
management practices to control nonpoint sources of pollution that 
often prevent the attainment of the fishable, swimmable goal for water 
quality. Since that time, the Congress has provided close to $1.8 
billion to combat non-point source pollution. Yet, this remains a major 
challenge for the future of the Clean Water Act. I understand that EPA 
estimates that non-point source pollution is responsible for close to 
50 percent of our current water quality problems. It must be addressed 
if we are to take the next step in cleaning our waters.
    As this committee looks to the future, I would ask you to recall 
the days of multi-colored waterways and the seemingly insurmountable 
challenge that the 92d Congress faced when enacting the Clean Water 
Act. They took that challenge and met it. The results speak for 
themselves. In 1987, we decided that we had an opportunity to move 
another step toward clean waters. Today, you have a similar 
opportunity. Our waters are cleaner than they have been in years, but 
we have lingering problems that prevent us from reaching the 
``fishable, swimmable'' goal. You have the opportunity to address these 
lingering issues. I urge you to take action by re-authorizing Federal 
assistance for clean water and by taking another step forward on non-
point source pollution.
                               __________
        Statement of Hon. George Mitchell, Former U.S. Senator 
                        from the State of Maine
    Mr. Chairman and members of the committee. I appreciate the 
opportunity to join you today on the 30th anniversary of the passage of 
the Clean Water Act.
    We have made progress since 1972 in meeting the goal of the Act 
which is ``to restore and maintain the chemical, physical, and 
biological integrity of the Nation's waters.'' Our nation has invested 
nearly $75 billion to construct municipal sewage treatment facilities, 
nearly doubling the number of people served with secondary treatment to 
almost 150 million.
    However, there is much more to be done. The EPA's Assistant 
Administrator for Water said recently that about 40 percent of our 
nation's waters do not meet fishable swimmable standards. That bears 
repeating: after 30 years of implementation of the Clean Water Act 40 
percent of our nation's waters remain impaired. Clearly, we must 
intensify our efforts.
    Ms. Chairman, it is appropriate to recognize the contribution of 
one of our nation's great pioneers in environmental legislation, my 
friend and mentor, Senator Edmund Muskie. Senator Muskie remains the 
greatest public figure in Maine's history and one of the great 
legislators in our nation's history. He was the principal author of the 
1972 Clean Water Act, which is a cornerstone of our environmental law. 
He appeared before this committee in 1992 in celebration of the 20th 
anniversary of the Clean Water Act, and I am honored to again follow in 
his footsteps.
    I will focus my remarks today on our progress on the issues that 
were addressed in the 1987 amendments to the Clean Water Act. I was 
fortunate enough to manage that bill on the floor of the Senate in 
1987, as chairman of the Subcommittee on Environmental Protection, when 
it was passed over a Presidential veto.
    The legislation was a heartening example of bi-partisan 
cooperation. This committee put it together over a 4-year period. 
Senator Robert Stafford of Vermont and Senator Quentin Burdick of North 
Dakota led the committee during that time. I had the pleasure of 
working on the details of this legislation with Senator Dave 
Durenberger of Minnesota and with Senator John Chafee of Rhode Island, 
who was at that time chairman of the Subcommittee. Without bi-partisan 
cooperation on this committee the bill would never have become law.
    I especially want to recognize Senator Chafee's role as a principal 
author of the Water Quality Act of 1987. I congratulated him then, and 
my words bear repeating today:

          Senator Chafee . . . is the architect of this legislation. He 
        chaired the hearings we held on clean water in the Environment 
        Committee. He managed the bill on the Senate floor. He spoke 
        for the Senate conferees during the long and intense conference 
        with the House on this legislation. The high quality of this 
        legislation is largely due to his efforts.

    Today, our nation's waters are cleaner because of Senator Chafee. 
It is gratifying that Senator Lincoln Chafee is here today as a member 
of this committee to continue his father's legacy.
    As I prepared my testimony for this hearing, I was struck by the 
similarities in the debates over the Clean Water Act in 1972, 1987, and 
today. In those early years we debated the role of the Federal 
Government versus State governments. We faced opposition to pollution 
control requirements and implementation schedules. We struggled to find 
the appropriate level of Federal financial commitment to clean water. 
We worked to ensure that the Clean Water Act remains relevant to 
current water pollution issues. Each of these concerns remains a 
vibrant part of today's debate.
    The 1987 amendments to the Clean Water Act could be described as 
``gap filling measures''. We looked at the 1972 law, identified areas 
where additional action was needed, and sought to create the legal 
infrastructure needed to further the cleanup of our nation's waterways. 
Two key issues in 1987 included funding levels and addressing non-point 
source pollution. There were, of course, numerous other important 
actions taken such as the creation of the National Estuary Program, the 
Chesapeake Bay Program, and the Great Lakes Program. We reinvigorated 
the toxics program in the Clean Water Act by, among other things, 
requiring numerical standards for priority pollutants. We increased the 
penalties for violations under the Clean Water Act, and we established 
the first permit program for the control of stormwater discharges. 
Because time does not permit a discussion of all of these subjects, I 
will focus today on the key issue of funding.
    In 1972, Congress chose to significantly increase Federal 
participation in clean water programs. It peaked at $5 billion in 1979 
and 1980. As a result, Americans in the 1980's, and today, assume that 
our nation's waters are clean--available for swimming, fishing and 
providing habitat for a host of wildlife species.
    In 1981, President Reagan proposed the elimination of funding for 
clean water unless Congress reduced the size and scope of the program. 
Congress responded to the President's demand. Clean Water funding was 
reduced from $5 billion a year to $2.4 billion a year. We reduced the 
types and numbers of projects that were eligible for Federal funding, 
and we reduced the Federal share of the cost for construction projects 
from 75 to 55 percent.
    The Water Quality Act of 1987 took further steps to reform the 
Federal involvement in the Clean Water Act by adopting a transition 
strategy to move the country away from construction grants toward an 
innovative mechanism called the State Revolving Fund or SRF. The 1987 
amendments authorized almost $10 billion over 5 years for the phase-out 
of the construction grants program and $8.4 billion over 5 years for 
the SRF.
    We knew at that time that this level of funding was inadequate to 
fully meet our nation's clean water needs, which at that time were 
estimated at between $75 and $100 billion. But this was a compromise 
struck at the time with those who opposed any continued Federal 
investment in clean water.
    Despite this compromise, President Reagan vetoed the bill in 1986 
over this issue. In 1987 the Congress re-enacted the bill. The 
President vetoed it again. But this time Congress overrode his veto and 
the Water Quality Act became law.
    In 1987, we envisioned a situation where after the initial 5-year 
period of Federal investment, the SRF would begin to revolve on its own 
and the Federal investment in clean water programs would no longer be 
necessary. However, this has not come to pass, and I understand that 
the debate continues over the level of and mechanism for Federal 
investment in clean water.
    Yet there is little or no debate on the need. Just last week, 
Administrator Whitman announced the results of the EPA's gap analysis, 
which indicates a gap of over $270 billion for clean water needs.
    In my home State of Maine, the Androscoggin River is a relevant 
case study of our progress on clean water. In the 1960's it was ranked 
in the top ten of the most polluted rivers in the Nation. The 1972 
Clean Water Act resulted in the removal of more than 90 percent of the 
waste from point sources like paper mills and municipal wastewater 
systems. Recreational use has increased dramatically. However, the 
river still suffers from discharges from combined sewer overflows and 
stormwater non-point source discharges. During these events, bacteria 
counts skyrocket. Across the country, as on the Androscoggin, we have 
come far, but we have much further to go.
    This committee took action earlier this year to pass S. 1961 which 
would re-
authorize the SRF for $20 billion over 5 years. The House 
Transportation and Infrastructure committee passed a similar bill, 
which also authorizes $20 billion over 5 years. I know that the 
leadership on this committee has worked in a bi-partisan manner with 
the Senate Appropriations Committee to increase funding for the SRF. As 
a result there is an increase of $100 million for the Clean Water SRF 
in the VA-HUD appropriations bill. I commend you for your leadership on 
this issue, Mr. Chairman, and I urge the Senate to continue forward 
progress.
    The role of Federal funding in protecting our nation's waters was 
at the center of the debate in 1987. It remains there today. In 1987 we 
knew we could not possibly fund all that was needed to clean our 
waters. That is still true. We provided all that we could in 1987. You 
must do so again because, unfortunately, despite all our efforts, the 
estimated gap is larger today than it was then.
    And the infrastructure is that much older. Much of it is nearing 
the end of its useful life. Failure to replace it could threaten public 
health and our economy.
    The conclusion is clear, although to act on it will, as always, be 
difficult. There must be an increase in funding for the clean water SRF 
if our nation is to continue its progress in implementing the Clean 
Water Act.
    In 1972, and in 1987 the bill survived Presidential vetoes. In each 
case, cost was a significant issue. In each case, the nation's desire 
for a clean environment overshadowed all other issues. That is still 
the case. The words that Senator Muskie used in 1972 in urging the 
passage of the original Clean Water Act apply to today's challenges:

          Can we afford clean water? Can we afford rivers and lakes and 
        streams and oceans which continue to make life possible on this 
        planet? Can we afford life itself? The answers are the same. 
        Those questions were never asked as we destroyed the waters of 
        our Nation, and they deserve no answers as we finally move to 
        restore and renew them. These questions answer themselves--we 
        have reached a point in our struggle against water pollution 
        where as we say in New England--we must either ``fish or cut 
        bait''. If we are serious about restoring the quality of our 
        Nation's waters to a level that will support life in the 
        future, then we ought to be prepared to make some sacrifices in 
        that effort now.

    In 1972 and 1987 the Nation and the Congress rose to meet the 
challenge. I hope they will do so again.
                               __________
  Statement of G. Tracy Mehan III, Assistant Administrator for Water, 
                  U.S. Environmental Protection Agency
                              introduction
    Good morning, Mr. Chairman and members of the committee. I am Tracy 
Mehan, Assistant Administrator for Water at the U.S. Environmental 
Protection Agency (EPA). I appreciate and welcome this opportunity to 
celebrate three decades of progress in improving the quality of our 
Nation's rivers, lakes, streams, wetlands and estuaries under the Clean 
Water Act (CWA), and to consider the continuing challenges ahead to 
protect water quality, human health and the environment. October 18, 
2002, will mark the 30th anniversary of the Clean Water Act. Thanks in 
no small part to this landmark legislation, we have accomplished a 
great deal over the past 30 years in improving and maintaining water 
quality in our country. While challenges remain, we have better 
mechanisms in place today, including improved Federal and State 
partnerships, to tackle those issues and accomplish further 
improvements in the quality of our nation's waters.
                         what we have achieved
    We are all familiar with the horror stories about where we started 
from 30 years ago. As we entered the 1970's, the Nation's waters were 
in crisis--the Potomac River was too polluted for swimming, Lake Erie 
was dying, and the Cuyahoga River had burst into flames. Many of the 
Nation's waterways were little more than open sewers.
    The 1972 Clean Water Act has sharply increased the number of 
waterways that are once again safe for fishing and swimming. The Act 
launched an all-out assault on water pollution, and it worked well. It 
enabled us to improve water quality all across the Nation while 
experiencing record economic growth and a sizable expansion of our 
population.
    It included new controls over point source dischargers, including 
the setting of strong Federal standards to control both municipal and 
industrial pollution sources, a major investment by the Federal 
Government to help communities build sewage treatment plants, and 
support for State efforts to reduce polluted runoff. It established the 
National Pollutant Discharge Elimination System (NPDES) program to 
ensure that those standards were put into place by cities and 
industries. And it spurred the creation of strong partnerships with the 
States, as the level of government principally responsible under the 
Act to implement its provisions on the ground.
    Municipal sewage treatment plants were required to upgrade to 
secondary or advanced levels of treatment, depending on the 
characteristics and quality of the receiving water bodies. To help 
local governments with this effort, the Federal Government has provided 
over $80 billion in wastewater assistance to municipalities over these 
three decades. These investments--made through grants to wastewater 
utilities into the late 1980's, and after the passage of the 1987 Clean 
Water Act Amendments, mainly through grants to States to capitalize 
State Revolving Loan funds (SRFs)--have dramatically increased the 
number of Americans enjoying better water quality.
    The SRFs were designed to provide a national financial resource for 
clean water that would be matched and managed by States, and provide a 
funding resource ``in perpetuity.'' These important goals are being 
achieved. Because of the revolving nature of the funds, dollars 
invested in the SRFs provide about four times the purchasing power over 
20 years compared to what would occur if the funds were distributed 
directly to municipalities as grants. Other Federal, State, and private 
sector funding sources are also available for community water 
infrastructure investments
    As a result, pollution from industrial sources and municipal sewage 
treatment plants plummeted. By any measure--pounds of pollution abated, 
stream segments improved, fisheries restored--tremendous load 
reductions from point sources occurred, resulting in significant 
improvements in water quality across the Nation. The dramatic progress 
made in improving the quality of wastewater treatment since the 1970's 
is a national success. In 1968, only 86 million people were served by 
secondary or advanced treatment facilities. Today, of the 190 million 
people served by wastewater treatment facilities, more than 87 
percent--about 165 million people (double the pre-CWA number)--are 
served by secondary or better treatment.
    Thirty years ago, wetlands losses were estimated at about 460,000 
acres annually. Now, according to recent studies, we estimate that we 
have significantly reduced wetlands losses, although we are not yet at 
``no net loss.''
    During the past decade, the U.S. has preserved, restored and/or 
created hundreds of thousands of acres of habitat nationwide as part of 
the National Estuary Program. The program focuses not just on improving 
water quality in an estuary, but on maintaining the integrity of the 
whole system--its chemical, physical, and biological properties, as 
well as its economic, recreational, and aesthetic values. Some of the 
mechanisms used to protect habitats include land acquisition, 
conservation easements, and deed restrictions.
    Since passage of the Clean Water Act in 1972, water pollution 
problems are being addressed by hard-working partnerships among 
government, private institutions and individual citizens. There are 
myriad success stories:
    <bullet> renewed fishing in the Androscoggin (ME), Connecticut 
(CT), Potomac (VA/MD), the Illinois (IL) and many other rivers.
    <bullet> Improved shellfishing in Narragansett Bay (RI).
    <bullet> Healthier and more abundant sea grasses in Tampa Bay(FL), 
Galveston Bay (TX), and the Chesapeake Bay (DE/MD/VA).
    <bullet> The rejuvenation of the Chicago River (IL) and the 
Cuyahoga River (OH), from ``virtual sewers'' to places where people can 
recreate and where they want to be.
    <bullet> Restoration of a world-class Walleye fishery in Lake Erie.
    <bullet> The transformation of Oregon's Willamette River, from, in 
the early 1960's, a water body overburdened with pollutants that killed 
salmon, posed threats to public health, and stopped river-based 
recreation to one where boating, skiing, swimming, and fishing are 
flourishing once again.
    <bullet> Over the past decade, EPA has witnessed a groundswell of 
support for locally driven watershed protection and restoration 
efforts. In many communities, such as those along the Charles River in 
Massachusetts, citizen groups, government agencies, non-profit 
organizations, and businesses have come together and created long-term 
goals and innovative solutions to clean up their watersheds and promote 
more sustainable uses of their water resources.
                          remaining challenges
    The news, however, is not universally good, as indicated by our 
improved monitoring techniques, which enable us to monitor more water 
bodies. National water quality monitoring data reported by the States 
in the year 2000 shows that approximately 45 percent of waters assessed 
by States are not clean enough to meet basic uses such as fishing or 
swimming; e.g., they do not meet water quality standards. (I should 
emphasize that this change from previous years is likely due to changes 
in how we and the States monitor, analyze, and report water quality, 
not necessarily declines in water quality.) The 2000 National Water 
Quality Report indicates that 39 percent of assessed rivers and streams 
and 39 percent of assessed lakes are not safe for fish consumption. The 
estimates for non-attainment of swimming were 32 percent and 30 
percent; for drinking water, 16 percent and 21 percent.
    The remaining problems impacting water quality are not easily 
remedied--they come not just from pipes, but from diffuse sources such 
as farming and forestry operations, construction sites, urban streets, 
automobiles, atmospheric deposition, and even suburban homes and yards. 
While some of these diffuse sources are considered non-point sources 
under the Act, others are regulated as point sources, as in the current 
NPDES storm water program. It is immensely challenging to manage these 
sources using traditional regulatory tools, because they are not well 
suited to end-of-pipe treatment, and the sources are so numerous and 
widespread. State and local water quality managers are still learning 
what kinds of management practices work best for different kinds of 
sources. This learning process will require us all to aggregate their 
collective experience if we are to better understand the water quality 
benefits of different practices under varied conditions.
    Nor are the great variety of pollution sources just chemical in 
nature. There are physical and biological threats to our nation's 
waters that we must address as well if we are to truly achieve the 
stated goal of the Clean Water Act to ``restore and maintain the 
chemical, physical and biological integrity of the Nation's waters''.
    Physical integrity can have numerous dimensions. For instance, some 
human activities in the riparian zone can themselves be a source of 
water quality impairment, both through erosion and through reducing or 
eliminating the riparian vegetation that can buffer our waters against 
detrimental effects of upland human activities. Similarly, States are 
increasingly taking action, through a variety of programs, to ensure 
adequate instream flows to support water quality for drinking water, 
habitat, and recreation uses.
    Invasive species are an example of a real and growing threat to the 
biological well-being of our nation's aquatic and terrestrial 
resources, as well as to the health of our economy. For example, more 
than 160 invasive aquatic organisms of all types--including plants, 
fish, algae and mollusks--have become established in the Great Lakes 
since the 1800's. The U.S. Fish & Wildlife Service estimates that the 
potential economic impacts of one of these species--the zebra mussel--
will be $5 billion over the next 10 years to U.S. and Canadian water 
users within the Great Lakes region.
Tools for Cleaning Up Impaired Waters
    Meanwhile, EPA will continue to implement those programs already 
underway that aim to ensure the quality of the nation's water. The past 
decade has seen a shift toward an emphasis on what is now commonly 
referred to as the watershed approach. EPA has been promoting, and many 
governments have been practicing, a ``watershed approach'' in their 
work, which encourages a holistic take on identifying problems and 
implementing the integrated solutions that are needed to overcome 
multiple causes of water quality impairment. Increasingly, States, 
Tribes, wa-
tershed groups and others are recognizing the value of implementing 
watershed protection approaches, and are using them as the organizing 
frameworks for their protection and restoration activities.
    EPA views watersheds as the basic unit to define and gauge the 
nation's water quality. Our actions to restore America's streams, 
lakes, and rivers must be based upon improving the watersheds which 
unite not just our rivers and streams, but our communities, and thereby 
bind together our lives with our environment. The watershed approach 
enables us to address the problems of greatest concern in a 
comprehensive, effective manner, and through cooperation with affected 
stakeholders to maximize our results with limited resources.
    In addition to the watershed approach, there are several specific 
tools I would like to mention that we can bring to bear to address the 
more complicated water quality problems we are now facing. One of these 
tools is the Total Maximum Daily Load, or TMDL, Program. In enacting 
the CWA, Congress retained a water quality-based strategy for waters 
that remained polluted after the application of technology-based 
standards. The TMDL Program, contained in section 303(d), essentially 
tells States to establish a water quality cleanup budget for such 
waters. This part of the CWA was kept on the back burner for about 20 
years while other aspects of the CWA were emphasized, particularly 
implementation of minimum levels of treatment for industrial and 
municipal dischargers. The authors of the 1972 Clean Water Act created 
the TMDL Program as a resource to ensure the availability of essential 
information for cleaning up water bodies that were not protected or 
restored under the general pollution control programs of the Clean 
Water Act.
    EPA has been encouraging States to develop and implement TMDLs on a 
watershed basis. Our hope is that this approach will greatly increase 
collaboration and support for the needed pollutant controls. Increased 
public involvement is vital in several respects. Because TMDLs are 
water-quality based, they are information-intensive, requiring 
widespread and systematic monitoring to identify and characterize 
problems and priorities, and to track progress in solving them. Public 
involvement can contribute to this information process both directly 
and through increased visibility for problem-solving. And it will help 
make sure that TMDLs get translated from allocations into action, 
because information brought before the public is itself a driver for 
action.
    Opening the deliberations to all stakeholders and allowing time for 
innovation also will provide additional opportunities to take advantage 
of other programs, including Nonpoint Source grants under section 319 
of the Clean Water Act, the conservation provisions of the newly 
reauthorized Farm Bill, the source water assessment requirements of the 
Safe Drinking Water Act (SDWA), and other Federal, State and local 
programs. Greater inclusiveness and time in the process are especially 
important because these programs are diverse and require a substantial 
amount of coordination among agencies, levels of government and 
different program characteristics. Non-point source 319 grants are a 
fundamental tool to address impairments because they can be targeted as 
a part of TMDL prioritization, and thus can be used as part of States' 
cumulative strategies to clean up impaired waters. Farm Bill funds are 
a broad resource to help farmers implement practices that could protect 
water quality generally, including by maintaining water quality or 
complementing 319 funds in impaired waters. We are looking forward to 
States completing their source water assessments under SDWA next year 
(2003) so that we can have a clearer picture of the threats to source 
waters at both the State and national level.
    The TMDL program continues to evolve to meet the challenges of 
cleaning up our nation's waters, and several changes to the TMDL 
program currently are under consideration. One of the key changes would 
reinvigorate the States' continuing planning process under Section 
303(e) of the CWA. This section of the Act calls for States to have a 
Continuing Planning Process (CPP), which describes how all the pieces 
of the States' programs, including TMDLs, work together to achieve 
water quality goals. While all States already have some form of CPP, we 
will be encouraging States to enhance their CPP programs. We also are 
encouraging that TMDL implementation be done as part of revitalized 
State continuing planning processes, where States would use their own 
approaches and programs to clean up their waters. We believe that this 
is good government and puts implementation where it ought to be--at the 
State level.
    Maintaining high environmental standards and sustaining a healthy 
economy require that we optimize costs and conserve our natural 
resources. Economic incentives can be an important tool to help meet 
this challenge. We must take advantage of market forces to provide 
incentives for voluntary reductions, emerging technology and greater 
regulatory flexibility.
    Water quality trading, for example, holds great promise as a 
market-based tool for addressing water pollution. Trading is an 
innovative way for water quality agencies and community stakeholders, 
including State and local governments, point source dischargers, 
contributors to non-point source pollution, citizen groups, other 
Federal agencies, and the public at large, to develop common-sense, 
cost-effective solutions for water quality problems in their 
watersheds. Trading is a tool communities can use to grow and prosper 
while retaining their commitment to water quality.
    These are not a random set of improvements. They are all important 
elements of the shift in paradigms that is necessary to make further 
progress in cleaning up America's waters. It is time, not so much for a 
change in course as a shift in focus: from a point source-oriented 
program to a non-point centered one; from relying largely on 
technology-based standards to complementing past progress by a water 
quality-based approach, and from emphasizing inputs to focusing on 
environmental outcomes. These tools I have described are the means to 
make this shift.
Closing The Funding ``Gap''
    Because infrastructure replacement needs largely echo demographic 
trends across the country, communities will be challenged in the coming 
years as they face needs to increase spending to address replacement of 
aging infrastructure built in the 1950-60's, and current demands fueled 
by population growth. Several groups have conducted studies to evaluate 
whether a funding gap will develop between projected investment needs 
and current levels of spending in drinking water and wastewater 
infrastructure over the next 20 years. Reports released by these 
groups, which include the Water Infrastructure Network and 
Congressional Budget Office, have estimated a significant capital 
funding gap.
    Over the past year, in order to gain a better understanding of the 
future challenges for infrastructure to secure clean and safe water, 
EPA has conducted its own Gap Analysis study. The study used results 
from EPA's needs survey, adjusted for under-reporting of capital needs, 
as the starting point for calculating capital and operations and 
maintenance investment needs. We then used several alternative 
assumptions to generate scenarios for estimating the capital and O&M 
gaps. The methods and data used in the analysis were subjected to peer 
review by a diverse panel of external reviewers drawn from academia, 
industry and think tanks. Overall, the reviewers commended EPA for 
making a credible effort to quantify the gap given limitations in 
available data, and made several recommendations for changes which were 
incorporated into revisions of the Analysis.
    The Analysis included two scenarios--a ``no revenue growth'' 
scenario and a ``revenue growth'' scenario. The ``no revenue growth'' 
scenario is useful to understand the extent to which spending might 
need to increase relative to the status quo. This scenario estimates a 
total capital payments gap of $122 billion, or about $6 billion per 
year, for clean water. The clean water O&M gap is estimated at $148 
billion, or $7 billion per year. It is important to recognize that the 
funding gaps would occur only if capital and O&M spending do not 
increase from present levels.
    In reality, increasing needs likely will prompt increased spending 
and thus a smaller funding gap. Thus, if one assumes that spending on 
clean water infrastructure increases at 3 percent annually above the 
rate of inflation--a ``revenue growth'' scenario--the capital gap is 
$21 billion, or about $1 billion per year, and the O&M gap is estimated 
at $10 billion, or $0.5 billion per year. This ``revenue growth'' 
scenario shows the size of the gap if revenue and spending keep pace 
with the long-term growth rate expected for the economy as a whole.
    Moreover, both scenarios look at the supply side of infrastructure 
financing (how to pay for needs) but ignore the demand side (how to 
reduce infrastructure costs and make the most efficient use of our 
capital facilities). Demand side measures adopted by some utilities 
include: asset management and administrative restructuring (including 
consolidation and/ or privatization), which can reduce capital and O&M 
costs; and, rate structures that better reflect the cost of service and 
encourage conservation. However, the Analysis is very important, 
because it presents a dramatic indication of the funding gap that will 
result if we ignore the challenges posed by an aging infrastructure 
network--a significant portion of which is beginning to reach the end 
of its useful design life.
    During the current session, Congress has been paying attention to 
water infrastructure. As we stated in our testimony on S. 1961 earlier 
this year, the Administration does not support the authorization levels 
as they do not reflect the President's priorities of defense and 
homeland security. However, there are elements of the bills that we do 
support, such as new loan conditions tied to utilities' fiscal 
sustainability. At the same time, we continue to state that we want to 
make sure that the conditions operate in ways that are workable for 
loan applicants and States alike, and that the SRFs can continue to 
function to provide the needed kinds of assistance.
    Most infrastructure investment has been, and will continue to be, 
derived from local sources, be they ratepayers or taxpayers. To meet 
these future challenges, we believe our strategy should be fiscally 
responsible and sustainable. While some of the goals and principles we 
have stated are reflected in legislation before Congress, some 
represent actions that can be taken administratively. Thus, EPA will 
convene a forum of stakeholders to address the infrastructure challenge 
in new and innovative ways. Ensuring that our infrastructure needs are 
addressed will require a shared commitment on the part of the Federal, 
State, and local governments, private business, and consumers.
Water Conservation
    While the traditional focus of the EPA and local officials 
responsible for water programs has been on water quality, I maintain 
that both today and in the future, we must pay much closer attention to 
understanding and managing our demands for clean water. Water is truly 
the staple of our existence.
    This summer of drought is harshly reminding many Americans of the 
need to appreciate clean water as the scarce and invaluable resource it 
is. As our population increases, the need for clean water supplies 
continues to grow dramatically and puts additional stress on our 
limited water resources. I truly believe that efficient water use needs 
to be an essential part of our daily lives. The local, State, and 
Tribal officials who are leading the way in our communities in 
implementing water efficiency measures are not only saving water, but 
also are forestalling the need to build new, expensive water and 
wastewater treatment plants. Administrator Christine Todd Whitman has 
recently recognized the critically important work of these officials, 
and asked the American people to join her in accepting the challenge to 
conserve our water.
                               conclusion
    We have made tremendous progress in cleaning up our waters over the 
past three decades--an achievement that is even more remarkable in 
coming alongside substantial increases in our population growth and 
often-dramatic economic growth. As a Nation, we can be proud of how far 
we've come, and of the partnerships among all levels of government, the 
private sector and America's citizens that enabled us to get there. 
Those remarkable achievements should strengthen our resolve to persist 
in facing the tough work still before us, and to continue and enhance 
the cooperation and the working relationships that are essential to 
reach our goal of clean water for everyone, all across the Nation. We 
at EPA appreciate your support and commitment to these vital goals, and 
look forward to blazing a path toward them together.
    This concludes my prepared remarks. I would be happy to address any 
questions you may have at this time.
                                 ______
                                 
         Responses of G. Tracey Mehan to Additional Questions 
                         from Senator Jeffords
    Question 1. Mr. Mehan, as I know you are aware, EPA released its 
annual water quality inventory report. The report tells us what many 
here today will say over and over. We have made progress, but our water 
is still not clean.
    The report states that of those assessed, almost 40 percent of 
rivers, 45 percent of lakes, and more than half of our shorelines are 
still polluted. The report notes that non-point source pollution 
remains the largest cause of pollution in the country.
    Currently, the Section 319 program of the Clean Water Act is the 
principle program to mitigate non-point pollution.
    Is that program, as structured, strong enough to significantly 
reduce non-point source pollution?
    Response. Not only is non-point source pollution (NPS) the largest 
cause of pollution in the country, but its solution presents unique 
challenges that have not been faced, or have been faced only to a 
lesser extent, by other pollution control programs administered by EPA. 
The non-point source pollution program established in Section 319, 
essentially a grant program, provides States the authority to design 
programs to include a balance, as each State sees fit, of regulatory 
programs, technical assistance, financial assistance, education, 
training, technology transfer, and demonstration projects.
    Congressional appropriations for Section 319 were $238 million in 
fiscal year 2002. These funds have enabled States to implement a 
significant number of watershed projects that demonstrate the ability 
to address a broad variety of non-point source problems and thereby to 
improve water quality. EPA guidelines direct that $100 million of these 
funds be focused upon the remediation of impaired waters listed by 
States under Section 303(d) of the Clean Water Act.
    The new Farm Bill enacted by Congress in fiscal year 2002 provides 
a significant addition of funding resources that, if used wisely, can 
help restore a significant number of waterbodies that are currently 
impaired by agricultural sources of NPS pollution. Section 319, along 
with appropriately targeted USDA programs such as the Environmental 
Quality Incentives Program and the Conservation Reserve Enhancement 
Program (a component of the CRP) can make a significant contribution to 
reducing our nation's NPS pollution.

    Question 2. What is EPA doing to ensure that remaining non-point 
source pollution problems are eliminated?
    Response. EPA's fiscal year 2002 and 2003 guidelines direct that 
$100 million of the Section 319 funds be focused upon the remediation 
of impaired waters listed by States under Section 303(d) of the Clean 
Water Act. Additionally in fiscal year 2003, up to 20 percent of the 
funds can be used to develop non-point source (NPS) TMDLs and 
watershed-based plans to implement NPS TMDLs; develop watershed-based 
plans in the absence of or prior to completion of TMDLs; develop 
watershed-based plans that focus on the protection of threatened waters 
or other unimpaired waters; and conduct other NPS monitoring and 
program assessment/development activities.
    States are encouraged to develop watershed-based plans that contain 
nine components that are critical to ensuring that the projects succeed 
in their efforts to restore water quality. These include the 
identification of the pollutants causing water quality impairments; the 
sources of those pollutants; the management measures and practices that 
will be needed to address those sources appropriately; the financial, 
legal, and/or other tools that will be relied upon to assure 
implementation; a process to involve local citizens in helping 
implement the project; and a monitoring and feedback loop, resulting in 
any necessary changes to the project.
    EPA has also significantly improved, and is continuing to, improve 
its accountability system to assure that State progress is tracked. 
Beginning in fiscal year 2002, we have required States to report on the 
pollutant load reductions (for phosphorus, nitrogen, and sediment) that 
are achieved in each project. Moreover, we have created a computer-
based mapping system that enables us to display on a map each waterbody 
that is impaired and to also display the watersheds where States spend 
319 funds; we will thus be able to map the impact that State 319 
implementation has over time on those impaired waterbodies by 
``changing their color'' on the map. We will be working with the States 
to also develop this year a set of rigorous short-term and long-term 
goals that will motivate targeted implementation activities to restore 
water quality.
    In addition to these activities, EPA is working closely with USDA 
to promote the use of Farm Bill funds to address water quality, as 
explained in response to Question 1 above. We believe that effective 
use of Farm Bill funds will be critical to our national efforts to 
eliminate non-point source pollution problems.

    Question 3. The report also underscores the need for EPA to 
implement a strong TMDL program to clean up those water bodies still 
not meeting their designated uses. I understand that EPA is currently 
in the process of revising the TMDL rule developed under President 
Clinton.
    One of the more disturbing revisions in the draft would allow 
States to more easily de-list polluted waters. Another would make EPA's 
responsibility to develop a plan, in cases of State inaction, 
discretionary rather than mandatory. After 30 years, many States have 
produced only a handful of TMDLs, others have not produced a single 
one.
    How can EPA expect the new TMDL program to do a better job than the 
current regulation if EPA is relaxing its standards and reducing EPA's 
oversight role?
    Response. The regulations currently in effect are the regulations 
promulgated in 1985 and amended in 1992. The regulation published on 
July 13, 2000 has never gone into effect. Because of the intense 
controversy generated by the rule, including the congressional spending 
prohibition on funds for fiscal year 2000 and fiscal year 2001 as well 
as legal challenges by a broad array of litigants, EPA has set an 
effective date for the rule of April 30, 2003. The Agency believed that 
this delay would be sufficient to conduct a meaningful consultation 
process, analyze and reconcile the recommendations of the various 
stakeholders and promulgate changes to the currently effective rule, if 
necessary. It also enabled us to review recommendations in a report 
from the National Research Council entitled, ``Assessing the TMDL 
Approach to Water Quality Management,'' which recommends changes to the 
TMDL program.
    After careful review, EPA published a notice in the Federal 
Register on December 27, 2002, proposing to withdraw the 2000 TMDL 
rule. EPA is developing a staff draft of proposed changes to the 
currently effective rule, which EPA hopes will be an improvement over 
the current program that will be less controversial than the 2000 rule 
and have buy-in from most stakeholders. Such buy-in is essential for 
the program to make significant additional process.
    As far as listing and de-listing of waters, our present thinking is 
to offer significant improvement over both the current rule and the 
2000 rule. The approach would require an integrated report on the 
status of all waters in a State with an opportunity for public comment 
on the report. Such an integrated report would allow EPA and the public 
to track both listed and unlisted waters from report period to report 
period. States would be required to use the same science-based criteria 
to add or remove waters from the 303(d) list within the integrated 
report. We would also require States to provide good cause, when asked 
by EPA, for not including waters on the 303(d) list. Further we would 
require the State to develop and get public comment on the methodology 
they intend to use to develop the integrated report.
    Under the current regulations, States have made significant 
progress over the last 2 years. EPA approved 1,779 TMDLs in fiscal year 
1999, 2,162 TMDLs in fiscal year 2000 and 3, 485 TMDLs in fiscal year 
2001. Further TMDL have been approved in nearly all of the States. 
Under the statute, EPA must prepare TMDLs where a State fails to do so, 
and EPA takes this responsibility seriously. However, the statute sets 
no specific timetable for exercising this authority and, based on 
public comment and consultation with States, EPA believes it is 
appropriate to retain flexibility regarding the timing of EPA 
backstopping activities.

    Question 4. When does EPA plan to propose the rule change?
    Response. EPA is still working on a new TMDL rule. No date has been 
established for completion of this work.

    Question 5. Will you rescind the Clinton rule at the same time?
    Response. EPA published a notice in the Federal Register on 
December 27, 2002, proposing to withdraw the July 2000 rule. EPA 
intends to take final action on that proposal before the July 2000's 
effective date of April 30, 2003.

    Question 6. What specific changes does EPA plan to propose?
    Response. The draft rule would improve the listing and assessment 
process, clarify the TMDL submittal and approval process, provide added 
opportunity for stakeholder involvement, clarify TMDL implementation 
through watershed planning, and strengthen the State planning process.

    Question 7. One of the primary goals of the Clean Water Act is to 
eliminate the discharge of raw sewage waste into the nation's waters. 
That goal is also still to be achieved.
    About 40,000 times a year, raw sewage overflows into U.S. rivers, 
lakes, and coastal waters. About 400,000 basement backups of sewage 
pollute America's homes every year, and sewage overflows also spill 
onto streets and even playgrounds. Sanitary sewers are designed to 
carry wastes to sewage treatment plants, but when overloaded, 
inadequately maintained or obstructed, they dump raw sewage into 
waterways. These events are called sanitary sewer overflows (SSOs).
    In January 2001, the Bush Administration blocked proposed 
regulations that would require improved capacity and operation of 
sewage systems and would require that systems notify the public when 
overflows occur. Those proposed regulations were based on the consensus 
recommendations of a Federal Advisory Committee. Now, 20 months since 
January 2001, the EPA still has not proposed this regulation. Why not?
    Response. I share your concern regarding the importance of 
responsibly controlling SSOs. In many of our cities, SSOs are resulting 
in the discharge of raw sewage directly into local waterways, although 
they are already covered by the Clean Water Act and generally 
prohibited as unpermitted discharges. EPA agrees that SSOs continue to 
be an important environmental issue that needs to be addressed. The 
Agency received extensive comments and suggestions in response to its 
January 2001 draft proposed regulations. One point on which there is 
general consensus is that it is not technically possible to eliminate 
all overflows cost-effectively under all circumstances; some are caused 
by events beyond the sewer operator's reasonable control. An on-going 
concern is how best to minimize such overflows and their environmental 
impacts and how to address them when they occur. EPA and States are 
continuing to address SSO problems with compliance assistance and 
enforcement in accordance with the EPA's April 27, 2000, Compliance and 
Enforcement Strategy Addressing Combined Sewer Overflows and Sanitary 
Sewer Overflows.

    Question 8. Does the EPA intend to propose the regulation agreed to 
by the Federal Advisory Committee? If so, when? If not, why not?
    Response. In October 1999, the SSO Federal Advisory Subcommittee 
supported, when taken as a whole and recognizing that they are 
interdependent, basic principles for suggested NPDES permit 
requirements for municipal sanitary sewer collection systems and SSOs. 
EPA reflected the approach discussed with the SSO Subcommittee in its 
January 2001 draft notice of proposed rulemaking. The Agency received 
extensive comments and suggestions in response to this draft. We are 
considering various regulatory options and have not settled upon a 
course of action.

    Question 9. How many people are made ill or die every year because 
of sanitary sewer overflows? How many waterways are polluted by 
overflow events? Is this source of pollution preventable?
    Response. EPA is preparing a Report to Congress that will provide 
the Agency's first national assessment of the impacts of SSOs. The 
Consolidated Appropriations Act for Fiscal Year 2001, P.L. 106-554, 
required EPA to transmit to Congress by December 15, 2003, a report 
summarizing:
    <bullet> The extent of human health and environmental impacts 
caused by combined sewer overflows and SSOs, including the location of 
discharges, the volume of pollutants discharged, and the constituents 
discharged.
    <bullet> The resources spent by municipalities to address these 
impacts.
    <bullet> An evaluation of the technologies used by municipalities 
to address these impacts.
    <bullet> Human health impacts: The Report will rely on recent 
scientific research including studies for the Centers for Disease 
Control and Prevention (CDC) and the World Health Organization. Such 
research, however, generally does not distinguish human illness 
resulting from water-borne pathogens originating in sewage from 
illnesses from other sources. Providing an estimate of the number of 
illnesses caused by SSOs in the U.S. will be exceptionally difficult.
    On August 14, 2002, EPA convened a group of public health experts 
from CDC, academic institutions, and EPA to discuss a methodology for 
quantifying human illness caused by sewer overflows. This group 
concurred with EPA's assessment of the state of information available 
on public health impacts and the complexity of this issue. A summary of 
this meeting will be published later this year and will be available on 
EPA's web site at www.epa.gov/npdes.
    Water bodies polluted: EPA is evaluating the extent of the SSO 
problem in its Economic Analysis for the SSO proposed rule as well as 
the Report to Congress. On an interim basis, the Agency estimates that 
30,000-50,000 SSO events occur each year; these vary dramatically in 
size and potential impact. Not all SSOs are expected to reach waters of 
the United States and cause or contribute to violations of water 
quality standards or human health problems. Very few are expected to 
cause long-term water pollution problems.
    Prevention: The Economic Analysis for the proposed SSO rule will 
assess the percentage of SSOs nationwide that are attributable to 
various causes. EPA currently believes that most SSOs can be prevented 
through improvements to operation and maintenance of collection systems 
or investments to increase the capacity of collection systems. However, 
EPA recognizes that some SSOs are caused by factors beyond the 
operator's reasonable control.

    Question 10. Do sewage operators oppose require public notice of 
sewage overflow events? Does anybody? Why shouldn't this part of the 
proposed rule be adopted immediately?
    Response. Representatives of key municipal stakeholder groups 
participated in the SSO Federal Advisory Subcommittee that supported, 
when taken as a whole and recognizing that they are interdependent, 
basic principles for suggested NPDES permit requirements for municipal 
sanitary sewer collection systems and SSOs. These include public notice 
requirements. These municipal groups continue to support rulemaking for 
SSO requirements, provided EPA invites comment on potential alternative 
regulatory options. However, municipal representatives have indicated 
(based on an April 20, 2002, letter to the Administrator) that they 
oppose any attempt to break up the different parts of the SSO proposal 
and propose them in a piecemeal fashion.

    Question 11. As you are aware, 4 weeks ago this committee 
unanimously passed an amendment allowing communities that are required 
to obtain stormwater permits beginning in March of next year to 
continue to use section 319 funds for stormwater projects and for other 
activities in the same town. I understand that you are in the process 
of making a policy determination on the same issue. What is the status 
of that review?
    Response. The Office of Water and the Office of General Counsel 
have been reviewing the questions of whether and to what extent the 
current statutory scheme authorizes the use of Section 319 funds to 
fund storm water projects that may be covered by the storm water 
regulatory framework implemented under the Clean Water Act's point 
source provisions. We have not finalized our review of this issue nor 
formulated a final policy determination.

    Question 12. Can you provide the committee with a list of all 
lawsuits brought against the EPA involving the 1992 TMDL rule with a 
description of why the suit was brought forward?
    Response. There were no legal challenges to the 1992 TMDL rule 
itself. However, there were a number of lawsuits seeking orders 
compelling EPA to establish TMDLs if the States failed to do so in 
accordance with Section 303(d) and the 1992 rule. The following chart 
provides information on those lawsuits.
                        TMDL Litigation by State
23 states in which epa is under court order or agreed in consent decree 
          to establish tmdls if states do not establish tmdls
Alabama (1998; 5 year schedule)
Alaska (1992; no schedule)
Arkansas (2000; 10 year schedule)
Calif. (LA) (1999; 13 year schedule)
Calif. (North Coast) (1997; 11 year schedule)
Calif. (Newport Bay) (1997; 4 year schedule)
Delaware (1997; 10 year schedule)
District of Columbia (2000; 7 year schedule)
Florida (1999; 13 year schedule)
Georgia (1997; 7\1/2\ year schedule)
Hawaii (partial cd; 2001; 1 year schedule)
Iowa (2001; 9 year schedule)
Kansas (1998; 10 year schedule)
Louisiana (2002; 10 year schedule)
Mississippi (1998; 10 year schedule)
Missouri (2001; 10 year schedule
Montana (2000; 7 year schedule)
Nevada (partial CD; 2002; 2 year schedule)
New Mexico (1997; 20 year schedule)
Oregon (2000; 10 year schedule)
Pennsylvania (1997; 12 year schedule)
Tennessee (2001; 10 year schedule)
Virginia (1999; 12 year schedule)
Washington (1998; 15 year schedule)
West Virginia (1997; 10 year schedule
2 states with respect to which plaintiffs have filed litigation seeking 
                    to compel epa to establish tmdls
Ohio (2001 complaint)
Wyoming (1996 complaint)
  15 states (12 actions) dismissed without orders that epa establish 
      tmdls (some cases were resolved with settlement agreements)
    Arizona (EPA completed all consent decree obligations; decree 
terminated July 17, 2000)
    California (9th Circuit affirmed dismissal, 2002)
    Colorado (Joint Motion for Administrative Closure filed August 24, 
1999; parties signed settlement agreement in which EPA agreed to 
establish TMDLs if State did not) Idaho (EPA Motion to Dismiss granted 
1997; settlement agreement signed 2002)
    Lake Michigan (WI, IL, IN, MI) (Scott case--final order 1984; 
related NWF case challenging EPA actions in response to Scott order--
case dismissed 1991)
    Minnesota (Dismissed 1993)
    Maryland (Dismissed 2001)
    New Jersey (Dismissed 2002)
    New York (EPA Motion to Dismiss granted on all but one claim May 2, 
2000)
    North Carolina (Joint Stipulation of Dismissal filed June 1998; EPA 
agreed by letter to ensure development of a TMDL for the Neuse River by 
date certain) Oklahoma (Tenth Circuit upheld dismissal of case on 
August 29, 2001) South Dakota (Dismissed without prejudice on August 
27, 1999)
                                 ______
                                 
         Responses of G. Tracey Mehan to Additional Questions 
                          from Senator Chafee
    Question 1. The Clean Water Act (CWA) specifies that National 
Pollutant Discharge Elimination System (NPDES) permits may not be 
issued for a term longer than 5 years. What is the current state of the 
NPDES backlog? Is EPA on target to meet its backlog reduction goals?
    Response. Currently, the backlog for NPDES permits is about 17 
percent for major facilities, 26 percent for minor facilities, and 18 
percent for all minor facilities when those covered by non-storm water 
general permits are also considered. While our goal of 10 percent 
backlog for major facilities by the end of fiscal year 2001 has already 
passed, significant progress was made and continues to be made to 
reduce backlog for major permits. Given the rate of permit issuance and 
data clean-up for permits, 10 percent backlog for all permits by the 
end of CY 2004 remains possible.
    EPA and States have made a dedicated effort to reduce permit 
backlog. Some of the specific actions we have taken to help reduce 
permit backlog include:
    <bullet> issuing national guidance to ensure the issuance of timely 
and high quality NPDES permits
    <bullet> teaching six training courses each year for approximately 
350 EPA and State permit writers. We are currently developing advanced 
permit writer and train-the-trainer courses.
    <bullet> conducting an ongoing data quality assurance review 
program, eliminating 18,000 old records from PCS, thereby improving the 
accuracy of the data.
    <bullet> developing and distributing permit quality management 
tools to the Regions and States to help improve permit quality and 
timeliness.
    <bullet> developing and distributing electronic permit application 
and permit writing tools.
    While EPA and States have made significant progress toward reducing 
the NPDES permit backlog, it is imperative to ensure that EPA and the 
State resources are focused on reviewing and reissuing those permits 
with the greatest potential for environmental benefit. To this end, our 
office has initiated an effort to characterize the universe of NPDES 
permits, and the associated backlog, with respect to several indicators 
of their potential environmental impact. We are currently comparing 
backlogged permits for dischargers near impaired waters, and based on 
previous analysis believe it will be about 50 percent. We are also 
looking to compare which ones are near drinking water supplies. The 
results of that characterization will be used, on an ongoing basis, to 
establish priorities and measure program progress toward addressing the 
most environmentally significant permits. As these data become 
available in the future, we will be happy to share the results of our 
analyses.

    Question 2. How will EPA's new Watershed Grants Program build upon 
the ongoing work of local governments and community organizations 
across the country to restore watershed resources?
    Response. The goal of the Watershed Initiative is to advance the 
success of partnerships and coalitions that have undertaken the 
necessary steps and have developed a technically sound watershed plan 
that is ready to be carried out. Experience has shown us that strong 
partnerships and well laid plans lead to positive environmental 
results. If it receives congressional funding, the Administration's new 
Watershed Initiative will focus on successful partnerships--
partnerships that have proven working relationships and established 
track records. Watershed plans that incorporate a wide variety of 
partnerships will be favored.

    Question 3. Beginning in March 2003, the Phase II Storm Water 
Program will require States to develop and implement management plans 
to address storm water runoff. I understand that EPA's Office of 
General Counsel (OGC) is currently reviewing whether States may 
continue to use Section 319 funds for Phase II Storm Water Program 
activities and, more generally, in Phase II geographic jurisdictions. 
What is the status of OGC's review with regard to the use of Section 
319 funds for addressing storm water and urban water quality concerns?
    Response. The Office of Water and the Office of General Counsel 
have been reviewing the questions of whether and to what extent the 
current statutory scheme authorizes the use of Section 319 funds to 
fund storm water projects that may be covered by the storm water 
regulatory framework implemented under the Clean Water Act's point 
source provisions. We have not finalized our review of this issue.
                                 ______
                                 
         Responses of G. Tracey Mehan to Additional Questions 
                         from Senator Voinovich
    Question 1. On August 27, 2002, the Effluent Guidelines Program 
Plan was published in the Federal Register. The Plan gives a brief 
update on the status of EPA's draft ``Strategy for National Clean Water 
Act Regulations'' and invites the public to identify existing 
regulations that EPA should consider revising. What is the ``Strategy 
for National Clean Water Act Regulations'' and what do you hope to 
achieve as a result of this effort?
    Response. The draft ``Strategy for National Clean Water Industrial 
Regulations'' outlines a process that EPA proposes to use for future 
decisions regarding effluent guidelines. A documented and systematic 
process will help EPA identify existing effluent guidelines the Agency 
should consider revising and also identify industrial categories for 
which the Agency should consider developing new effluent guidelines. 
The Strategy will provide a framework for good decisions regarding 
resource allocation and the need to develop new regulations and will 
assist EPA in carrying out its obligation under the Clean Water Act to 
revise effluent guidelines as appropriate. The Strategy offers EPA and 
interested stakeholders an excellent opportunity to evaluate the 
existing program and to consider how national industrial regulations 
can best support the national clean water program.
    Two overarching goals guided the development of the draft Strategy: 
reducing risk to human health and the environment, and assuring 
transparent decisionmaking. EPA hopes the Strategy will increase 
understanding of the planning process, and broaden public participation 
in decisions about how technology-based regulations can best meet the 
needs of the national clean water program. EPA is also looking for ways 
that the Strategy can help spur the development of innovative 
technologies, promote multi-media pollution prevention, and expand the 
use of market-based incentives to improve the quality of our nation's 
waters.
    On November 29, EPA published a notice of availability of the draft 
``Strategy for National Clean Water Industrial Regulations'' and 
announced a public meeting scheduled for January 15. Comments on the 
draft strategy are due by February 27, 2003. In addition, the 
Industrial Wastewater and Best Available Treatment Technology 
Conference will be held February 26-28, 2003.

    Question 2. The SRF program has been a successful funding source 
for communities seeking to upgrade their water infrastructure. While I 
agree with your statement that ``because of the revolving nature of the 
funds, dollars invested in the SRFs provide about four times the 
purchasing power over 20 years compared to what would occur if the 
funds were distributed directly to municipalities as grants,'' I 
continue to believe that grant programs should be available to help 
communities that may not be able to afford low-interest loans. Do you 
believe funding for grant programs, such as the sewer overflow control 
grant program, should be included in the President's budget and 
appropriated by Congress?
    Response. We do not believe that new grant programs should be 
included in the President's budget and appropriated by Congress.

    Question 3. In August, I conducted a field hearing on the problem 
of oxygen depletion in the central basin of Lake Erie. One of the 
possible causes of oxygen depletion may be aquatic nuisance species 
such as the zebra or quagga mussels. What is EPA doing to assess the 
impact aquatic nuisance species are having on water quality? What can 
be done at the Federal and State level to prevent the introduction and 
spread of aquatic nuisance species?
    Response. The U.S. EPA, Great Lakes National Program Office, 
through its Lake Erie Supplemental Study, is investigating several 
aspects of aquatic nuisance species' impacts on water quality. Some of 
the more important aspects of the research deal with assessing mussel 
abundance, and measuring how zebra and quagga mussels affect the 
environment through their feeding, and excretion of nutrients 
(especially phosphorus and nitrogen). The work of assessing the lake-
wide abundance of zebra and quagga mussels began during the summer of 
2002, and will continue into 2003. Researchers have started to measure 
the important zebra and quagga mussel nutrient cycling rates as part of 
the study. Efforts are also underway to determine the role of another 
aquatic nuisance species, the round goby, in water quality changes. Our 
aim is to be able to use this new information to revise historically 
proven models of Lake Erie's ecosystem. This will help us understand 
how aquatic nuisance species, and changes in, for example, water level 
and water temperature, are affecting Lake Erie's water quality. Results 
of the 2002 fieldwork are due from the investigators by early summer 
2003 and will be reported widely within the basin.
    Preventing the introduction and controlling the spread of aquatic 
nuisance species is an important component of any invasive species 
management plan. In the Great Lakes, ballast water is the most 
significant vector for the introduction of aquatic invasive species. 
Federal and State agencies have been very active in the development and 
testing of ballast water treatment technologies. The Coast Guard, NOAA, 
and EPA on the Federal side and the State of Michigan have all 
supported projects focusing on ballast water treatment. Specific 
technologies currently being examined and tested include: filtration; 
hydrocylone separation; ultra-violet light; ozone; and biocides, among 
others. There is also a significant amount of effort underway to 
examine the impacts of ships entering the Great Lakes claiming No 
Ballast on Board (NOBOB). A joint Coast Guard, NOAA, EPA study is 
currently underway examining the risk posed from these NOBOB vessels.
    Additionally, the Office of Water is supporting the US Coast 
Guard's efforts to develop new ballast water regulations by conducting 
environmental assessments and economic analyses. The Coast Guard is 
currently finalizing a proposed rule that would require reporting on 
ballast water management practices by all ships entering U.S. waters. 
The data gathered from this reporting will in turn help to support 
further regulations, with the goal of establishing effective, 
achievable standards for the release of organisms from ballast water 
discharges. The Office of Water is currently working on environmental 
analyses to support ballast water management and treatment standards 
regulations.

    Question 4. In your testimony, in reference to S. 1961, you state 
that the Administration wants to make sure that loan conditions 
``operate in ways that are workable for loan applicants and States 
alike, and that the SRFs can continue to function to provide the needed 
kinds of assistance.'' You also state that ``While some of the goals 
and principles . . . are reflected in the legislation before Congress, 
some represent actions that can be taken administratively.'' As you may 
know, I have taken an active interest in S. 1961 and many stakeholders 
are ``up in arms'' about the prescript-
iveness of the bill. What changes would you recommend to the bill to 
address these concerns?
    Response. As has been stated in previous testimony, the 
Administration supports the objectives behind the loan conditions that 
are in accordance with basic principles guiding our infrastructure 
revitalization efforts. Provisions dealing with such areas as long-term 
technical, financial, and managerial capacity; asset management 
planning; rate structures that reflect cost of service and capital 
replacement costs; and consolidation, partnerships or alternative 
nonstructural approaches, are among the most important innovations in 
the legislation. Of course, framing these provisions and others in the 
bill in a workable and flexible manner is important to ensuring the 
continuous high level of effectiveness of the SRF program. We want to 
work with the Congress and the States in finding ways to create the 
necessary incentives that move us in this direction.
                               __________
   Statement of Thomas A. Weber, Associate Chief, Natural Resources 
          Conservation Service, U.S. Department of Agriculture
    Mr. Chairman and Members of the Committee, I am pleased to appear 
before you today to present the Department of Agriculture's perspective 
on the Clean Water Act and the celebration of the 30th Anniversary of 
this historic Act. I thank the members of the committee for the 
opportunity to appear, and I would like to express gratitude to the 
chairman and members of this body for your interest in USDA's roles in 
improving water quality.
    The 30th Anniversary of the Clean Water Act is cause for 
celebration about the improvements that have been made in the quality 
of our Nation's waters. At USDA, we are celebrating this event along 
with our many partners at the Federal, State, Tribal, and local 
levels--including our non-governmental partners, farmers, ranchers, and 
woodlot owners. And as we celebrate the past 30 years, we are also 
reflecting on USDA's natural resource conservation heritage, and upon 
the significant work ahead of us as we enter this new century.
                        a historical perspective
    The People's Department, as Abraham Lincoln referred to USDA, has 
played a key role in the management of nonpoint sources of pollution 
for nearly a century, long before the word nonpoint was part of our 
vocabulary. In 1905, President Theodore Roosevelt named Gifford Pinchot 
the Chief Forester of the redefined U.S. Forest Service and signed the 
Act transferring the Nation's Forest Reserves from the Department of 
the Interior to the Department of Agriculture. This Act gave USDA its 
first authority to protect forestlands and the water resources they 
produce. Pinchot, Roosevelt, and their contemporaries believed in the 
wise use and management of all the Earth's natural resources, and began 
a nationwide Conservation Movement.
    In the early 1900's, the Department was conducting soil surveys, 
identifying ``rough gullied land'' and the resulting sediment that made 
its way to nearby creeks, streams, and rivers. In the 1920's, Hugh 
Hammond Bennett, a USDA soil scientist who later became the first Chief 
of my Agency, drew upon his observations about soil erosion's impacts 
on agriculture. He was evangelistic in delivering his message on 
natural resource conservation and his writings and speeches were 
sprinkled with admonitions about the ``evil of erosion'', how 
``rainwater running wild'' would result from poor land management, and 
other interesting phrases. Concerning water pollution from sediment and 
nutrients, Bennett made note of ``the waste material marching down to 
the Gulf of Mexico.''
    In the 1920's and 1930's, Congress responded to natural resource 
degradation in many ways. Congress authorized the formation of soil 
conservation experiment stations; it created the Civilian Conservation 
Corps and the Federal Emergency Relief Administration, marking the 
beginning of public-sector erosion control assistance on private 
agricultural land; it formed the Soil Erosion Service, later named the 
Soil Conservation Service; and it established controls for livestock on 
public lands that began to prevent overgrazing and soil deterioration. 
Many of these new initiatives were responses to the devastation caused 
by poor land management during a period of terrible droughts--commonly 
called the ``Dust Bowl.'' Other water resource protection authorities 
were established for USDA in the 1950's and 1960's.
                  clean water act brings new emphasis
    When the Clean Water Act was passed in 1972, it triggered a new 
national emphasis on the problems created by poor land and water 
management practices. Congress appropriately recognized the differences 
between point and nonpoint sources of pollution, and it established 
differing approaches to solving these distinct problems. New emphasis 
on water quality concerns also occurred at USDA and it has been of 
critical importance to our natural resource conservation work ever 
since. USDA's agencies that work on natural resource issues--including 
the Natural Resources Conservation Service, Forest Service, Farm 
Service Agency, Agricultural Research Service, the Cooperative State 
Research, Education, and Extension Service, and Economic Research 
Service--have emphasized water quality issues related to agricultural 
and forest land management in their program delivery, research, 
education, and extension efforts.
    These efforts, performed in partnership with local soil and water 
conservation districts, State and Federal conservation and natural 
resource agencies, and owners and operators of the land, have been 
instrumental in protecting our soil and water resources. For instance, 
we are presently experiencing another major drought--the most 
significant drought since the Dust Bowl days. While the drought has 
resulted in decreased crop and forage production and imposed financial 
losses on farmers and ranchers, there is little threat of widespread 
natural resource degradation as experienced during the Dust Bowl. The 
poor land management practices of the 1930's have been replaced by and 
large with sound soil erosion reduction practices of today, such as 
conservation tillage, crop residue management, terraces, and 
conservation buffers. On working cropland and Conservation Reserve 
Program land, soil erosion caused by wind and water has been cut by 38 
percent since 1982. Less erosion means cleaner water, improved fish and 
wildlife habitat, and more fertile soils. On the subject of 
conservation buffers, since 1997, over 1.2 million miles of 
conservation buffers (about 4 million acres) have been established 
nationally on farms and ranches to protect water resources and 
establish wildlife habitat. Locally in the Chesapeake Bay watershed, 
the goal of establishing 2,010 miles of conservation buffers by the 
year 2010 will be completed this year--eight years ahead of the target!
                       21st century opportunities
    Last September, Secretary Veneman released Food and Agriculture 
Policy: Taking Stock for the New Century. This document provided 
guidance on future agriculture policy, and identified emerging 
challenges facing farmers and ranchers across the Nation. A key 
component dealt with the environment and natural resources, and 
highlighted policy options for meeting a breadth of conservation 
challenges including water quality and quantity. A central aspect of 
the conservation portion of that document was the proposition that 
market-based solutions should be developed and implemented as a means 
to achieve conservation goals. The document also pointed out that 
farmers and ranchers need voluntary conservation opportunities 
commensurate with the regulatory challenges they face.
    Congress responded this year with the 2002 Farm Bill that provides 
for significant program authorities and funding levels to sustain past 
environmental gains, accommodate new and emerging environmental 
concerns, and to adopt a portfolio approach to conservation policies 
and programs. Secretary Veneman, in recent testimony before the Senate 
Committee on Agriculture, Nutrition, and Forestry, stated that ``We are 
pleased with the strong conservation programs contained in the Farm 
Bill. The changes in the conservation policy support this 
Administration's commitment to a voluntary approach and provide the 
Nation's producers with a comprehensive portfolio of conservation 
options including cost-share, incentive, land retirement, and easement 
programs.''
    For example, two provisions of the Farm Bill will substantially 
strengthen conservation efforts which complement Clean Water Act goals 
and objectives. Under the 2002 Farm Bill, funding for the Environmental 
Quality Incentives Program (EQIP) is increased to more than six times 
previously authorized levels. As a result, USDA will be able to 
implement a greater number of important conservation projects such as 
nutrient management and sediment control on an accelerated basis. In 
the area of wetlands, the popular Wetlands Reserve Program (WRP) was 
authorized by the 2002 Farm Bill for restoration and protection of an 
additional 1.25 million acres. This is a total land area roughly the 
size of the State of Delaware. Without question, the opportunities 
presented in the Farm Bill will lend greatly toward reduction of 
nutrients and sediments in water bodies as well as reversing wetland 
conversion on a national scale. The increased conservation funding may 
address natural resource priorities, such as impaired waterways or 
critical watersheds, allowing USDA to help advance many of the Clean 
Water Act's objectives.
                     year of clean water activities
    In this Year of Clean Water, America's Clean Water Foundation has 
coordinated a series of national events to focus public attention on 
the importance of clean water. USDA has participated in the planning of 
these events along with many other co-sponsors. USDA's agencies have 
also conducted their own activities throughout the year to help 
publicize and inform the public of clean water benefits. We want to 
publicly applaud the efforts of America's Clean Water Foundation and 
its President, Roberta Savage, for her tremendous job of conceiving and 
coordinating these many activities. We are pleased to have been a part 
of this celebration and we look forward to our involvement in this 
month's events.
                                closing
    In closing, allow me to provide you with an observation by Aldo 
Leopold, the internationally respected scientist and conservationist 
who served for 19 years in the U.S. Forest Service (1909-1928) and 
later served on the faculty of the Department of Agricultural Economics 
at the University of Wisconsin. As you may know, Leopold espoused the 
notion of a land ethic and he said this:

          ``We shall never achieve harmony with land, any more than we 
        shall achieve absolute justice or liberty for people. In these 
        higher aspirations the important thing is not to achieve, but 
        to strive.''

    Regarding the Clean Water Act and its 30th Anniversary Celebration, 
I believe Aldo Leopold would suggest that we must continue striving to 
achieve the higher aspiration of our clean water goals and to continue 
to help the public adopt a sound land ethic.
    Thank you again, Mr. Chairman and members of the committee, for 
inviting USDA to participate in today's hearing. I would be pleased to 
respond to your questions.
 Statement of Robert F. Kennedy, Jr., Natural Resources Defense Council
                        clean water under attack
    Mr. Chairman and members of the committee. It is an honor to 
testify before you today on the anniversary of the passage of the Clean 
Water Act of 1972. I am Bobby Kennedy and am testifying this morning on 
behalf of the Natural Resources Defense Council, the Waterkeeper 
Alliance, and the Clean Water Network. NRDC is a national environmental 
group that has a long history of working to protect our nation's waters 
through the Clean Water Act. Waterkeeper Alliance is a grassroots 
organization dedicated to preserving and protecting your waters from 
polluters. The Clean Water Network is a coalition of more than 1,000 
groups supporting clean water from around the country.
    Our nation is at a crossroads in its efforts to address water 
pollution, much as we were at a crossroads on Oct. 18, 1972 when the 
U.S Congress decided to override the veto of a then very popular 
president in order to protect the waters of the United States. Today, 
that law, the Clean Water Act, has been in place for exactly 30 years 
and has been the model for every subsequent environmental law. But the 
Clean Water Act is not just a model of an excellent environmental 
statute, its results have been demonstrated in improved water quality 
in rivers, lakes, and coastal waters across this country. It is ironic 
that we are celebrating the successes of the Clean Water Act today 
because at the same time we are trumpeting its environmental 
achievements, the Bush Administration is taking away the tools that 
made it successful. The Bush Administration is proposing or has already 
weakened requirements for treating raw sewage, cleaning up impaired 
waters, keeping solid wastes out of waters, protecting wetlands, and 
even for defining those rivers, lakes, wetlands, and other waters that 
are eligible for Federal protection at all. As it was in 1972, the 
course is clear. Our nation cannot afford to let our most precious 
resource--our waters--become increasingly polluted and dangerous. We 
need to reject the Bush Administration rollbacks and move ahead with 
the work of cleaning up our waterways.
             our nation's waters before the clean water act
    ``[T]oday, the rivers of this country serve as little more than 
sewers to the seas. Wastes from cities and towns, from farms and 
forests, from mining and manufacturing, foul the streams, poison the 
estuaries, threaten the life of the ocean depths.'' These are the words 
uttered by Senator Edmund Muskie on November 2, 1971, during his 
introduction of the bill that would become the Federal Clean Water 
Act.\1\ More than a generation has passed since passage of the Act, but 
it is important for those of you who remember what our waters used to 
be to pass on that knowledge to your children and grandchildren.
---------------------------------------------------------------------------
    \1\ U.S. Government Printing Office, A Legislative History of the 
Water Pollution Control Act Amendments of 1972, 1253 (1973).
---------------------------------------------------------------------------
    Before the passage of the Clean Water Act in 1972, clean water 
appeared headed for extinction.\2\
---------------------------------------------------------------------------
    \2\ R. Adler, et al, The Clean Water Act: 20 Years Later (1993).
---------------------------------------------------------------------------
    <bullet> In March of 1969 there was a blowout at a Union Oil 
Company located off the coast of Santa Barbara, California. This 
incident resulted in a release of gallons of oil blanketing more than 
400 square miles of water with a six-inch thick layer of crude oil, and 
covering at least 30 miles of beach. Thousands of sea birds died and 
almost all of the fishing in the area was wiped out for several 
weeks;\3\
---------------------------------------------------------------------------
    \3\ M. Graham, The Morning After Earth Day: Practical Environmental 
Politics. pp. 27-28. 1999; http://brooklings.nap.edu/books/081573235X/
html/index.html.
---------------------------------------------------------------------------
    <bullet> There were record fish kills, including 26 million fish 
killed in Lake Thonotosassa, Florida;
    <bullet> The annual commercial harvest of shrimp had dropped from 
more than 6.3 million pounds before 1936 to only 10,000 pounds in 1965;
    <bullet> Industrial discharges of mercury into the Detroit River 
were at a rate of between 10 and 20 pounds per day, causing in-stream 
water quality to exceed by six times the Public Health Service limit 
for mercury;\4\
---------------------------------------------------------------------------
    \4\ 2 Congressional Research Service, Legislative History of the 
Water Pollution Control Act of 1972 at 1253 (1973).
---------------------------------------------------------------------------
    <bullet> In the 1970's most raw sewage was dumped into our rivers 
and lakes. At that time only 85 million people were served by any kind 
of sewage treatment plant.\5\
---------------------------------------------------------------------------
    \5\ Congressional Research Service. Oceans & Coastal Resources: A 
Briefing Book, Congressional Research Service Report 97-588 ENR. http:/
/www.cnie.org/nle/crsreports/briefing books/oceans/appendb3.cfm;http://
www.mtholyoke.edu/offices/comm/oped/browner.shtml.
---------------------------------------------------------------------------
    <bullet> Less than 10 percent of U.S. watersheds were characterized 
as unpolluted or even moderately polluted; and, utterly shocking,
    <bullet> The Cuyahoga River in Cleveland, Ohio, burst into flames 
in June 1969 fueled by oil and other industrial wastes.
                  congress passes the clean water act
    The resulting public outrage from these and other terrible 
incidents of pollution led to the Clean Water Act and paved the way for 
subsequent legislation. With overwhelming bipartisan margins in both 
houses of Congress, the Clean Water Act was passed over an initial veto 
by President Richard M. Nixon on October 18, 1972. In warning the 
representatives of the dangers of failing to override the President's 
veto, Representative Thomas ``Tip'' O'Neill from Boston stated, 
``Should we fail to act, future generations of Americans living with 
dirty, unsafe rivers and lakes would know where to squarely fix the 
blame with the Congress that refused to override the groundless 
objections of the President.'' \6\
---------------------------------------------------------------------------
    \6\ 92 Cong. House Debates 1972, FWPC72 Leg. Hist. 15, LEXIS CIS 
Legislative Histories SourceFile.
---------------------------------------------------------------------------
         clean water act begins to protect our nation's waters
    The Clean Water Act is commonly viewed as one of the most 
successful environmental laws in America. In many ways, the Act truly 
did turn the tide on water pollution. We drastically reduced the 
percentage of our waters deemed unsafe for fishing and swimming, 
invested billions in sewage treatment plants and other technologies, 
and cut the rate of wetlands loss by three-fourths.
    It has been estimated that, in 1972, 60-70 percent of America's 
lakes, rivers and coastal waters were not safe for fishing and 
swimming.\7\ According to the most recent Clean Water Quality Report to 
Congress, those numbers have dropped to 39 percent for rivers, 45 
percent for lakes, and 51 percent for estuaries.\8\ Those numbers are 
still far too high, but without stringent regulation we will be back to 
1972 statistics.
---------------------------------------------------------------------------
    \7\ M. Kremer, Clean Water Act 30th Anniversary, 
www.surfrider.org.tempurl.com/makingwaves/makingwaves18-1/11.pdf
    \8\ U.S. EPA, National Water Quality Inventory: 2000 Report, Fact 
Sheet (Sept. 30, 2002), www.epa.gov/305b/2000report.
---------------------------------------------------------------------------
    The present state of many of our lakes and rivers, when compared to 
their conditions in 1972, illustrates the Clean Water Act's 
effectiveness. For example, Lake Erie was proclaimed dead in 1970. The 
pollution had reached such high levels in Erie and other waterways in 
the Great Lakes system that it led to a ban on fishing in certain parts 
of the system. Now, 30 years after the passage of the Clean Water Act, 
the fish population of Lake Erie has improved significantly--and the 
numbers of fish--particularly walleye and bass have increased.\9\
---------------------------------------------------------------------------
    \9\ From the website of the Joyce Foundation, Cleaning Up Lake 
Erie, www.joycefdn.org/articles/enviroarticles/9801cleaning.htm (Oct. 
3, 2002).
---------------------------------------------------------------------------
    The Hudson River has seen dramatic recovery since the 1960's. Back 
then, the River was considered an open sewer. Today, it is the only 
large river in the North Atlantic that retains strong spawning stocks 
of its entire collection of historical migratory species. These fish 
support recreational and commercial fisheries along the Atlantic coast 
worth hundreds of millions of dollars.\10\
---------------------------------------------------------------------------
    \10\ From the website of the Hudson Riverkeeper; 
www.riverkeeper.org (Oct. 3, 2002).
---------------------------------------------------------------------------
    During the 1960's and 1970's wastewater and industrial plants were 
discharging large amounts of harmful pollutants and nitrogen into Tampa 
Bay. The pollution damaged the bottom sediment and killed many 
organisms essential to a healthy ecosystem. Since then, thousands of 
acres of sea grass on the Bay floor have been recovered. An estimated 
15 hundred acres of marsh and mangrove habitats have been restored, 
including 250 acres of tidal marshes that are critically important for 
fish.\11\
---------------------------------------------------------------------------
    \11\ http://clinton3.nara.gov/CEO/earthday/ch12.html.
---------------------------------------------------------------------------
    Dramatic improvement in water quality is readily apparent in Boston 
Harbor. In the 1970's sludge was regularly dumped into it and the 
ecosystem was on the verge of biological death. Now, seals and 
porpoises swim off South Boston's Castle Island, lobsters are routinely 
caught and tourists can even take cruises through it.\12\
---------------------------------------------------------------------------
    \12\ http://www.massnews.com/past--issues/other/envnews.html.
---------------------------------------------------------------------------
                    water pollution challenges ahead
    While overall water pollution levels have decreased dramatically 
over the past 30 years, recent data show a more troubling story. EPA 
just released its biennial survey of the quality of the nation's 
assessed waters, which shows for the first time since the passage of 
the Clean Water Act that water pollution levels are on the rise.\13\ 
Worsening conditions are especially apparent for estuaries--13 percent 
more of which are too polluted to support their uses than just 4 years 
ago. Impairment of estuaries has profound ramifications for the 
environment and for the economy since they are nursery areas for many 
commercial and recreational fish species and most shellfish 
populations, including shrimp, oysters, clams, crabs and scallops.\14\
---------------------------------------------------------------------------
    \13\ U.S. EPA, National Water Quality Inventory: 2000 Report, T. 
Watson, ``EPA Report Shows Water Quality May Be Stagnating,'' USA Today 
at 5A (Oct. 6, 2002).
    \14\ U.S. EPA, National Water Quality Inventory: 2000 Report at 25.
---------------------------------------------------------------------------
    The number of beach closings and advisories is also increasing. In 
its annual beach report, Testing the Waters, NRDC found the number of 
beach closings and advisories has increased in 2001 by 19 percent over 
the previous year: 13,410 in 2001 compared with 11,270 in 2000.\15\ 
Nationally, beach closings and advisories have increased from 2000 in 
1991 to more than 13,000 in 2001--more than six times as many closures 
and advisories than just 10 years ago.\16\ While much of that increase 
is due to better monitoring of beach water quality, that monitoring has 
increasingly found unsafe water quality conditions at our nation's 
beaches.
---------------------------------------------------------------------------
    \15\ S. Chasis and M. Dorfman, Testing the Waters at v (July 2002).
    \16\ Id.
---------------------------------------------------------------------------
    Overall, 44 percent of U.S. estuarine waters are degraded, 
according to the first National Coastal Condition report, released this 
past spring by EPA, NOAA, USGS and the U.S. Fish and Wildlife 
Service.\17\ The report also found that the overall score for eutrophic 
condition of estuarine waters is poor and increasing throughout much of 
the United States.\18\ Eutrophic conditions result from excessive 
nutrients in the waterbody and is usually expressed in overproducton of 
algae. Eutrophication depletes the water body of oxygen, making it 
unsuitable to support fish and other aquatic wildlife, and it kills 
submerged aquatic vegetation.\19\ The National Coastal Condition report 
projected that eutrophic conditions would worsen for 70 percent of U.S. 
estuaries by 2020.\20\
---------------------------------------------------------------------------
    \17\ U.S. EPA, National Coastal Condition Report xvi (printed 
September 2001) (released April 2002) http://www.epa.gov/owow/oceans/
nccr/index.html.
    \18\ Id. at xx.
    \19\ Id. at 10.
    \20\ Id. at 36.
---------------------------------------------------------------------------
    Between 1993 and 2000 the percentage of the nations lake acres and 
river miles under fish consumption advisories has increased 
steadily.\21\ River miles under advisory have increased from 2 percent 
in 1993 to 14 percent last year. Lake acres under advisory have 
increased from 8 percent in 1993 to 28 percent last year. Twenty-eight 
States currently have statewide advisories. One hundred percent of the 
Great Lakes and their connecting waters are under advisory. As of 2001, 
only one State in the country has no fish consumption advisories in 
place.\22\ There are fish consumption advisories for 71 percent of the 
coastline in the contiguous 48 States and for 82 percent of estuarine 
square miles.\23\ A fish advisory warns the public that high levels of 
chemical contaminants have been found in local fish and shellfish and 
that eating the fish, especially in significant quantities, may not be 
safe.\24\
---------------------------------------------------------------------------
    \21\ www.epa.gov/waterscience/fish/advisories/factsheet.pdf.
    \22\ Id.
    \23\ Id. at xxii.
    \24\ Id. at 14.
---------------------------------------------------------------------------
    The U.S. Commission on Ocean Policy, now halfway through an 18-
month study, found that around 40,000 acres of coastal wetlands which 
provide spawning, feeding and nursery areas for three-fourths of U.S. 
commercial fish catches are disappearing each year.\25\
---------------------------------------------------------------------------
    \25\ J. Heilprin, Panel Finds U.S. Coastal Waters in Trouble. 
Associated Press, www.nrdc.org/news/newsDetails.asp?nID=769.
---------------------------------------------------------------------------
         clean water act's effectiveness in cleaning our waters
    While the Clean Water Act has been one of the most successful 
environmental laws ever, it has not yet been fully implemented or 
enforced.\26\ It also does not adequately address all sources of water 
pollution, especially polluted runoff, which remains the largest source 
of water pollution in the Nation.\27\ We need full implementation and 
enforcement of all CWA provisions and strengthening of those provisions 
that are not doing the job of protecting our waterways.
---------------------------------------------------------------------------
    \26\ U.S. Public Interest Group, Permit to Pollute: How the 
Government's Lax Enforcement Of The Clean Water Act Is Poisioning Our 
Waters (Aug. 6, 2002); http://uspirg.org; U.S. EPA, Office of the 
Inspector General, Water Report: State Enforcement of Clean Water Act 
Dischargers Can Be More Effective, ES i-iv (Aug. 2001).
    \27\ U.S. EPA, 2000 National Water Quality Inventory Report, 
Executive Summary at 3, http://www.epa.gov./305b/2000report.
---------------------------------------------------------------------------
    A key element to the successes achieved to date is that, when it 
passed the Clean Water Act, Congress adopted a combination of 
techniques to revive the nation's waters:
    <bullet> Protecting a broad range of water resources against 
despoiling or destruction. This protection applies broadly to rivers, 
lakes, coastal waters and wetlands.
    <bullet> Protecting waters from industrial pollution by setting 
minimum technology-based standards for wastewater treatment that would 
become increasingly stringent over time.
    <bullet> Ensuring that waters will be clean and safe to use by 
determining uses, such as recreation, aquatic habitat, and drinking 
water, and setting limits on pollutant discharges designed to meet 
those uses.
    <bullet> Building municipal wastewater treatment plants to provide 
secondary treatment for all sewage.
    <bullet> Requiring all discrete dischargers of pollutants (i.e., 
point sources) to obtain individual, tailored permits that clearly 
specify the discharge requirements necessary to prevent degradation of 
its receiving waters.
    <bullet> Requiring States to identify all waters that are too 
polluted to be used safely, to determine how much pollutant loads need 
to be reduced to clean up those waters, and then to implement a cleanup 
plan.
    Thus, most of the tools needed to effectively clean the nation's 
waters and were crafted by Congress 30 years ago. If these provisions 
are fully implemented as stated in this visionary Act, our nation could 
achieve the law's now long overdue goals of making all waters safe for 
fishing and swimming and ending the discharge of pollutants into 
waters.
    We must fight to maintain adherence to these techniques and to 
continue to strive for achieving the goals of the Clean Water Act that 
Congress envisioned in 1972.
           bush administration attacks on the clean water act
    Unfortunately, each one of these core concepts is under attack by 
the Bush Administration. In each case, the industry or industries that 
are required to reduce their water pollution discharges have been 
lobbying the Bush Administration to reduce protection for the 
environment. They have already been successful in derailing a number of 
clean water advances, broadening loopholes, and legalizing previously 
prohibited destructive practices. The rules and policies of the Bush 
Administration are rapidly undoing 30 years of progress and undermining 
the billions of dollars our country has invested in the effort to clean 
the waters.
Authorizing Raw Sewage Discharges
    We did not have to wait long for the Bush Administration attacks on 
clean water to begin. The first attack came on Inauguration Day when 
President Bush's Chief of Staff announced an immediate moratorium on 
all recently adopted regulations. A proposed regulation to control raw 
sewage discharges and to require the public to be notified when 
overflows occur was withdrawn for further review by EPA. More than a 
year and a half later, EPA is still reviewing it and considering 
alternatives to that proposal that would authorize permanent discharges 
of raw and inadequately treated sewage.
    Each year the U.S. experiences about 40,000 overflows of raw sewage 
and garbage--such as syringes, toxic industrial waste, and contaminated 
stormwater--into its rivers, lakes, and coastal waters. And each year 
about 400,000 sewage backups pollute the basements of America's homes. 
These overflows expose communities to a host of deadly diseases and 
could be a particularly virulent means of transmission for a waterborne 
bioterrorist threat.\28\ EPA has estimated that between 1.8 and 3.5 
million Americans become sick every year just from swimming in waters 
contaminated by sanitary sewer overflows.\29\ Researchers from the 
Centers for Disease Control (CDC) have estimated that as many as 
940,000 Americans become ill and 900 die from waterborne infections 
each year, many of which are caused by discharges of raw or 
inadequately treated sewage.\30\ These overflows contaminate drinking 
water and cause beach closings, fish kills, shellfish bed closures, and 
gastrointestinal and respiratory illnesses. Sewage-infested waters pose 
the greatest threat for children, the elderly, and those with weakened 
immune systems.\31\
---------------------------------------------------------------------------
    \28\ Id.
    \29\ U.S. EPA, Notice of Proposed Rulemaking, National Pollutant 
Discharge Elimination System (NPDES) Permit Requirements for Municipal 
Sanitary Sewer Collection Systems, Municipal Satellite Collection 
Systems, and Sanitary Sewer Overflows (Jan. 4, 2001) (note: there are 
no official page citations available since this proposal was not 
published).
    \30\ J. Bennett, et al., Infectious and parasitic diseases, in 
Closing The Gap: The Burden Of Unnecessary Illness 102 (Robert Amler & 
H. Bruce Dull eds., Oxford University Press 1987).
    \31\ U.S. EPA, Notice of Proposed Rulemaking, National Pollutant 
Discharge Elimination System (NPDES) Permit Requirements for Municipal 
Sanitary Sewer Collection Systems, Municipal Satellite Collection 
Systems, and Sanitary Sewer Overflows (Jan. 4, 2001).
---------------------------------------------------------------------------
    Sewer overflows can result in illness and, in extreme cases, death. 
Such was the case in the small town of Cabool, Missouri in 1990, when 
an overflow was linked to a pathogenic strain of E. coli that killed 
four people, hospitalized 32 and caused diarrhea and other problems for 
243 more residents.\32\ In 1988, sewage overflows in Ocoee, Florida 
periodically flooded a mobile home park during heavy rains and caused 
occasional outbreaks of disease, including 39 cases of hepatitis A. Two 
years ago, a 34-million gallon spill in San Diego continued unabated 
for a week, unmonitored. By the time it was finally discovered and 
stopped, solid sewage covered miles of beaches.\33\
---------------------------------------------------------------------------
    \32\ Id.
    \33\ T. Rodgers and S. La Rue, ``City Lacks Early Warning Systems 
for Spills'' at A1, San Diego Union-Tribune (Mar. 1, 2000).
---------------------------------------------------------------------------
    The Environmental Protection Agency rule that the administration 
stayed would help keep bacteria-laden raw sewage discharges out of our 
streets, waterways and basements, and make public reporting and 
notification of sewer overflows mandatory. The proposed rule would also 
help protect the public from getting ill from exposure to raw sewage, 
would improve capacity, operation and maintenance of sewer systems, and 
would cost only $1.92 per household per year.
    The Association of Metropolitan Sewerage Authorities (AMSA), which 
represents sewer operators, is lobbying the administration to abandon 
portions of the rule, despite having already agreed to those provisions 
in a 5-year Federal advisory committee process. AMSA favors a rule that 
would allow its members to continue to discharge raw sewage so long as 
they implement a capacity, management, operation, and maintenance 
program. AMSA argues that the Clean Water Act's requirement that all 
sewage be treated before it is discharged is too expensive. Congress 
rejected that argument in 1972, and it has no more basis today. 
Investment in our sewer systems is a sound investment in cleaner water 
and better health.
    The Bush Administration proposal, if ever issued, is likely to be 
inconsistent with the CWA goal of providing effective treatment for all 
sewage. While these rules sit on the chopping block, raw sewage 
continues to flow into our waters, and Americans are still denied even 
rudimentary public notice of such contamination in the waters from 
which they drink and where they swim and fish. As the late Senator 
Edmund S. Muskie said in 1971, ``The fact of raw sewage floating in our 
river outrages us.'' \34\ Thirty years later, it still outrages us and 
still endangers us.
---------------------------------------------------------------------------
    \34\ A Legislative History of the Water Pollution Control Act 
Amendments of 1972 at 1263.
---------------------------------------------------------------------------
New Net Loss of Wetlands
    For more than a decade, the cornerstone of America's approach to 
wetlands protection has been a policy that calls for ``no net loss'' of 
wetlands--a policy that originated with the first Bush Administration. 
However, over the last year, the Bush Administration has adopted two 
major changes to wetlands protection policy that will result in more 
wetlands being filled and destroyed, and, until reversed, have 
effectively eliminated the possibility that the Nation can achieve the 
no net loss goal.
    In October 2001, with no public notice or opportunity for comment, 
the Corps of Engineers reversed the long-standing policy no net loss 
policy by issuing new ``guidance'' that dramatically weakened standards 
for wetland ``mitigation.'' The use of mitigation to try to make up for 
wetland losses is already a controversial practice that is often 
misused to justify the destruction of existing wetlands in exchange for 
a promise to create new wetlands. The new guidance makes this situation 
much worse by allowing wetlands to be traded off for dry upland areas 
that do not serve the same functions as wetlands. As our natural 
wetlands are traded away for uplands, the net loss of wetlands will 
increase. The result will be the loss of thousands of acres of wetlands 
each year, resulting in less flood protection, less water cleansing, 
and less fish and wildlife habitat. Other Federal agencies subsequently 
objected, but no guidance to overturn this misguided Corps guidance has 
been issued.
    Despite the President's Earth Day 2001 pledge to preserve vital 
wetlands resources, his administration also relaxed a key provision of 
Clean Water Act regulations that govern development and industrial 
activity in streams and wetlands, the nationwide permit program. The 
Corps loosened these permit standards to make it far easier for 
developers, mining companies, and other industries to destroy more 
streams and wetlands without any notice or opportunity for the public 
to comment. EPA and the Fish and Wildlife Service opposed the changes, 
but the changes were put into place nonetheless. Developers and mining 
interests that brought suit against the previous set of nationwide 
permits have been urging the Bush Administration to allow more wetlands 
destruction for development, mining, and other purposes. So far, their 
voice appears to have outweighed those of environmental and natural 
resources experts and the public, which supports strong protections for 
the nation's water resources.
    Wetlands play a critical role in protection of the environment and 
public health. They absorb floodwaters, filter pollution, recharge 
groundwater aquifers and provide habitat for hundreds of plant and 
animal species, including many that are threatened or endangered.
    Since the 1800's, the conterminous U.S. has lost over half of its 
wetlands, and the Nation continues to lose at least 60,000 acres of 
wetlands each year. This rate of loss will certainly increase as a 
result of rollbacks of wetland protections by the Bush Administration. 
These changes will mean greater destruction of wetlands, with less 
opportunity for notice and comment by the public. The inevitable result 
will be increased flooding, more water pollution, and greater loss of 
wildlife habitat.
Turning our Waters into Waste Dumps
    Allowing masses of industrial wastes to be dumped into streams, 
lakes, rivers, and wetlands is contrary to the central purpose of the 
Clean Water Act: to restore and maintain the integrity of the nation's 
waters. Nothing is more inconsistent with that goal than allowing 
industries to bury and permanently destroy waters under huge piles of 
industrial debris.
    Yet, on May 3, 2000 the Bush Administration eliminated a 25 year-
old Clean Water Act regulation prohibiting the Army Corps of Engineers 
from allowing wastes to be used to bury and destroy waters of the 
United States.\35\ The rule change was motivated by administration 
efforts to legalize the practice of mountaintop removal mining, where 
coal companies blast the tops off of mountains and huge volumes of 
waste are dumped into nearby valleys, burying streams and wetlands and 
killing all aquatic life. Already, in West Virginia and Kentucky alone, 
well over 1000 miles of streams have been authorized for destruction by 
mountaintop removal waste fills.
---------------------------------------------------------------------------
    \35\ 67 Fed. Reg. 31129 (May 9, 2002).
---------------------------------------------------------------------------
    As if this were not bad enough, the Bush proposal would not stop at 
the edge of the Appalachian coal fields, but would allow the Corps to 
issue permits to all kinds of industries to dump wastes like hardrock 
mining waste, construction and demolition debris, and other solid 
industrial wastes to bury wetlands, streams, rivers, coastal waters, 
and other waterways throughout the country.
    The polluters--coal mining companies, gold and copper mining 
companies, and other industrial polluters--made these rule changes to 
allow them to dump their wastes in waters a top priority. According to 
government documents, these industries met with EPA and other Bush 
Administration officials to pressure them to rewrite clean water rules 
according to industry specifications. The administration acquiesced, 
and the final rule gives the Corps authority to permit any industry to 
bury any waterway under piles of coal mining waste, hardrock mining 
tailings, construction and demolition debris--almost any sort of solid 
waste.
    Allowing waters to be buried under piles of waste permanently 
destroys those waters. The Clean Water Act was adopted in 1972 to 
protect our rivers, streams, lakes, wetlands, and coastal waters. The 
very first sentence of the law declared this goal: ``It is the 
objective of this chapter to restore and maintain the chemical, 
physical, and biological integrity of the Nation's waters.'' Turning 
waters into waste dumps is the very kind of act that the Clean Water 
Act was passed by Congress to prevent.
Derailing Cleanup of Polluted Rivers, Lakes, and Coastal Waters
    Thirty years after passage of the Clean Water Act, the overwhelming 
majority of the population--218 million Americans--lives within 10 
miles of a polluted river, lake, or coastal water.\36\ These waters are 
not safe for fishing, swimming, boating, much less as drinking water 
sources or for other basic uses. The polluted waters include 
approximately 270,000 miles of rivers and streams, 7.7 million acres of 
lakes, and 15,000 square miles of estuaries that have been assessed and 
found to be impaired--polluted by discharges of sediments, nutrients, 
and pathogens, as well as pesticides and other toxic chemicals.\37\
---------------------------------------------------------------------------
    \36\ U.S. Environmental Protection Agency, Atlas of America's 
Polluted Waters. EPA 840-B-00-002. Washington, DC. 2000.
    \37\ U.S. EPA, National Water Quality Inventory: 2000 Report, 
http://www.epa.gov/305b/2000report.
---------------------------------------------------------------------------
    In 1972, the drafters of the Clean Water Act created a program to 
ensure that where the law's technology requirements limiting pollution 
from factories, sewage plants, and other ``end-of-the-pipe'' pollution 
sources were not enough to result in clean, safe water, additional 
steps would have to be taken. That program is the ``Total Maximum Daily 
Load'' cleanup program. The cleanup program requires that States and 
EPA identify rivers, lakes, and coastal waters that are not protected 
enough by the Act's technology requirements and then develop a cleanup 
plan (known as a TMDL) for each waterbody.
    The cleanup plan calculates the maximum amount of a pollutant that 
a waterbody can receive and still meet water quality standards, sets a 
pollution ``cap'' or load limit, then allocates the total pollutant 
load reductions among all point and nonpoint dischargers of the 
pollutant to ensure that the total cumulative amount of the pollutant 
discharged will not exceed the limit.
    Now, the Bush Administration has said that it plans to ``redesign'' 
the Clean Water Act's program for cleaning up these polluted waters. On 
August 7, 2002, the EPA announced that it intends to rewrite the rules 
of the Act's cleanup program. Bush Administration strategies for 
crippling the cleanup of polluted waters include proposals to:
    <bullet> Weaken standards for classifying waterbodies and allow 
currently polluted waters to be re-defined as clean--at least on paper;
    <bullet> Allow States to rely upon speculative and unenforceable 
reductions from nonpoint sources as a basis for classifying waters as 
``likely to achieve'' water quality standardsand, therefore, avoid 
doing a TMDL cleanup plan;
    <bullet> Allow increased discharges from point sources based upon 
those same speculative, unenforceable future reductions from nonpoint 
sources; and
    <bullet> Curtail EPA's oversight of the States' implementation of 
this vital program of the Clean Water Act.\38\
---------------------------------------------------------------------------
    \38\ U.S. EPA powerpoint presentation to AMSA (July 19, 2002); U.S. 
EPA powerpoint presentation to the Association of State and Interstate 
Water Pollution Control Administrators (March 10, 2002).
---------------------------------------------------------------------------
    Current regulations for implementing the cleanup program were 
adopted in 1985 by the Reagan Administration, then amended in 1992 
under the previous Bush Administration. These rules have been 
supplemented by various guidance documents and many Federal court 
opinions interpreting the EPA's and States' responsibilities under the 
cleanup provisions of the statute. If finalized, the Bush 
Administration's proposal will drastically weaken these longstanding 
rules and ensure that dirty waters remain polluted--if not become more 
so--for decades to come.
    Rather than rolling back another core Clean Water Act program, the 
Bush Administration should focus on ensuring that the States properly 
implement the current TMDL cleanup program. Congress established the 
TMDL program to clean up America's waterways. It is the duty of the 
States and EPA to implement this program and restore the nation's 
waters for safe use by all Americans. We have no hope of ever attaining 
this goal under this Administration's aggressive attack on the Act.
 cutting tributaries, streams, and wetlands out of the clean water act
    If all of these threats were not enough, the Bush Administration 
recently announced the largest potential roll back of CWA protections 
yet. Instead of demonstrating its commitment to protecting all the 
waters of the United States and strengthening the effectiveness of this 
most important law, the administration has instead decided to propose 
new regulations that could remove many waters from coverage under the 
Clean Water Act.
    Testifying before Congress on September 19--just a month short of 
the 30th anniversary--EPA and U.S. Army Corps of Engineers officials 
announced that they now ``question'' whether the Act should apply to 
non-navigable tributaries of navigable waters, intermittent and 
ephemeral streams, man-made watercourses connecting these waters, and 
wetlands adjacent to such waters--waters that have been undeniably 
protected by Federal law for decades. The rules now questioned by the 
Bush Administration have, since 1975, explicitly defined waters of the 
U.S. broadly in order to implement the Clean Water Act's goal of 
restoring and maintaining the ``chemical, physical, and biological 
integrity of the Nation's waters.'' They told the House committee that 
the administration will initiate a rulemaking to change the regulatory 
definition of ``waters of the United States'' because of these 
questions.
    This was a stunning pronouncement. If the administration removes 
Federal Clean Water Act protection for non-navigable tributaries of 
navigable waters, including intermittent and ephemeral streams, man-
made watercourses connecting these waters, or wetlands adjacent to 
these waters, this proposal would reverse almost 30 years of national 
policy to protect the nation's waters and has grave implications for 
the control of pollution, the health of communities, the protection of 
habitat and flood control efforts. Reopening the definitions of which 
waters should be included in the Clean Water Act will undermine many 
rules and court decisions that have protected our nation's waters for 
decades.
    Of course, Congress enacted the Clean Water Act, and only Congress 
can change it, so any attempt to limit the scope of the act by 
regulation would undoubtedly be the subject of a vigorous legal 
challenge. But it important to recognize the significance and audacity 
of what the administration is proposing here. To define certain waters 
as outside the scope of the Act means those waters would not be subject 
to any of the law's protections: the prohibition on discharging 
pollutants, the requirements to get a permit before discharging 
effluent or fill material, or the requirement that impaired waters be 
listed and plans to clean them up written.\39\ For these excluded 
waters, there would be no Federal Clean Water Act.
---------------------------------------------------------------------------
    \39\ 33 U.S.C. Sec. 1311, 1342, 1344, and 1313(d).
---------------------------------------------------------------------------
    There is no scientific basis for excluding any of these waters from 
Federal protection. In fact, the vast body of scientific evidence 
teaching us how hydrologic systems function emphasizes the connectivity 
of waters, how affecting one part of the system affects the whole. 
Wetlands, intermittent and ephemeral streams, and tributaries are 
integral parts of watersheds that affect the health of all water 
systems, even those that are seemingly ``isolated.'' These waters drain 
into larger waterbodies and groundwater sources. Pollution or fill 
dumped into these waters destroys important water resources and 
eventually ends up in larger lakes and rivers.
    Administration officials claim that the proposed rulemaking is a 
response to a January 2001 Supreme Court decision concerning so-called 
``isolated'' wetlands and subsequent lower court rulings concerning 
wetlands. However, the Supreme Court ruling at issue, Solid Waste 
Agency of Northern Cook County vs. Army Corps of Engineers,\40\ only 
struck down the use of a policy under which the Corps of Engineers 
extended jurisdiction to water bodies based on their use by migratory 
birds. Neither the Supreme Court ruling nor the majority of lower court 
rulings have held that any regulatory weakening of the Clean Water 
Act's regulatory definition of ``waters'' is warranted, let alone the 
sweeping proposal announced by the Bush Administration.
---------------------------------------------------------------------------
    \40\ 531 U.S. 159 (2001).
---------------------------------------------------------------------------
    In fact, the Department of Justice (DOJ) has argued in nearly two 
dozen court cases since the Supreme Court's January 2001 decision that 
the current definition of ``waters of the United States is not only 
legal and reasonable, but that without broad protection of all waters, 
the goals of the Clean Water Act cannot be met.
    For example, on August 30, 2002 the DOJ filed a brief in the case 
of U.S. v. Newdunn, on appeal to the Fourth Circuit, which stated:

          Federal regulations reasonably construe the [Clean Water Act] 
        term ``waters of the United States'' to include wetlands 
        adjacent to all tributaries, not just primary tributaries, to 
        traditional navigable waters.

    In criticizing the lower court's ruling, the DOJ's Newdunn brief 
argues that any other interpretation of the regulations would be 
inconsistent with the Act itself:

          The court fails to explain why or how Congress could have 
        intended to regulate discharges into all primary tributaries 
        but not secondary tributaries, regardless of their significance 
        to the traditional navigable waters into which they flow, 
        directly or indirectly.
          The regulations have consistently construed the Act to 
        encompass wetlands adjacent to tributaries to traditional 
        navigable waters--be they primary, secondary, tertiary, etc.--
        since 1975, a construction that comports with Congress's intent 
        to control pollution at its source and broadly protect the 
        integrity of the aquatic environment. (Emphasis added.)

    Similarly, a July 2002 brief for the United States in U.S. v. 
Rapanos before the Sixth Circuit Court of Appeals argues that:

          To exclude non-navigable tributaries and their adjacent 
        wetlands from the coverage of the Act would disserve the 
        recognized policies underlying the Act, since pollution of non-
        navigable tributaries and their adjacent wetlands can have 
        deleterious effects on traditionally navigable waters.
    Despite the Justice Department's arguments, the Bush 
Administration's response to the narrow loophole created by the SWANCC 
ruling is to tear open the entire Clean Water Act. No President in the 
last 30 years--Republican or Democrat--has ever proposed such a 
significant cutback to Clean Water Act protections.
                               conclusion
    The administration's attacks on the Clean Water Act come at a time 
in our country's history when national security concerns are at new 
high. The administration is seizing upon these risks as an excuse to 
relax the environmental laws--essentially equating environmental 
protection with increased threats to our security. This 
administration's nexus between the environment and our nation's 
security could not be further from reality. A country without clean 
water to drink, without clean water in which to swim, and without 
healthy fish is a country at grave risk.
    Every living creature on this planet depends on water for its 
survival on water. Thirty years ago, this Congress understood this 
basis premise of life and bravely stood up to industry opposition and 
crafted the wisdom of the Clean Water Act. Sound, judicious enforcement 
of this law has protected our public health and the environment and 
secured a healthier, safer future for all Americans. This 
administration has turned its back on that wisdom. If we do not halt 
this reversal, we will be exposed to long-term threats to the health 
and welfare of the environment, the citizens of this country and our 
society.
                               __________
     Statement Paul Pinault, Executive Director, Narragansett Bay 
    Commission, and President, Association of Metropolitan Sewerage 
                            Agencies (AMSA)
                              introduction
    Good morning Chairman Jeffords, Senator Smith, members of the 
committee, and distinguished guests. My name is Paul Pinault. I am 
Executive Director of the Narragansett Bay Commission in Providence, 
Rhode Island and President of the Association of Metropolitan Sewerage 
Agencies (AMSA).
    It is an honor for me to be here today to represent AMSA's 
membership of 280 publicly owned treatment works across the country. As 
environmental practitioners, we treat more than 18 billion gallons of 
wastewater each day and service the majority of the U.S. population.
    The success of the Clean Water Act is due, in large part, to the 
hard work, ingenuity and dedication of local wastewater treatment 
officials. In fact, it has been 32 years since a group of public 
wastewater officials banded together and founded AMSA. From the early 
1900's, municipal governments have provided the majority of financial 
support for water pollution control.
    In the early days, cities financed and built collection systems 
that conveyed wastewater to primary treatment facilities. Eventually, 
outbreaks of cholera and typhoid and the decline of fish populations 
led to the passage of the 1948 Water Pollution Control Act and the 
first Federal funding program that would help cities address the 
enormous challenge of treating billions of gallons of wastewater. Then, 
on June 22, 1969, Ohio's Cuyahoga River became engulfed in flames, a 
sign that our country's water quality was in crisis. The stray spark 
that ignited the oil and debris on the Cuyahoga also lit a fire under 
Federal lawmakers to strengthen the Federal water quality program. The 
result was the enactment of the Clean Water Act of 1972.
    Mr. Chairman, America's greatest water quality improvements were 
made during the 1970's and 1980's when Congress boldly authorized and 
funded the Construction Grants Program, providing more than $60 billion 
for the construction of publicly owned treatment plants, pumping 
stations, and collection and interceptor sewers. The Construction 
Grants Program was directly responsible for the improvement of water 
quality in thousands of rivers, lakes, and streams nationwide. As our 
waters once again became fishable and swimmable, recreation and tourism 
brought jobs and revenue to local economies.
    Unfortunately, the Federal commitment to fund continued water 
quality improvements declined drastically with the end of the grants 
program and the implementation of the 1987 amendments to the Clean 
Water Act.
    As Federal funds dramatically declined in the 1990's, the 
complexities of our challenges and the costs of implementing 
regulations continued to rise exponentially. While we, as public agency 
officials, consider ourselves America's true environmentalists who have 
cleaned-up and restored thousands of the nation's waterbodies, our 
progress has been slowed by this decline in the Federal financial 
commitment.
    Over the past year, this committee has received substantial 
testimony that has documented the coming funding crisis in the 
wastewater industry. As the measurable gap between projected clean 
water investment needs and current levels of spending continues to 
grow, local ratepayers will be unable to foot the bill for the costs 
associated with increasingly stringent requirements of the Clean Water 
Act. In a report entitled ``The Clean Water and Drinking Water 
Infrastructure Gap Analysis'' that was released last week, EPA 
estimated the 20-year gap for clean water could be as high as $442 
billion.
    At the Narragansett Bay Commission, an estimated $471 million is 
needed for the completion of current capital projects. Our average cash 
expenditures are expected to be $100 million annually. We anticipate 
receiving approximately $60 million a year from Rhode Island's State 
revolving loan fund, leaving an annual funding ``gap'' of $40 million.
    Mr. Chairman, Senator Smith, and members of the committee . . . I 
would like to take this opportunity to thank you for working with AMSA 
this year on important legislation that would significantly increase 
the authorized levels of funding under the Clean Water Act.
    Unfortunately, the world has changed significantly from when this 
process began with a series of hearings in 2001. At that time, AMSA had 
targeted the Federal budget surplus as a logical source of funding to 
increase the Federal investment in wastewater infrastructure. In light 
of our current budget deficit and the continued costs associated with 
our nation's defense, we believe that the authorized levels of funding 
proposed in S. 1961 and S. 2813 would not be available to appropriators 
out of the general revenue fund for many years to come.
    As a result, AMSA is exploring alternative, dedicated sources of 
revenue to fund future water quality improvements.
    Our municipal wastewater treatment systems are critical pieces of 
national infrastructure and, as such, should be financed through a 
long-term, sustainable, and reliable source of Federal funds. Although 
operating efficiencies and rate increases can provide some relief, they 
cannot and will not be able to fund the current backlog of capital 
replacement projects plus the treatment upgrades that will be required 
in the years to come.
    Federal support for wastewater infrastructure is critical to 
safeguard the environmental progress made during the past 30 years 
under the Clean Water Act. As water pollution control solutions move 
beyond political jurisdictions to a broader watershed approach and as 
we address a wider array of pollutants and pollution sources, the 
national benefit of improved water quality will more than justify the 
larger Federal contribution.
    As we look to the future, we see that the challenges facing the 
leaders of today's wastewater treatment agencies include polluted 
runoff from every source imaginable containing billions of pounds of 
soil, manure, fertilizer, farm and lawn chemicals, oil and grease, 
nutrient and toxic contaminants, and other pollutants. Nonpoint source 
pollution, along with the challenges posed by combined and sanitary 
sewer overflows and stormwater system discharges, are going to cost 
this country billions of dollars and take several decades to control. 
In a March 2002 interview with the Christian Science Monitor, EPA 
Administrator Christine Whitman said, ``I think water is going to be 
the biggest environmental issue that we face for the 21st century in 
both quantity and quality.''
    The ``quality'' part of that challenge, Mr. Chairman, will fall 
squarely on the shoulders of local wastewater treatment officials. As 
we strive together to make further progress under the Clean Water Act, 
it is imperative that we create a new Federal funding program to 
finance today's infrastructure needs as well as the innovative 
solutions that will be required to control future water quality 
problems.
    On behalf of AMSA's members, we look forward to working with you to 
solve these problems together. The bipartisan nature of this committee 
over the 30-year history of the Clean Water Act has undoubtedly 
contributed to the Act's success. Thank you for the opportunity to 
present our views to the committee and we look forward to your 
participation in the celebration of the 30th anniversary of America's 
Clean Water Act.
                                 ______
                                 
Responses of Paul Pinault to Additional Questions from Senator Jeffords
                   outdated tmdl rule must be revised
    Question 1. In a letter to EPA Administrator Whitman on the draft 
TMDL rule, AMSA described the 1992 rule on TMDLs as ``broken'' and 
urged the EPA to proceed with a new rule. Why do you believe that the 
Administration's draft TDL rule is beneficial to the municipal 
wastewater community?
    Response. AMSA supports the Administration's efforts to revise the 
existing total maximum daily load (TMDL) regulations. We have 
consistently advised EPA that the existing regulations are inadequate 
and do not support the large number of TMDLs which states will be 
required to develop and implement.
    What is needed is a realistic regulatory format which establishes a 
fair and equitable allocation among pollution sources, accounts for and 
remedies the current paucity of reliable water quality information upon 
which TMDLs and listing decisions are based, enables States to adapt 
TMDLs over time with advances in data and modeling information, 
streamlines the current listing and de-listing process, and promotes 
the review and revision of State water quality standards early in the 
process. The decade-old 1992 regulations leave many of these critical 
issues unad-
dressed. As a result, States lack sufficient guidance as to EPA's 
expectations and permittees in the NPDES program, by default, assume 
all of the risk and a disproportionate amount of the burden in the 
faulty allocation process.
    To date, AMSA has not had the opportunity to review the draft 
proposed regulations and we are unable to elaborate in detail those 
provisions which are or will be acceptable to the municipal wastewater 
community. At the same time, EPA staff have publicly informed AMSA and 
other stakeholder groups about the changes being considered by the 
Agency. Although AMSA has not reviewed cthe proposed rule changes, we 
are supportive of the following concepts that may be under 
consideration:
    <bullet> Integrated 305(b)/303(d) reports
    <bullet> New listing categories (no listing of ``threatened'' 
waters)
    <bullet> Greater reliance on States for implementation and planning
    <bullet> Less aggressive EPA permitting role
    <bullet> Adaptive implementation--encouraged through CPP
    The following are among a longer list of unresolved issues and are 
areas of concern for AMSA in a possible revised proposal:
    <bullet> The standard for non-point source load allocations
    <bullet> Specific allocations for nonpoint sources
    <bullet> Review and revision of Water Quality Standards not tied to 
TMDL development
    <bullet> Pre-TMDL permitting
    <bullet> TMDLs still required for waters impaired by pollutants not 
amenable to attainment of water quality standards via a TMDL (e.g., 
legacy pollutants, air deposition, CSOs, etc.)
    <bullet> No provisions to ensure that TMDLs will be higher quality 
documents/plans
    AMSA members are the daily practitioners responsible for achieving 
the goals of both the TMDL program and the Clean Water Act. As water 
quality experts, AMSA's members will continue to provide expert input 
into the development of an equitable and updated TMDL rule.
            non-point source control critical to cwa success
    Question 2. As you know, non-point source pollution remains a 
significant source of impairment for America's waters. How would you 
frame a policy to address non-point pollution?
    Response. Water quality improvements over the past 30 years are a 
direct result of municipal and industrial point source programs 
designed to achieve technology-based treatment standards and water 
quality standards set for individual water bodies. As the question 
states, a significant number of our nation's waters remain impaired. In 
fact, according to the U.S. Environmental Protection Agency (EPA), 
after 30 years of the Clean Water Act, 40 percent of U.S. waters remain 
polluted--largely by non-point source pollution.
    Industrial and municipal point sources are easily identified and 
highly regulated facilities that are required to treat wastewater 
before it is discharged into receiving waters. Point sources are 
strictly controlled by the Clean Water Act, which forbids any discharge 
to U.S. waters unless regulated by a permit. Discharges without permits 
are punishable by fines or imprisonment, and wastewater quality is 
continually monitored and reported to State and Federal regulators who 
ensure that water quality is protected.
    Water pollution from nonpoint sources is preventing the country 
from realizing its full clean water potential--high quality drinking 
water, teeming fisheries and wildlife habitat and expanded recreational 
opportunities. According to EPA, agriculture is responsible for 
degrading 60 percent of the country's impaired river miles and half of 
the impaired lake acreage. Non-point source pollution closes beaches, 
contaminates or kills fish, destroys wildlife habitat and pollutes 
drinking water. The current mix of voluntary, incentive-based programs 
to reduce non-point source pollution have not shown the type of results 
that are desperately needed to reach America's clean water goals.
    As a logical starting point, AMSA recommends that the proposed 
revisions to the total maximum daily load program (TMDL) adopt 
proportionate share responsibilities for the allocation of pollutant 
loading reductions to all contributing sources. The new watershed rule 
should address the fact that there are no Federal statutory or 
regulatory criteria on how loading reductions shall be apportioned 
between various point and nonpoint sources. AMSA also believes that 
States must carefully craft regulations and procedures regarding the 
proper apportionment of loading reductions.
    In addition, States must be required to establish enforceable 
requirements for the control of all nonpoint sources of pollution 
within impaired Sec. 303(d) listed watersheds. Furthermore, the waste 
load allocations (WLAs) for nonpoint sources must be delineated in 
TMDLs in sufficient detail so that all sources (including land use 
individuals) understand their pollutant contributions, their required 
reductions, and the control measures they must implement.
    Another critical but overlooked element in the non-point source 
reduction debate is the huge amounts of cash local governments are 
spending to meet tough Clean Water Act requirements. The Act requires 
cities, towns and counties to reduce wet weather flows and to bring 
impaired waters into compliance with State and Federal water quality 
standards. But many communities across the country have no response 
when their citizens ask, ``Why spend all this money when the bulk of 
the problem lies elsewhere?''
    Put in perspective, urban flows are a part of the country's overall 
water quality problems but do not represent the most persistent threat. 
Although local governments will spend billions of dollars to meet the 
Act's requirements, they are powerless to address the most pervasive 
problem in most watersheds: nonpoint sources that seriously pollute 
waters. With gaps in the law, gaps in our economic and scientific data, 
lack of funding and no consistent, comprehensive mechanisms for 
monitoring and regulating those responsible for non-point source 
pollution, many communities may be held hostage by someone else's 
pollution.
    Stronger laws and regulations, increased funding, and further 
research aimed toward controlling non-point source pollution are 
essential. Without a comprehensive national plan that incorporates all 
of these elements, further water quality gains will go unrealized. When 
it comes to the nation's water quality, it boils down to two basic 
issues: equity and priorities. Where equity is concerned, Americans 
strongly feel that whoever makes a mess should clean it up. And, as for 
priorities, most would agree that to complete the job the Clean Water 
Act started, we should target the biggest remaining problem--non-point 
source pollution--with a combination of better scientific data, new 
laws, tougher regulations, and increased funding. The reason is simple. 
Fair, priority-driven, holistic approaches to control non-point source 
pollution will markedly improve water quality nationwide at a lower 
cost to our communities.
                                 ______
                                 
Response of Paul Pinault to Additional Questions from Senator Voinovich
            clean water critical to healthy local economies
    Question 1. You cited during the hearing a direct relationship 
between waters that are fishable and swimmable to the economy and job 
creation. Throughout my career, I have fought to improve Lake Erie's 
water quality, and I have seen firsthand the economic benefits of the 
Lake's revival. Has your Association or do you know of any studies that 
quantify the economic impact of water quality on our country?
    Response. As Senator Voinovich's question acknowledges, investments 
in water and wastewater systems pay substantial dividends to the 
environment, public health, and the economy. It is well documented that 
municipal wastewater treatment plants prevent billions of tons of 
pollutants each year from reaching America's rivers, lakes, and 
coastlines. In so doing, they preserve natural treasures such as Lake 
Erie.
    Clean water supports a $50 billion a year water-based recreation 
industry, at least $300 billion a year in coastal tourism, a $45 
billion annual commercial fishing and shell fishing industry, and 
hundreds of billions of dollars a year in basic manufacturing that 
relies on clean water. Clean rivers, lakes, and coastlines attract 
investment in local communities and increase land values on or near the 
water, which in turn, creates jobs, add incremental tax base, and 
increase income and property tax revenue to local, State, and the 
Federal Government.
    In Senator Voinovich's region, in 1995, the U.S. Fish and Wildlife 
Service (FWS) reported that participants in the fishing industry in the 
U.S. portion of the Great Lakes generated about $2.22 billion in sales 
to local businesses and that the sport fisheries industry represented 
$4.4 billion in annual economic activity. Additionally, the FWS 
reported that about 75,000 jobs are supported by Great Lakes sport 
fisheries.
    Per your request, you will find more details on the economic impact 
of clean water in Chapter 1 of Clean and Safe Water for the 21st 
Century by the Water Infrastructure Network, which is available for 
downloading at: http://www.amsa-cleanwater.org/advocacy/winreport/
winreport2000.pdf. At the end of Chapter 1 you will find the list of 
footnotes. The list includes additional reports that contain data on 
the value of clean water to our nation's economy.
    This information, while helpful, falls far short of conveying the 
true role of clean water in America's economic development and the 
recurring `real' value of clean water to citizens of the United States. 
Simply put, our nation would not, could not, and will not thrive 
without clean water.
               clean water challenges in the 21st century
    Question 2. What are some of the specific challenges that we face 
in the 21st century and how best can we hope to address them? What 
programs have worked the best in getting the biggest bang for our buck 
in improving water quality?
    Response. Too often we forget that with the exception of the 
interstate highway system, the biggest public works investment in 
America in the 20th century was in water and wastewater infrastructure. 
The value of that investment must be protected for future generations 
in the 21st century.
    The importance of wastewater infrastructure was well understood in 
the late 1960's as the Nation watched the quality of its waters decline 
precipitously and chose in the 1972 Clean Water Act to spend Federal 
tax dollars to reverse this trend. A large number of publicly owned 
treatment works (POTWs) built secondary and advanced treatment 
capabilities as a result of the EPA's Construction Grants Program. 
According to EPA's 2000 report entitled ``Progress in Water Quality'', 
a total of $61.1 billion ($96.5 billion as constant 1995 dollars) was 
distributed to municipalities through construction grants from 1970 to 
1995. Not coincidentally, the greatest gains in water quality also were 
realized under the Federal Construction Grants Program.
    Adequate financial resources to States, cities, and communities are 
the most essential element to maintaining our nation's wastewater 
infrastructure. The Clean Water Act (CWA) amendments of 1987 created a 
new phase of clean water funding by replacing the Federal Construction 
Grants Program with the Clean Water State Revolving Fund Loan Program 
(SRF). Since 1980, according to studies by both the U.S. Environmental 
Protection Agency (EPA) and the private sector, Federal contributions 
have declined by 75 percent in real terms and today represent only 
about 10 percent of total capital outlays for water and wastewater 
infrastructure and less than 5 percent of total water and wastewater 
outlays. Local governments currently assume more than 90 percent of 
water infrastructure construction costs in the form of expensive bond 
issuances--municipal debt--and increased water and sewer bills.
    Only grant funding in significant amounts provides sufficient 
resources and incentives to gain local support for increasing utility 
rates to pay for new regulatory costs and the costs of replacing or 
rehabilitating aging infrastructure. If there is any doubt regarding 
whether water infrastructure grants are in fact an essential part of 
addressing the significant core infrastructure needs of our nation's 
communities, one need look no further than the fiscal year 2002 VA-HUD 
appropriations bill for EPA. In this bill, Congress approved direct 
grants for 337 core water infrastructure projects totaling nearly $344 
million to communities across the country. The fact is that grants are, 
and always have been, a necessary part of a real solution to our local 
infrastructure needs.
    When funds for the repair, replacement and rehabilitation of pipes 
are unavailable and projects are deferred, cracks, leaks and failures 
become more frequent. Additional costs then are incurred to remediate 
the resulting environmental and related economic impacts (i.e. beach 
closures, etc. can lead to significant losses for seasonal, localized 
economies). The failed pipes also become more costly to repair. 
Clearly, a long-term, sustainable, and reliable source of Federal 
funding for clean water construction projects would prevent the 
additional costs associated with failures, safeguard the environment, 
protect public health, and sustain local economies.
    As America's economy continues to slow and unemployment increases, 
as the backlog of infrastructure projects grows and sewer rates 
increase, a Federal investment in public wastewater infrastructure 
would be a sound investment. For every $1 billion invested in 
infrastructure, tens of thousands of jobs are generated. Moreover, 
these investments yield significant short-term as well as long-term 
benefits in the form of improved efficiencies, security, safety and 
reliability.
    Among the many specific clean water challenges of the 21st century, 
the most costly will be controlling urban wet weather flows. With 40 
million Americans being served by combined sewer systems and an 
estimated 40,000 backups of sanitary sewers each year, the challenge of 
the decade for many wastewater treatment agencies will be how to pay 
for the needed improvements in these systems to bring them into 
compliance with EPA rules and regulations.
    The most effective investment that the Federal Government can make 
in order to improve water quality is direct funding for municipal 
capital programs.
                               __________
             Statement of Roberta Haley Savage, President, 
                    America's Clean Water Foundation
    Mr. Chairman and members of the committee: I am Robbi Savage, the 
President of America's Clean Water Foundation (ACWF) and the national 
coordinator for the Year of Clean Water: The Commemoration of the 30th 
Anniversary of the Clean Water Act.
    America's Clean Water Foundation was established in 1989 to 
coordinate the celebration of the twentieth anniversary of the passage 
of the Clean Water Act. The Foundation's Board of Governors was, at 
that time, co-chaired by the House and Senate Floor Leaders of the 1972 
statute: Senator Edmund Muskie, Senator Howard Baker, Representative 
John Blatnik, and Representative William Harsha.
    These environmental statesmen were all personally and actively 
involved in the Commemoration of the 20th Anniversary attending 
cleanups, festivals and the World Water Summit hosted by President 
Carter at the Carter Presidential Library in Atlanta, Georgia.
    As we convene here today, we are celebrating 30 years of progress 
under what has been called by members of this body ``the most 
successful environmental statute in history.'' Throughout October, 
America's Clean Water and its many partners (see attached list) are 
sponsoring four national events that include:
    The Youth Watershed Summit: October 6-10, 2002 at the Smithsonian 
Environmental Research Center (SERC) in Edgewater, Maryland. ACWF, and 
its two primary co-sponsors, the Smithsonian Institution and the 
Environmental Protection Agency, have invited the nation's Governors to 
select 4 students and a teacher/advisor to accompany the students to 
SERC for a 4-day program designed to educate, inspire and train young 
people from throughout the 50 States to be water quality monitors and 
advocates for cleaner water. Three of the young people attending this 
Youth Watershed Summit are here with me today.
    National Water Monitoring Day: October 18, 2002, 30 years to the 
day after the passage of the Clean Water Act. This national event is 
expected to bring together upwards of 100 thousand Americans into the 
nation's waters taking samples for pH, dissolved oxygen, temperature 
and turbidity on the same day. With our partners at Earthforce, USEPA, 
the Department of Agriculture, the Department of Interior's US 
Geological Survey, the National Oceanic and Atmospheric Administration 
and the Army Corps of Engineers, we have developed a nationwide effort 
that will occur annually and provide citizen-monitoring data that can 
be tracked over time. And, Mr. Chairman, at the culmination of National 
Water Monitoring Day, we will begin the synthesis process and will 
provide you and the House Committee chair with our report.
    The Senior Watershed Summit: October 28-30 in Sandy Cove, Maryland. 
This Summit is being co-sponsored by ACWF and the Environmental 
Alliance for Senior Involvement (EASI). At this Summit we will bring 
together seniors from around the country to learn about in-stream 
monitoring techniques and to help with the establishment of Senior 
Water Body Monitoring Corps in all 50 States.
    The World Watershed Summit: October 30-November 1, at the JW 
Marriott Hotel in Washington, DC. President George W. Bush has been 
invited to keynote the Summit. Senator Howard Baker and former 
Administrator Bill Ruckelshaus are also expected to participate in the 
culminating event. This World Watershed Summit is being cosponsored by 
The Association of State and Interstate Water Pollution Control 
Administrators (ASIWPCA) and the Association of Metropolitan Sewerage 
Agencies (AMSA).
    The purpose of these events and of the Commemoration of the 30th 
Anniversary of the Clean Water Act is to focus national attention on 
the improvements made to our national water resources and to highlight 
areas where additional attention should be targeted.
    As the Committee is well aware, in 1972, Congress enacted the 
Federal Water Pollution Control Amendments (Public Law 92-500), known 
as the Clean Water Act. The Act was designed to respond to public 
demands on the government to clean up and protect our nation's 
waterways.
    Public interest was intense because throughout the 1960's many 
communities experienced extensive fish kills, discolored streams, 
fouled beaches and contaminated water supplies. Before the law, 
government response to these issues varied according to the limits of 
available science, technical and institutional capacity and available 
funding. Legislators tried to respond to the problems, often without 
solid technical evidence or insight as to the economic and 
environmental consequences of the actions they championed.
    The Clean Water Act, one of the first and most successful national 
environmental laws to be passed by the Congress had as its primary goal 
to ``. . . restore and maintain the chemical, physical and biological 
integrity of the nation's waters.'' The goals called for water to be 
``fishable and swimmable'' by 1983 and for the elimination of pollution 
discharges to navigable waters by 1985.
    In the past three decades, Clean Water Act programs have yielded 
measurable improvements in water quality. Streams that were once devoid 
of fish and other aquatic life now support an abundant and varied 
population. Lakes that were once choked by eutrophication are now 
vastly improved. Yet even with these improvements, we are far from 
attainment of our national goals and the stringent water quality 
objectives of subsequent amendments.
    With the passage of time, the public's attention to these goals has 
waned, even though Americans consistently cite clean water as among 
their highest priorities. Ironically, even with the priority Americans 
consistently place on clean water, there has been a decline in public 
awareness, technical innovation and youth education relative to clean 
up and protection of our water resources. The spirit of cooperation and 
enterprise, the hallmark of early efforts to craft an effective 
national water pollution control act, has also faded since the early 
1970's. The public stewardship ethic needs to be rekindled in order to 
address the intricate web of human activity that consistently degrades 
water quality.
    In closing, Mr. Chairman, I would like to extend a special thank 
you to the nation's Governors, the majority of whom have issued 
proclamations designating 2002 as the Year of Clean Water. Many of the 
States have developed comprehensive outreach programs, which include 
but are not limited to:
    (1) Stream and lake cleanups;
    (2) Water festivals;
    (3) Governors' water conferences;
    (4) Training and education programs and materials;
    (5) Public service announcements;
    (6) Press education symposia;
    (7) Poster, photo and essay contests; and
    (8) Exhibits and documentaries.
    It is our hope and expectation that the activities and events 
taking place throughout this nation during the month of October will 
foster awareness of our clean water successes and challenges and 
strengthen our commitment to finding solutions. The response to our 
programs has been overwhelmingly positive, and we are most grateful for 
the willingness of so many to dedicate their time and talents to 
support the Year of Clean Water. A comprehensive list of the plethora 
of celebratory events can be found at www.yearofcleanwater.org.
    Finally, I also want to thank you and your staff for putting this 
hearing together so that we may revisit the accomplishments of the past 
three decades and refocus national attention on the importance of 
continuing our efforts to provide Clean Water Everywhere for Everyone!
                               __________
       Statement of Grace Chris, Student Delegate from Vermont, 
              Youth Watershed Summit (October 6-10, 2002)
    Good morning and thank you, Senators, for allowing me to speak 
about clean water before this committee while I'm attending the Youth 
Watershed Summit. My name is Grace Chris, I'm 13 years old and I live 
in Vermont. I am both honored and very, very nervous this morning.
    I came here from the State of Vermont, also known as the Green 
Mountain State for the beautiful hills that cross the State north to 
south. Throughout the Green Mountains and its adjacent lowlands are 
miles of streams and rivers and acres of ponds and lakes. These 
waterways nourish the green of the mountains and in turn support the 
wildlife, farm life, and human life whose habitat is the State of 
Vermont. The fall foliage for which Vermont is famous draws water from 
Vermont earth and creates jobs for Vermonters involved in the tourist 
industry. The sweet maple syrup from Vermont Sugar Maple trees starts 
out as clean water in the many Vermont watersheds. Cows drink Vermont 
water and give us world famous Cabot cheese and Ben and Jerry's ice 
cream. Agriculture, hunting and fishing, trees and tourists, 
recreation, business and industry, and daily Vermont quality of life 
all depend on maintaining the abundance and cleanliness of Vermont's 
waters.
    My classmates and I, and all the other kids attending the Youth 
Watershed Summit, are doing something back home to help protect the 
waters that bring life to our States. This week in Maryland we've all 
come together to share evidence of our efforts to protect our water. We 
already know that 30 years ago you did something very important by 
creating The Clean Water Act, and for 30 years Americans have benefited 
from that important legislative accomplishment. My teacher was a senior 
in High School when you passed the Clean Water Act in 1972. This week 
he's here with me and the other students and teachers at the Summit to 
share in a celebration of what this Senate helped create 30 years ago. 
We're hoping to demonstrate that the effort to protect the world's 
waters continues through us and the work we do back home.
    I'm an 8th grade student at The Hartford Middle School in White 
River Junction, Vermont. My school is located about one-half mile from 
the point where the White River flows into the Connecticut River. 
Upstream from us, the White River Watershed collects rain and runoff 
from the many, many tributaries that flow through the forests, 
farmlands, and towns of Bethel, Randolph, Rochester, Stockbridge and 
Sharon, and many, many other beautiful small Vermont villages of 
central Vermont. The activities we conduct and allow along these 
waterways determine the present and future health and abundance of 
these waters. The work of our State and Federal employees and the many 
local volunteers is very important in protecting the White River 
Watershed. My classmates and I are a part of that group effort, and I'm 
here to tell you a little bit about what we are doing to fulfill the 
Clean Water Act's goals.
    As water flows through my watershed, it's drawn out for various 
uses and then returned in various states of contamination. Also, rain 
water and snow melt carry manure, road salt and many other chemicals 
from fields and roads and parking lots into the watershed through 
``non-point source pollution.'' Business, industry, breweries and cider 
mills, sewerage treatment plants, schools, hospitals, private homes and 
vacation homes often add materials and chemicals to the waterways 
through identifiable pipes, or ``point source pollution.'' The disease 
causing bacteria E. coli, cancer-causing heavy metals, poisonous 
industrial wastes and road salts all contribute to changes in the water 
quality in my watershed. Fish and other animal populations, drinking 
water sources and favorite swimming holes benefit or suffer from what 
you and I and others do, or fail to do, in and around our waterways. 
Most of the water uses are necessary and very important and need to 
continue. Volunteers and professionals follow the fate of these waters 
through water quality monitoring programs and stream bank restoration 
projects. Small towns pass budgets to upgrade sewerage treatment plant 
facilities or adopt low salt policies for their roads, and students 
collect tires and trash from streams and ponds during Vermont's Green 
Up Day on the first Saturday in May. Together, we use and sometimes 
abuse our watersheds through our daily activities. Together, we have a 
responsibility to undo the damage that our waters are subjected to 
every day. The Clean Water Act gives us the authority to clean up our 
waters, but it is we individuals who must put forth the effort to 
repair, restore and maintain our watershed water quality. I want to 
thank you for all you do as Federal leaders and lawmakers, and I want 
to tell you what we are doing.
    My school is a pioneer in the use of Geographic Information System 
, or (GIS), and Global Positioning Systems, or (GPS) technologies in 
Vermont. We are learning how to collect data and display data in 
spatial, or map formats. We can take fish collection data, E. coli 
population data, soil type and land use data, or pH and water 
temperature data collected in our watershed and show it as a map. We 
can ask important questions about the relationships among these water 
quality factors, and then display those relationships in multi-colored 
maps. The spatial display of these data may reveal patterns that better 
explain what is going on in the watershed. Right now my group's work 
has been to look for relationships among the land use on the shores of 
the streams and riverbanks, the soil types on those shorelines, and the 
E. coli populations in the downstream waters. We've found that the E. 
coli populations are higher in water that has less forest vegetation 
along the shoreline. However, we don't see a clear relationship between 
Prime Agricultural Soils on the shoreline and high E. coli populations 
in the nearby water. Our GIS analysis has begun to reveal some 
relationships among water quality factors in our watershed, and it's 
created some new questions for us to investigate in the future. What we 
expected to find was not exactly what we found, and we want to know 
why. So, we'll keep on working at it and training other kids how to do 
this work.
    We are just young people, but young people with an interest in our 
watershed. We've been lucky to work with groups like the Vermont 
Institute of Natural Science (VINS), the White River Partnership, and 
Vermont Fish and Wildlife. They have taught us about GIS and shared 
their water quality data with us. Together we are creating a Community 
Mapping Program to help local community leaders use GIS technologies to 
plan for their community's future and manage its resources wisely. Our 
teacher has received training from groups associated with NASA and the 
Environmental Protection Agency. Now, we'd like to count on continued 
support from you, the U.S. Senate, through thoughtful legislation, to 
help my school and other schools protect the White River Watershed and 
every other watershed in every other State. I hope my testimony here 
today contributes to that goal.
    Again, I'm very honored to have been invited to talk to you about 
clean water. Together, I hope we'll continue to be responsible citizens 
and support the 1972 Clean Water Act for at least another 30 years. 
Thank you very much, and goodbye.
                               __________
        Statement of Jordan Chin, Student Delegate from Oregon, 
              Youth Watershed Summit (October 6-10, 2002)
    Mr. Chairman and members of the committee: My name is Jordan Chin. 
I am 16 years old, and I attend the Metropolitan Learning Center in 
Portland, Oregon.
    I am here today, Mr. Chairman, as one of the Oregon representatives 
to the Youth Watershed Summit, hosted by America's Clean Water 
Foundation, the Smithsonian Environmental Research Center and the 
Environmental Protection Agency.
    When I was invited to attend the Youth Watershed Summit, I jumped 
at the opportunity because I have always believed that youth 
involvement in our society could create new visions for our country. 
This convention of some 250 students selected by their Governors from 
the 50 States is an outstanding chance for me and for my fellow 
students to learn, to share and to carry the Clean Water message home 
to our respective States.
    I believe that information about our environment is something that 
should be shared and made available to every American. Awareness and 
knowledge are the keys to bringing about a positive change in our 
society and its attitudes about our fragile environment. Water is what 
we are made of: it is the source of life. I think that youth 
involvement and education is an exceptional beginning to that process.
    Because I believe in bringing the need for cleaner water to the 
attention of young people, I am one of the actors who will, this 
evening, perform the The Murky Water Caper: A Real Fish Story, written 
for ACWF by Deborah Rodney Pex. I am pleased to play the Detective 
Michelle Tuesday.
    Ms. Tuesday is an inquisitive private investigator with a passion 
for justice and the desire to assure the well being of the creatures 
and spaces around her. Ms. Tuesday helps the fish, who have retained 
her, find the causes of pollution that is contaminating their home. 
Even with the cheesy jokes, I'm very excited and proud to be a member 
of the cast. I understand, Mr. Chairman, that some members of your 
committee staff may be joining us tonight at the YMCA Camp Letts to see 
just how The Murky Water Caper can be an inspiring and fun way to 
educate people of all ages who care about the quality of their water. 
Because this play is packed with information, I would like your 
permission, Mr. Chairman, to present each member of the committee with 
a copy of The Murky Water Caper booklet recently published by America's 
Clean Water Foundation.
    I am here today to say thank you to those who were so wise as to 
give our country the Clean Water Act back in 1972 and to say that I 
know that the future of water quality rests in our hands as well as 
yours. As a young person, I want to be very informed about the ways I 
affect the environment and I want to share that information with my 
peers.
    At home in Oregon, I am currently enrolled in an ecology class at 
my school and am making a project of finding eco-friendly options for 
those teenagers, like myself, who are in search of a plentiful 
wardrobe. Even small things like buying clothes that don't negatively 
affect our planet can be helpful in more ways than most of us can 
imagine. And while there is lots of public information available, I am 
hard pressed to find more than a handful of people outside of my class 
who are aware of the resources we're draining, or the negative impact 
we are having on our planet by how we live our lives each day.
    Mr. Chairman and members of the committee, I have one message that 
I want to leave with you. The people of our country don't seem to be 
aware of the fact that the environment is deteriorating and is being 
largely neglected by virtually every person who lives on this planet.
    This neglect is not just in other countries or other States--it's 
not just the distant rain forest down in South America or those 
wetlands we hear about in other States. It's where we live, its all 
around us, it is us. We are fouling the air we breathe, the surface and 
groundwater we drink, the land we live on and the foods that we eat.
    I am but one student in a small State on the other side of the 
country from Washington DC, but I know that every citizen in this 
country needs to know how important it is for us all to protect our 
water. They need to know that polluted water affects the health of our 
parents, our children, our friends, our relatives and people we have 
never even met. In protecting the Earth we are protecting ourselves, we 
are protecting all people, all animals and all the vegetation that 
sustains us.
    If we care for our planet, we are taking care of each other. I 
sincerely hope that our testimony before you this morning has shown 
you, the guardians of our country, that teenagers can care. We are 
drinking in the information provided at the Youth Watershed Summit, and 
we're thirsty for more. We want a healthy planet to grow up in, to go 
to college in and to live and raise our families in. Everyone on this 
committee and many of the people in this room have the power to protect 
our water. I want you to know that we will be there to help.
    Thank you for listening.
                               __________
     Statement of Kristen Hoeft, Student Delegate from Minnesota, 
              Youth Watershed Summit (October 6-10, 2002)
    Mr. Chairman and members of the committee. Good Morning and thank 
you so much for inviting me here to talk with you about the Clean Water 
Act. My name is Kristen Hoeft. I come before the committee as a 
representative of the Youth Watershed Summit and as a citizen of the 
land of 11,842 lakes, the great State of Minnesota. I am currently a 
senior at the School of Environmental Studies in Apple Valley, 
Minnesota. Mr. Chairman, I am very honored to be appearing before you 
today and I want to share my thoughts about growing up in Minnesota, a 
State that has water virtually everywhere. I have been able to 
experience some of our State's beautiful lakes and rivers from canoeing 
in the boundary waters in northern Minnesota, hiking along the shores 
of Lake Superior or boating on the Mississippi and St. Croix Rivers.
    My parents felt it was very important for me to know how to swim 
and to learn boating safety because we spend most of our summers along 
the Mississippi and St. Croix Rivers. I look back and realize the 
important foundation my parents gave me because, not only do I enjoy 
the recreational aspect of the water we have in Minnesota, but I also 
have come to appreciate water ecology, the need to educate people about 
shore erosion and the reduction of chemical pollution in our lakes, 
rivers and streams. Over the years, I have seen the Minnesota and 
Mississippi Rivers flood many times where farmers have lost crops and 
precious topsoil. This erosion has not only hurt the farmers, it adds 
to the pollution of the Minnesota and eventually the Mississippi River. 
I have come to understand that it is not only topsoil that is eroding 
into our stream and lake waters it is also the variety of chemicals 
used in the farming process.
    I have always thought that if our country's pollution problems were 
really important, the adults would take care of finding a solution to 
pollution. But I have come to realize that this has not always been the 
case.
    In my junior year of high school, I decided to attend the School of 
Environmental Studies (SES) because it is a much smaller setting than 
the traditional high school. From the four high schools in our 
district, 200 juniors and 200 seniors are selected to attend. SES, as 
it is known, has an innovative way of teaching the basic subjects of 
English, Social Studies and Science by collecting data, analyzing it 
and reporting the information blending all three subjects together with 
an environmental theme.
    The mission statement of SES reads ``a community of leaders 
learning to enhance the relationships between people and their 
environments.'' The first project of my junior year started with the 
Pond Profiles. This is an activity that the city of Eagan helps us with 
a great deal. We were given a course in identifying water plants and 
organisms as well as land plants and running chemical tests. Then we 
were sent out with a teacher to a specific lake or pond in the city of 
Eagan. While at the pond or lake, we were required to identify 
organisms found in and around the water and conduct several water 
quality tests such as Secchi disk to determine the clarity of the pond 
or lake and chemical tests such as pH and dissolved oxygen.
    All of this data is collected and then presented to the city of 
Eagan water officials and put on permanent record in Eagan. We provide 
this service because with over 1,000 ponds, lakes and wetlands in the 
watershed city staff do not have time to collect such data. This is the 
first of many such projects that SES does for the city of Eagan. This 
was a gratifying way to expand the learning process beyond the 
classroom and I enjoyed it thoroughly. Learning environmental science 
with hands on experience is much more interesting than just reading out 
of a textbook. That is why we at SES are excited about participating 
with America's Clean Water Foundation and its many cosponsors, in 
National Water Monitoring Day. On October 18, 2002, students, seniors, 
professionals and those who just want to help protect water quality are 
coming together to sample water quality throughout the Nation. I am so 
excited to think that hundreds of thousands of people will join 
together on the actual 30th Anniversary of the Clean Water Act to test 
for pH, DO, temperature and turbidity.
    Another experience I have regarding the environment is that I 
frequently walk my dog around the lake at the park across the street 
from my home. It is a small lake that is enjoyed by many people in the 
area. Any time of the year you will see people fishing in the lake. In 
the spring when the snow and ice have melted the lake is beautiful. It 
appears to be clean and clear. But looks can be deceiving because by 
early summer the growth of algae is so thick that it would appear as if 
you could walk across the lake. The city then comes in with a large 
machine that harvests the weeds and rids the lake of most of the algae. 
I wish that the same people that enjoy that lake year round would take 
some time to think about the chemicals that they dump on theirs lawns 
to make their lawns lush and green at the expense of the water quality 
of the lakes in our watershed district. The city of Eagan is attempting 
to combat the phosphorus chemicals found in the fertilizer used by many 
people and has recently started to add a chemical called Alum that 
removes the phosphorus in the water and should eventually lessen the 
amount of algae growth in the lake.
    Mr. Chairman, I would like to see legislation and education 
maintain water quality so that my neighborhood lake and the thousands 
of other lakes and rivers in Minnesota can be clean for future 
generations.
    For the past four summers, I have worked as a nanny for a family 
with three girls. One day last summer the girls and I decided to go for 
a bike ride on a trail that overlooks the confluence of the Minnesota 
and Mississippi Rivers. It was a clear, bright and sunny day. We 
stopped where the rivers come together and I decided to point out some 
interesting river ecology facts to the girls. The first thing I asked 
the girls was to tell me which river they thought was the Minnesota and 
which one they thought was the Mississippi. Because it was a very 
bright day, one river looked very clean and the other very dirty. The 
girls were amazed to learn that it was actually the Minnesota River 
that appeared very dirty. They found this hard to believe because 
everyone seems to think of the Mississippi as the ``Muddy 
Mississippi.'' But the fact remains; it is the farm chemicals, 
livestock runoff and silt that pollute the Minnesota River. When the 
two rivers join, you can see the line of suspended soils from the 
Minnesota River blending into the Mississippi. So, it is actually the 
Minnesota River that gives the Mississippi a bad reputation in our part 
of the Nation.
    In 1819 Fort Snelling was settled because of its location between 
the two rivers. The Native Americans in this area believed that the 
land near the confluence was the origin of all life. It is sad that 
today we do not think it is important enough to try and improve the 
quality of these rivers and are slow in doing anything to fix the 
problems.
    I have come to realize that although some people are aware of the 
problems regarding water quality, it will be the responsibility of my 
generation through awareness and education to clean and protect the 
environment. That is why I wanted to come to the Youth Watershed 
Summit. I want to learn as much as I can about water quality, pollution 
and remediation in the various States.
    I know that the problems we face in Minnesota are not Minnesota's 
alone; these are the problems of our Nation. It will be necessary to 
work together to clean up and restore the lakes, rivers and oceans. I 
say let's make America even greater by setting an example to the rest 
of the world that clean water is an important issue for everyone. While 
I know that there have been significant improvements over the past 
three decades, I also know that I want clean water for my generation 
and the generations to follow. I want clean water for my children and 
the children of my children.
    So when I was looking on the Year of Clean Water website 
(www.yearofclean water.org) I was surprised to notice that the last 
time the Congress reauthorized the Act was in 1987. Through my studies 
I know that there have been many changes over the past 15 years and I 
also know that water detection and protection has become far more 
complex. So more advanced technologies should be translated into the 
Clean Water Law. So I must ask you Mr. Chairman and members of the 
committee, to begin the process of reauthorization to assure that our 
country can provide clean, fresh water for all of us for many 
generations to come.
    Thank you for allowing me to appear before you today.
                               __________
      Association of Metropolitan Sewerage Agencies (AMSA),
                                                   October 9, 2002.

Senator James Jeffords, Chairman,
Environment & Public Works Committee,
SD-410 Dirksen Senate Office Building,
Washington, DC 20510-6175.

Dear Senator Jeffords: On behalf of the Association of Metropolitan 
Sewerage Agencies (AMSA), I would like to thank you for the opportunity 
to provide testimony before the Environment & Public Works Committee 
yesterday in recognition of the 30th anniversary of the Clean Water 
Act. AMSA appreciated the chance to highlight achievements made in the 
past 30 years, including the remarkable progress made as a result of 
the efforts of public wastewater treatment utilities, as well as the 
challenges that remain to continuing improvement of the quality of our 
nation's waters.
    As a matter of clarification, I would like to respond to assertions 
made by the Natural Resources Defense Counsel (NRDC) concerning AMSA's 
position on the forthcoming sanitary sewer overflow (SSO) rule. We want 
the committee to understand that AMSA always has and still does support 
the U.S. Environmental Protection Agency's (EPA's) efforts to publish a 
Federal rule which provides regulated communities with the direction 
they need to minimize SSOs. The discussions we have had with EPA on the 
issue of SSOs over the past year have been with an eye toward 
encouraging the Agency to publish the current rule, and to be open to 
exploring options during the public comment period that are equally 
protective of the environment while being cost effective in this era of 
limited resources.
    AMSA supports a regulation that passes Senator Mitchell's ``common 
sense'' rule, one which clearly defines an achievable standard for the 
design, operation and maintenance of sanitary sewer collection systems. 
It is AMSA's belief that the current proposal's zero discharge standard 
imposes a technologically unrealistic mandate without reference to 
actual impact, such that limited local resources would be diverted from 
addressing other pollution sources that pose a greater threat to water 
quality. AMSA continues to believe that alternative solutions to 
addressing SSOs can and should be discussed in a public forum following 
the proposal of a rule.
    Thank you again for the opportunity to testify before the 
committee, and to clarify our support for continued improvements in 
water quality. We ask that this letter be included as part of the 
committee's record of this hearing. Please feel free to call me if you 
should have any questions at (202) 833-4653.
            Sincerely,
                                                  Ken Kirk,
                                          Executive Director, AMSA.
                               __________
          Statement of the American Society of Civil Engineers
    Mr. Chairman and members of the committee: The American Society of 
Civil Engineers (ASCE) is pleased to present this statement for the 
record to the committee on the 30th anniversary of the Clean Water Act, 
one of the nation's premier environmental statutes.
    ASCE was founded in 1852 and is the country's oldest national civil 
engineering organization. It represents more than 125,000 civil 
engineers in private practice, government, industry and academia who 
are dedicated to the advancement of the science and profession of civil 
engineering.
                             i. background
    The Federal Water Pollution Control Act, 33 U.S.C.A. 1251 et seq., 
is the principal law that deals with pollution in the nation's streams, 
lakes, and estuaries. The Act, commonly referred to as the Clean Water 
Act, was enacted in October 1972. It was substantively amended in 1977, 
1981 and 1987.
    The Act consists of two major parts: a regulatory scheme that 
imposes progressively more stringent requirements on industries and 
cities to abate pollution and meet the statutory goal of zero discharge 
of pollutants and provisions that authorize Federal financial 
assistance for municipal wastewater treatment plant construction. Both 
are supported by permit and enforcement provisions. Programs at the 
Federal level are administered by the Environmental Protection Agency 
(EPA); the Act allows EPA to delegate enforcement and permitting 
authority to the States, and they have major responsibilities to 
implement the Act's programs.
    Congress declared in 1972 that it intended to restore and maintain 
the chemical, physical, and biological integrity of the nation's 
waters. These objectives were accompanied by statutory goals to 
eliminate the discharge of pollutants into navigable waters by 1985 and 
to attain, wherever possible, waters deemed ``fishable and swimmable'' 
by 1983. While the goals have not been entirely achieved, progress has 
been made, especially in controlling conventional pollutants (suspended 
solids, bacteria, and oxygen-consuming materials) discharged by 
industries and municipal sewage treatment plants. These discrete 
sources are easily identifiable and regulated.
    To meet the goals of fishable, swimmable waters, Congress has 
authorized $65 billion in grants and loans to wastewater treatment 
plants between 1972 and 2002. Appropriations--the money actually 
flowing to the States and local governments over the past 30 years--
have totaled $78.45 billion.
    With point sources receiving virtually all of the funding, other 
critical, less definable sources of water pollution--agricultural and 
industrial runoff, for example--are yet to be fully regulated. ``The 
Act ignores largely nonpoint sources of pollution leaving these 
important issues to the common law and State and local regulation.''\1\ 
The U.S. Supreme Court read the concept of local regulation quite 
literally in Solid Waste Agency of Northern Cook County (SWANCC) v. 
U.S. Army Corps of Engineers, 531 U.S. 159 (2001) (holding that the 
government could not regulate isolated wetlands and other nonnavigable 
waters). The decision may lead to more regulation, not less.
---------------------------------------------------------------------------
     \1\ William H. Rodgers, Jr., Environmental Law 248 (2d Ed. 1994).
    In 1987, the Supreme Court ruled that the Clean Water Act, which 
has a savings clause, does not preempt common law nuisance actions so 
long as they are based on the law of the state of the source of the 
pollution. See Mary J. Davis, Unmasking the Presumption in Favor of 
Preemption, 53 S.C.L.REV. 967, 995 (2202) (citing International Paper 
Co. v. Ouellete, 479 U.S. 481 (1987)).
---------------------------------------------------------------------------
    The Supreme Court's decision in SWANCC did not conclusively 
foreclose the Federal Government's right under the Clean Water Act to 
restrict environmental degradation of all nonnavigable wetlands. 
Nevertheless, the decision indicates that longstanding policies that 
previously supported an expansive view of Federal powers in the 
environmental regulatory arena will continue to be severely restricted. 
The Court's shift toward a more rigid and inflexible method of 
statutory analysis will increasingly transfer governmental authority to 
promulgate conservation planning and open space protection onto local, 
more decentralized jurisdictions. This will invariably mean that the 
need for State, local, and regional governing bodies to develop 
coordinated agendas for land use planning will become more pressing 
than ever.\2\
---------------------------------------------------------------------------
     \2\ Owen Demuth, Sweetening The Pot: The Conservation and 
Reinvestment Act Reignites the Property Rights/Land Conservation Debate 
for the Twenty-First Century, 50 Buffalo Law Review 755, 798-799 (2002) 
(emphasis added).
---------------------------------------------------------------------------
    Moreover, some critics have argued that this congressional faith in 
State regulation has not always resulted in improved pollution-control 
programs in certain cases.\3\
---------------------------------------------------------------------------
     \3\ See, e.g., Oliver A. Houck and Michael Rolland, federalism In 
Wetlands Regulation: A Consideration of Delegation of Clean Water Act 
Section 404 and Related Programs to the States, 54 Maryland Law Review 
1242, 1243 (1995) (``The Act has been amended to allow States to 
operate delegated section 404 programs, and to allow States to regulate 
certain activities, in the alternative, under broad Federal permits. 
Neither of these opportunities has been widely exercised to date.'') 
(citations omitted).
---------------------------------------------------------------------------
                    ii. infrastructure funding needs
    Although the Federal Government has spent more than $78 billion on 
wastewater treatment programs since 1972, the nation's 16,000 
wastewater systems still face enormous infrastructure funding needs in 
the next 20 years to replace pipes and other constructed facilities 
that have exceeded their design life. With billions being spent yearly 
for wastewater infrastructure, the systems face a shortfall of at least 
$12 billion annually to replace aging facilities and comply with 
existing and future Federal water regulations. The total does not 
account for any growth in demand from new systems.
    Funding has remained flat for a decade. In Fiscal Year 2002, 
Congress appropriated $1.35 billion for wastewater infrastructure, 
which represents about 11 percent of the annual need nationally. 
Requirements for communities that have not yet achieved secondary 
treatment or must upgrade existing facilities remain very high: $126 
billion nationwide is required by 2016, according to the Environmental 
Protection Agency (EPA). The largest need, $45 billion, is for projects 
to control combined sewer overflows. The second largest category of 
needs, at $27 billion, is for new or improved secondary treatment (the 
basic statutory requirement of the Clean Water Act). In addition to 
costs documented by EPA, States estimate an additional $34 billion in 
wastewater treatment needs for projects that do not meet EPA 
documentation criteria but, nevertheless, represent a potential demand 
on State resources.
    Recently, the EPA released a new analysis of wastewater funding 
needs over the next 20 years. The needs are staggering. ``Estimates of 
capital needs for clean water from 2000 to 2019 range from $331 billion 
to $450 billion with a point estimate of $388 billion,'' the Agency 
said.\4\
---------------------------------------------------------------------------
     \4\ U.S. EPA, The Clean Water and Drinking Water Infrastructure 
Gap Analysis 6 (2002).
---------------------------------------------------------------------------
    Between 35 percent and 45 percent of U.S. surface waters still do 
not meet current water-quality standards. According to EPA, sewer 
overflows are a chronic and growing problem. Many of the nation's urban 
sewage collection systems are aging; some sewers are 100 years old. 
Many systems have not received the essential maintenance and repairs 
necessary to keep them working properly. Pending Federal regulations to 
manage sanitary sewer overflows (SSO) would impose an additional total 
cost for all municipalities of $93.5 million to $126.5 million each 
year.
    Without a significantly enhanced Federal role in providing 
assistance to wastewater infrastructure, critical investments will not 
occur. Possible solutions include grants, trust funds, loans, and 
incentives for private investment. The question is not whether the 
Federal Government should take more responsibility for drinking water 
and wastewater improvements, but how.
Policy Options
    New solutions are needed to what amounts to a nearly trillion 
dollars uncritical drinking water and wastewater investments over the 
next two decades. Not meeting the investment needs of the next 20 years 
risks reversing the public health, environmental, and economic gains of 
the last three decades.
    The case for Federal investment is compelling. Needs are large and 
unprecedented; in many locations, local sources cannot be expected to 
meet this challenge alone; and because waters are shared across local 
and State boundaries, the benefits of Federal help will accrue to the 
entire nation. Clean and safe water is no less a national priority than 
are national defense, an adequate system of interstate highways, and a 
safe and efficient aviation system. These latter infrastructure 
programs enjoy sustainable, long-term Federal grant programs; under 
current policy, water and wastewater infrastructure do not.
    Equally compelling is the case for flexibility in the forms of 
Federal investment including grants, loans, and other forms of 
assistance. Grants will be needed for many communities that simply 
cannot afford to meet public health, environmental, and/or service-
level requirements.
    Loans and credit enhancements may be sufficient for other types of 
communities with greater economies of scale, wealthier populations, 
and/or fewer assets per capita to replace.
    ASCE recommends that funding for water infrastructure system 
improvements and associated operations be provided by a comprehensive 
program.
Specific Recommendations Supported by ASCE
    <bullet> congressional appropriations of $11 billion-$12 billion 
annually for immediate wastewater infrastructure repairs and system 
upgrades.
    <bullet> Creation of a water trust fund to finance the national 
shortfall in funding for water and wastewater infrastructure. These 
trust funds should not be diverted for non-water purposes.
    <bullet> Issuance of revenue bonds and tax exempt financing at 
State and local levels, as well as public-private partnerships, State 
Infrastructure Banks, and other innovative financing mechanisms.
                        iii. other policy issues
    ASCE supports a CWA that maximizes, to the extent possible, the 
protection of our nation's waters and the beneficial use of those 
waters. The Clean Water Act should aggressively address non-point 
source pollution from watersheds and also point source pollution from 
sanitary sewer overflows, combined sewer overflows, and storm sewer 
discharges. The reauthorized Clean Water Act should:
    <bullet> Increase funding for infrastructure needs to meet the 
goals and objectives of the Act.

    <bullet> Establish source water protection programs.
    <bullet> Establish standards for the use of recycled water.
    <bullet> Include provisions to encourage pollution prevention.
    <bullet> Integrate watershed management.
    <bullet> Provide source-water protection.
    <bullet> Protect fish and wildlife habitat.
    <bullet> Safeguard the quality of coastal waters and estuaries.
    <bullet> Provide meaningful information to the public about water 
quality.
    <bullet> Authorize regulations that are effective in protecting the 
beneficial uses of the nation's water and flexible enough to allow 
innovative practices and means to achieve these goals.
    ASCE supports the use of the Total Maximum Daily Load (TMDL) 
regulation for improved water quality.
    A national wetlands policy should be established separately.
    That concludes our statement. Please contact Michael Charles of 
ASCE's Washington Office at (202) 789-2200 with any questions.
                               __________
      Statement of Robert E. Lee, Chairman, National Cattlemen's 
                            Beef Association
    Producer-directed and consumer-focused, the National Cattlemen's 
Beef Association is the trade association of America's cattle farmers 
and ranchers, and the marketing organization for the largest segment of 
the nation's food and fiber industry.
    The National Cattlemen's Beef Association (NCBA), on behalf of its 
members and affiliates, herein submits its testimony to the Environment 
and Public Works Committee of the U.S. Senate concerning the oversight 
hearing conducted on October 8, 2002 concerning ``The Clean Water Act--
Then and Now.''
    NCBA represents the many cattle feeders and family ranchers, all of 
whom have a stake in protecting the environment. We believe that common 
sense, cost-effective and affordable principles can be applied to 
livestock production to achieve environmental protection of wetlands 
and riparian areas.
    Initiated in 1898, NCBA is the marketing organization and trade 
association for America's one million cattle farmers and ranchers. With 
offices in Denver and Washington, DC, NCBA is a consumer-focused, 
producer-directed organization representing the largest segment of the 
nation's food and fiber industry.
                   ncba's commitment to conservation
    During last year's Farm Bill debate, NCBA Vice President, Eric 
Davis of Bruno, Idaho, appeared before the Senate Agriculture Committee 
to present testimony outlining the importance of conservation 
initiatives for America's cattle producers.

          ``Regardless of what form the final conservation title will 
        take, we are aware that the financial resources committed to 
        conservation spending over the next 10 years will make the 2002 
        Farm Bill a great milestone in Federal conservation policy. . . 
        . NCBA wants to stress that whatever form the final package 
        takes, it is critical that the 2002 farm bill make a major, new 
        commitment to providing livestock producers with conservation 
        cost share and incentive payments assistance in the context of 
        voluntary, incentive-based programs.''

(Testimony of the National Cattlemen's Beef Association to the Senate 
Agriculture Committee, The Honorable Tom Harkin, Chairman, presented by 
Eric Davis, NCBA Vice-President, July 24, 2001).
               the role of the department of agriculture
    NCBA appreciates the role that the Department of Agriculture has 
taken throughout the years in assisting cattle producers. The technical 
assistance that the Agency provides is critical in helping farmers and 
ranchers implement conservation and environmental practices on their 
operations.
     the role of the environmental protection agency and the states
    The Clean Water Act outlines different approaches for ``point 
sources'' and ``nonpoint sources.'' Depending on their particular 
situation, a cattle operation can either be a ``point source'' or a 
``nonpoint source.'' If a cattle operation is a ``concentrated animal 
feeding operation,'' that operation is a point source, subject to 
effluent limitations guidelines drafted by the Environmental Protection 
Agency (EPA). If a cattle operation is not a concentrated animal 
feeding operation, that operation is considered by the Clean Water Act 
to be a nonpoint source, and pursuant to Section 319 of the Clean Water 
Act, is subject to management programs implemented by the States.
    The Act envisioned a partnership between the States and various 
Federal agencies, working in collaboration to ``restore and maintain 
the chemical, physical, and biological integrity of the nation's 
water.'' 33 U.S.C. ' 1251(a).
    States have developed workable programs that are achieving positive 
environmental results. The fact that the programs vary from State to 
State is evidence that a ``one-size-fits-all'' approach is not 
appropriate.
    Recently, EPA proposed a nutrient trading policy. NCBA submitted 
comments to the proposal. Nutrient trading could be an opportunity for 
effective Federal and State collaboration, with the Agency recognizing 
that in many instances, incentives for voluntary actions can result in 
greater water quality and environmental benefits than would otherwise 
be achieved under the Clean Water Act.
                        the role of the producer
    NCBA recognizes that environmental stewardship is important. NCBA 
policy directs that the Association will not be compelled to defend 
anyone in the beef cattle industry who clearly acts to abuse grazing, 
water, or air resources.
    On the other hand, we believe that it is important to recognize 
those producers who have clearly acted to protect grazing, water, air, 
and wildlife resources. For the past 11 years, NCBA has named seven 
regional Environmental Stewardship Award winners, and a national 
winner. The regional winners are recognized during our summer 
conference, and the national winner is named at the annual National 
Convention.
    Because the role of the producer is ever changing, at this year's 
National Convention, NCBA staff will provide an educational session on 
the new provisions of the Environmental Quality Incentives Program 
(EQIP) during NCBA's ``Cattlemen's College.''
    NCBA appreciates the opportunity to provide this testimony. We 
remain committed to responsible stewardship of our natural resources.
  

                                  <all>

</pre></body></html>
